<html>
<title> - S. 1870, S. 1953, AND S. 1942</title>
<body><pre>[Senate Hearing 115-329]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 115-329
 
                     S. 1870, S. 1953, AND S. 1942

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

         Printed for the use of the Committee on Indian Affairs       
         
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         




                       U.S. GOVERNMENT PUBLISHING OFFICE
                   
 31-535 PDF                    WASHINGTON : 2018      




                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               AL FRANKEN, Minnesota
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                HEIDI HEITKAMP, North Dakota
MIKE CRAPO, Idaho                    CATHERINE CORTEZ MASTO, Nevada
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
       
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 25, 2017.................................     1
Statement of Senator Daines......................................     6
Statement of Senator Franken.....................................     5
Statement of Senator Heitkamp....................................     2
Statement of Senator Hoeven......................................     1
Statement of Senator Lankford....................................     7
Statement of Senator Murkowski...................................     6
Statement of Senator Udall.......................................     4

                               Witnesses

Boyd, Hon. Joel, Colville Business Councilman, Confederated 
  Tribes of the Colville Reservation.............................    25
    Prepared statement...........................................    27
Flute, Hon. Dave, Chairman, Sisseton Wahpeton Oyate of the Lake 
  Traverse Reservation...........................................    16
    Prepared statement...........................................    18
O'leary, Carmen, Executive Director, Native Women's Society of 
  the Great Plains...............................................    29
    Prepared statement...........................................    31
Rice, Bryan, Director, Bureau of Indian Affairs, U.S. Department 
  of the Interior................................................    12
    Prepared statement...........................................    14
Shores, Hon. R. Trent, U.S. Attorney, Northern District of 
  Oklahoma, U.S. Department of Justice...........................     8
    Prepared statement...........................................    10

                                Appendix

Begaye, Hon. Russell, President, Navajo Nation, prepared 
  statement......................................................    47
Letters submitted for the record by:
    CAWS North Dakota............................................    74
    First Nations Women's Alliance (FNWA)........................    72
    Friends Committee on National Legislation....................    74
    Indigenous Women's Human Rights Collective, Inc..............    73
    National Indigenous Women's Resource Center..................    76
    Sacred Spirits First Nations Coalition.......................    72
    United Tribes of North Dakota................................    75
National Congress of American Indians (NCAI), prepared statement.    48
Response to written questions submitted by Hon. Heidi Heitkamp 
  to:
    Hon. Joel Boyd...............................................    79
    Hon. Dave Flute..............................................    85
    Bryan Rice...................................................    82
Response to written questions submitted by Hon. Tom Udall to:
    Hon. Joel Boyd...............................................    77
    Hon. Dave Flute..............................................    84
    Bryan Rice...................................................    80
Rolnick, Addie C., Associate Professor, William S. Boyd School of 
  Law, University of Nevada, prepared statement..................    66
Sheridan, Taylor, Bosque Ranch Productions, Inc., prepared 
  statement......................................................    69
United South and Eastern Tribes Sovereignty Protection Fund (USET 
  SPF), prepared statement.......................................    63
Written questions submitted by Hon. Tom Udall:
    Carmen O'Leary...............................................    87
    Hon. R. Trent Shores.........................................    88
Written questions submitted by Hon. Heidi Heitkamp to:
    Carmen O'Leary...............................................    88
    Hon. R. Trent Shores.........................................    89


                     S. 1870, S. 1953, AND S. 1942

                              ----------                              


                      WEDNESDAY, OCTOBER 25, 2017


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:40 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I will call this legislative hearing to 
order.
    Today, the Committee will examine three bills: S. 1870, the 
SURVIVE Act, which stands for Securing Urgent Resources Vital 
to Indian Victim Empowerment Act; S. 1953, the Tribal and Law 
Order Act Reauthorization and Amendments Act of 2017; and S. 
1942, Savanna's Act.
    On September 27, 2017, I introduced S. 1870, the Securing 
Urgent Resources Vital to Indian Victim Empowerment Act, also 
known as the SURVIVE Act. Senators Barrasso, McCain, Daines, 
Cortez Masto, Franken, Heitkamp, and Tester have joined me as 
original co-sponsors. This bill will create a tribal grant 
program within the Department of Justice's Office for Victims 
of Crime to improve public safety and strengthen victim 
services in Indian Country.
    Existing data shows that tribal communities experience some 
of the highest victimization rates in the Country. For example, 
a recent National Institute of Justice report indicated that 49 
percent of Native women and 19.9 percent, almost 20 percent of 
Native men, require victim services.
    Those basic crime victim services are generally not 
available to tribes. In fact, under the Crime Victims Fund 
annual cap of $3 billion, tribes only receive 0.7 of 1 percent 
of the funding through the States, despite the high 
victimization rates.
    The SURVIVE Act will help fix that. It would authorize a 5 
percent set-aside of that annual cap for Indian tribes, which 
would equate to $150 million a year to tribes.
    The SURVIVE Act would provide more flexibility for tribes. 
The types of services and capacity building authorized would 
include emergency shelters, medical care, counseling, legal 
assistance and related services, and child and elder abuse 
programs.
    In addition, the SURVIVE Act would allow the services to be 
more tailor-made for tribal communities. Through the SURVIVE 
Act, tribes can better identify and craft the victim of crime 
services and resources through a negotiated rule-making with 
the Department of Justice.
    On October 5, 2017, Senators Barrasso, McCain, and I 
introduced S. 1953, the Tribal Law and Order Act 
Reauthorization and Amendments Act of 2017. This bill would 
reauthorize key tribal public safety programs and provide other 
key improvements for justice in Indian Country, particularly 
for Indian youth.
    This bill is based on feedback received from a number of 
hearings, roundtables and listening sessions held with tribes. 
Many tribal recommendations are included in this bill as well 
as those from the Bureau of Indian Affairs, the Department of 
Justice, and other tribal public safety advocates. For example, 
the Department of Justice began implementing the Tribal Access 
Program, TAP, to the various criminal data bases as required by 
the Tribal Law and Order Act.
    This important program, however, has to have funds in order 
to keep operating. The bill would authorize the Attorney 
General to use available and obligated department funds for 
that purpose. In addition, this bill includes recommendations 
developed by tribes in 2008 to address numerous concerns 
regarding juvenile justice for Indian youth.
    These provisions are approaches to collaboration and 
partnership among the Federal, State and tribal governments to 
reduce recidivism among Indian youth. The bill also addresses 
many other needs including human trafficking, public defense, 
trespass, and agency accountability.
    On October 5, 2017, Senator Heitkamp introduced S. 1942, 
Savanna's Act. The co-sponsors are Senators Franken, Heinrich, 
Merkley, Tester, and Warren. The bill, S. 1942, is intended to 
improve the response of addressing missing and murdered Native 
women by improving access to Federal criminal databases, 
requiring data collection, and directing the Attorney General 
to review, revise, and develop law enforcement and justice 
protocols for investigations.
    The Chairman. I will turn at this point to Senator Heitkamp 
so that she can provide comments.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. Thank you, Chairman Hoeven and Vice 
Chairman Udall for holding this very important hearing today on 
not just Savanna's Act but all of these bills that are critical 
to providing and securing justice for Indian people, 
particularly in Indian Country. I am encouraged that today's 
hearing comes just three weeks after my bill was introduced and 
I hope we can continue this momentum as we move to get this 
bill through the Committee and up to the full Senate for a 
vote.
    I would also like to welcome Chairman Flute from my home 
area, from the Sisseton-Wahpeton Sioux Tribe and Carmen 
O'Leary, who is a wonderful advocate and has been so 
instrumental in providing feedback when we were drafting the 
bill.
    I very much appreciate your support for what we are trying 
to accomplish with Savanna's Act. I also want to thank 
Savanna's family who kindly agreed to allow us to use her name 
and to honor her in this way by naming the bill after her. The 
bill was named after Savanna Greywind, a 22-year-old member of 
the Spirit Lake Tribe, who was abducted in August and murdered 
in North Dakota while eight months pregnant. While Savanna's 
tragic death was heard around the world, thousands of 
indigenous women are murdered or disappear every year, with 
many of those cases being ignored or forgotten.
    In 2016, 5,700 cases of missing Native women were reported 
to the National Crime Information Center. I just want to say 
that, in one year only, over 5,700 cases of missing Native 
women. The actual number is likely much larger due to chronic 
under reporting. In addition, homicide is the third leading 
cause of death of Native Indian and Alaska Native women between 
the ages of 10 and 24.
    Nearly everyone in Indian Country in my State, and I think 
really across Indian Country, knows someone who has gone 
missing or, in fact, knows someone is has been murdered. In 
fact, in the last year, in a tribal population of a little over 
5,000 residents in Indian Country, there were five homicides 
involving women. I can tell you that the numbers are 
staggering. When someone can sit down with some friends on 
Standing Rock Reservation and within a short period of time 
come up with the names of 25 people, 25 women who have gone 
missing or murdered, that is simply not acceptable.
    To better protect Native women, we must start raising 
awareness about the epidemic of missing and murdered Native 
women to bring this terrible problem out of the shadows and 
then find solutions. Native women living on reservations and 
across the Nation should not have to live in fear. It is our 
job to do everything we can to ensure their communities and our 
communities are safe and that Native women receive the 
resources they need.
    I believe Savanna's Act is a good starting point in 
addressing this crisis. It incorporates several recommendations 
from the National Congress of American Indians, the United 
Tribes of North Dakota and the National Indigenous Women's 
Resource Center, and of course, numerous other advocates.
    Mr. Chairman, I want to ask that a number of letters of 
support I have received be entered in the record at this time. 
We expect we will receive more and would like the opportunity 
to make sure they are in the record.
    The Chairman. Without objection.
    Senator Heitkamp. Thank you, Mr. Chairman.
    I want to say that I look forward to working with the 
Department of the Interior and the Department of Justice and 
other stakeholders on any technical amendments we can make or 
other good ideas that people have as we move forward with this 
bill.
    I long ago learned a valuable lesson about problem solving. 
You can never solve a problem you will not admit you have. We 
have a problem in this Country, a problem of missing and 
murdered indigenous women that has gone on far too long without 
any national response.
    We owe a unique and specific burden to Native American 
women. In many cases, we have a trust obligation and in many 
cases in my State, the only law enforcement presence against 
major crimes is the Federal law enforcement presence. This is 
not a State issue looking for a Federal solution. This is our 
problem. This is a national problem. We need to bring national 
attention to it and bring all hands on deck.
    Mr. Chairman, again, I want to thank you for holding this 
hearing. I want to thank the Vice Chairman. I want to thank all 
the people here co-sponsoring this.
    I know we can send a message of hope to all the crime 
victims out there, all the families who have wondered far too 
long where is the help, where is the concern for my family 
member? We can make that statement today in this Committee. We 
can make that statement by moving this bill forward.
    I want to thank you so much. I want to thank my two great 
friends who were so instrumental in bringing this to fruition 
and to introduction.
    Thank you, Mr. Chairman.
    The Chairman. Vice Chairman Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Chairman Hoeven, for holding 
today's important hearing. Thank you, Senator Heitkamp for your 
passionate statement.
    This is a hearing on these three important bills that 
promote improvements to public safety in Indian Country. For 
years, this Committee has heard testimony from tribes across 
Indian Country detailing the critical need for public safety 
and victim resources in Native communities. The Federal law 
enforcement agencies have also testified in support of 
additional funding for personnel to help keep Indian Country 
safe.
    Just last month, Chairman Hoeven and I co-hosted a briefing 
by the National Indigenous Women's Resource Center to discuss 
the Department of Justice's study on violence against American 
Indian and Alaska Native women and men. The briefing exposed 
alarming statistics and revealed the critical need to raise 
awareness and access to justice for Native women who suffer 
from the second highest homicide rate in the U.S. and whose 
disappearances or murders are connected to crimes of domestic 
violence, sexual assault and sex trafficking.
    The bills we are considering here today address these very 
same issues: law enforcement resources, victim services and 
public safety in Indian Country. Chairman Hoeven's S. 1870, the 
SURVIVE Act, amends the Victims of Crime Act to authorize a 5 
percent tribal set-aside for victim assistance programs. This 
set aside will move tribes to a more equal playing field with 
States on accessing Federal victim assistance funds. S. 1953, 
TLOA II, builds on tribal law enforcement and criminal justice 
reforms created by the Tribal Law and Order Act in 2010.
    Both of the Chairman's bills are a step in the right 
direction. I look forward to working on them with him and my 
Committee colleagues. Additionally, Senator Heitkamp's bill, S. 
1941, Savanna's Act, looks at the Federal response to missing 
and murdered Indian women. It would promote more accurate data 
collection missing persons in Indian Country and enhance 
coordination between Federal, State and tribal law enforcement 
agencies.
    Many of the members of this Committee supported the 
designation of May 5 as the National Day of Awareness for 
Missing and Murdered Indigenous Women. I applaud Senator 
Heitkamp's efforts to move beyond awareness and combat this 
vicious problem. I look forward to working with her on this 
important bill.
    I also look forward to the continued focus of this 
Committee on these important public safety and Native women's 
issues. Today's bills put forward good ideas but many tribal 
public safety issues remain unaddressed. One of those issues is 
that tribes need the full authority to combat violent crimes 
like sexual assault. That is why last week I joined Senators 
Franken and Murkowski to introduce the Justice for Native 
Survivors of Sexual Violence Act, S. 1986.
    The other major public safety topic we have yet to consider 
this year is the implementation of special jurisdiction 
restored to tribes in the Violence Against Women Act of 2013. 
Over the last five years, tribes have compiled a series of VAWA 
lessons learned. They have made clear that certain steps need 
to be taken for the intent of VAWA 2013 to be fully realized in 
tribal communities. I am working with several colleagues on 
this Committee to review that feedback and put together 
legislation to fix these gaps that leave tribal officers and 
Native youth vulnerable.
    I will end by saying how encouraged I am by this 
Committee's bipartisan commitment to advancing tribal public 
safety.
    Mr. Chairman, thank you again for holding this hearing. 
Thank you to our witnesses for joining us today.
    The Chairman. Senator Franken.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Chairman Hoeven and Vice 
Chairman Udall for holding this important hearing today.
    Thank you to our witnesses for your testimonies. I will 
keep my remarks brief in order to get to the testimony.
    I am happy to see two bills I have co-sponsored being 
considered today: Senator Heitkamp's Savanna's Act, which helps 
address the crisis of missing indigenous women, some of whom 
have been murdered; and also Senator Hoeven's SURVIVE Act which 
aims to improve public safety in tribal communities and 
strengthens resources for Indian victims of crime.
    I want to thank the Vice Chairman for bringing up the 
Justice for Native Survivors of Sexual Violence Act which I 
introduced with Senator Murkowski and the Vice Chairman. An 
alarming number of American Indians face sexual violence in 
their lifetime. It is disproportionally at the hands of non-
Indians. These criminals often go unprosecuted, unpunished and 
are free to commit more crimes.
    This is an epidemic that must be addressed. One of the most 
important steps we can take is to restore tribes' authority to 
hold offenders accountable for these heinous acts.
    This legislation will help tribes address sexual violence 
in their communities in a meaningful way. I look forward to 
working with my colleagues on the Indian Affairs Committee to 
move this legislation forward.
    Thank you again, Chairman Hoeven and Vice Chairman Udall 
and all our witnesses today. I look forward to hearing your 
testimonies.
    The Chairman. Senator Daines.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman and Ranking Member 
Udall.
    Native American communities are home to much beauty in 
places like Montana that are vibrant, indigenous cultures but 
they also tragically face more than their fair share of 
challenges, especially when it comes to public safety. Montana 
reservations continue to see rampant violent crime and law 
enforcement catastrophes.
    Let me share two instances. One, just this last summer, we 
saw a meth-fueled triple homicide on the Crow Reservation. In 
another incident, there was a woman from the Fort Peck 
Reservation who was recently sentenced to 20 years in prison 
for the murder of a baby she had been caring for.
    The Billings Gazette reports ``In the murder case, 
prosecutors said that Janelle Red Dog, forty-three, abused 13-
month-old Kenzley Olson, used methamphetamine while the child 
was unconscious and when the girl stopped breathing, she put 
her body in a duffle bag and threw it in the trashcan. Red Dog 
pleaded guilty in May to second degree murder after 
acknowledging she hit Kenzley twice in an attempt to `quiet 
her.''' These are just a couple of the incidents that have been 
reported.
    Meanwhile, Montana tribes lack the law enforcement 
personnel they need to keep their lands and people safe and to 
protect those who are most vulnerable. On top of that, 
detention facilities in these communities remain overcrowded 
making it easier for those who are a threat to society to 
remain on the streets. We must put a stop to these trends and 
do all we can to foster safe and thriving Native American 
communities.
    Again, I want to thank the Chairman and the Vice Chairman 
for holding this hearing. I look forward to today's discussion.
    The Chairman. Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman.
    I want to thank Senator Heitkamp for putting a face to the 
unfortunately far too many victims, those Native women, 
indigenous women, who are murdered or taken away, never to be 
heard from again. You have named this law Savanna's law. I was 
there on the Floor with you when you spoke of Savanna's story 
and the story of at least six other women in Alaska. One of the 
faces is Sophie Sergie. We remember the circumstances 
surrounding her murder which, at this time two decades later, 
the individual who killed her has still not been found and 
brought to justice. I appreciate the fight that you are 
leading.
    Mr. Chairman, I would ask to be added as a co-sponsor not 
only to Senator Heitkamp's legislation but to the two other 
bills before this Committee this afternoon, the effort that you 
have led with the SURVIVE Act as well as the Tribal Law and 
Order Reauthorization and Amendments. I think everything we can 
do within this Committee to deal with the staggering statistics 
that all of us share, unfortunately in my tenure on the 
Committee, I think this has gone on 15 years, these statistics 
as they relate to domestic violence, sexual assault, child 
sexual assault, murder, youth suicide, and suicide continue to 
mount.
    The effort that we must make to help address at the Federal 
level, working with our tribes, is something that I join my 
colleagues in the good work but know that we have an awful lot 
to be done to even make a dent in things.
    Thank you for the leadership of the many of you and count 
me on as a co-sponsor, please.
    The Chairman. Thank you, Senator. Without objection.
    Are there other opening statements?
    [No audible response.]
    The Chairman. At this point, we will proceed to our 
witnesses. They are: The Honorable R. Trent Shores, U.S. 
Attorney for the Northern District of Oklahoma, U.S. Department 
of Justice, and I will call on Senator Lankford in just a 
minute for that introduction; and Mr. Bryan Rice, Director, 
Bureau of Indian Affairs, U.S. Department of the Interior; 
Washington, D.C.
    The Honorable Dave Flute, Chairman, Sisseton Wahpeton Oyate 
of the Lake Traverse Reservation, Agency Village, South Dakota 
is also here. Although when Senator Heitkamp earlier referred 
to you as coming from her home area, Dave, I figured you were 
from Barney. It is good to have you here.
    We also have The Honorable Joel Boyd, Colville Business 
Councilman, Confederated Tribes of the Colville Reservation and 
Ms. Carmen O'Leary, Director, Native Women's Society of the 
Great Plains, Eagle Butte, South Dakota. Welcome to you all.
    With that, I will turn to Senator Lankford.

               STATEMENT OF HON. JAMES LANKFORD, 
                   U.S. SENATOR FROM OKLAHOMA

    Senator Lankford. Thank you, Mr. Chairman.
    I do want to be able to introduce Trent Shores to the 
Committee today. In June, Trent was confirmed to serve as the 
U.S. Attorney for the Northern District of Oklahoma. He is a 
citizen of the Choctaw Nation and previously served as the 
Deputy Director of the Department of Justice's Office of Tribal 
Justice here in Washington, D.C. In that position, he addressed 
a diverse array of criminal and civil legal issues facing 
American Indians in Indian Country.
    He has also represented the United States at the UN in 
Geneva where he negotiated the UN Declaration of Rights for 
Indigenous People.
    What is probably most important to him today is that one 
year and about 30 minutes ago today, he got married. From 
someone who has been married 25 years, do not spend your one 
year anniversary to the minute testifying before a hearing, as 
important as these hearings are. I don't know whether to be 
able to say welcome to the Committee or you may now kiss your 
bride but we are glad you are here either way.
    Thank you, Trent.
    The Chairman. That was an outstanding introduction.
    Is your bride here?
    Mr. Shores. She is here.
    The Chairman. Would you be willing to introduce her?
    Mr. Shores. I absolutely would. It would be my honor.
    May I introduce to the Committee my wife, Caitlyn Diane 
Shores.
    The Chairman. Thanks so much for being here, Caitlyn. We 
appreciate it. Congratulations to you both.
    You may proceed.

  STATEMENT OF HON. R. TRENT SHORES, U.S. ATTORNEY, NORTHERN 
        DISTRICT OF OKLAHOMA, U.S. DEPARTMENT OF JUSTICE

    Mr. Shores. Thank you, Chairman Hoeven, Vice Chairman Udall 
and members of the Committee, thank you for the opportunity to 
testify before you today about three very important bills 
pertaining to important justice issues in Indian Country: S. 
1870, S. 1953 and S. 1942. It is truly my honor to be here, not 
only as a United States Attorney representing the Justice 
Department, but as an Oklahoman and as a citizen of the Choctaw 
Nation of Oklahoma.
    The three bills we are here to discuss today address some 
of the biggest threats to public safety in Native communities. 
Violent crime and substance abuse occurs at higher rates in 
Indian Country than anywhere else in the United States. This is 
unacceptable.
    There are not enough resources to cover all of the needs of 
law enforcement and victim service providers in Indian Country. 
Too many correctional facilities in Indian Country are 
overcrowded or substandard such that they cannot even provide 
sight and sound separation between adult and juvenile 
detainees.
    Furthermore, the need for treatment services is widespread 
and urgent. Like many areas of our Country, Indian Country is 
not immune to the opioid epidemic. We must improve our services 
and programs for Native juveniles involved in the justice 
system. We need better law enforcement tools and techniques to 
respond to cases of missing and murdered Native peoples, 
especially Native women.
    As the United States Attorney in the Northern District of 
Oklahoma, and throughout my years of experience working on 
tribal justice issues, I have seen and heard from tribal 
leaders firsthand, law enforcement officials, social service 
providers, and victims about the challenges that exist on-the-
ground in Native communities.
    In Oklahoma, we have 39 federally-recognized tribes; 14 of 
those are in my district, the Northern District of Oklahoma. I 
am blessed to have a great working relationship with those 14 
tribes. We have large tribes like the Cherokee Nation and 
Muscogee Creek Nation and smaller tribes such as the Delaware, 
the Miami, or the Pawnee. We prosecute in the NDOK a diverse 
array of violent crimes and encounter too many victims who do 
not have the resources they so desperately need.
    I can tell you that as a Federal prosecutor, I have stood 
next to a hospital bed of the domestic violence victim while 
she recounted the horrific details of her abuse. I remember 
learning in one instance that her boyfriend had a history of 
domestic violence and that multiple women had sought protective 
orders against him. I remember when she told us she did not 
wish to testify against him or cooperate with the prosecution 
because she was afraid of the repercussions.
    While in that case we were able to successfully prosecute 
that offender, I will tell you that far too often in domestic 
violence cases prosecuted by tribal, State or Federal law 
enforcement officials, they are unsuccessful because of those 
types of witness and evidentiary problems. In these and similar 
moments when I was a prosecutor, it was crucial that I had with 
me a tribal law enforcement agent, a Federal law enforcement 
agent and a victim witness service provider of some sort to 
ensure that I was not only meeting the needs of a prosecution 
but also the needs of that victim.
    I recall in 2008, I sat on the floor of a double-wide 
trailer in rural Oklahoma with a BIA investigator and a 
Cherokee Nation marshal. We tried to build rapport with a 12-
year-old little girl who had been repeatedly raped by her 
father. The victim had been so traumatized and so victimized 
that she communicated by adopting the characteristics of 
horses. That is, she whinnied, she snorted and she stamped her 
feet.
    After months of hard work by the prosecution team and the 
victim witness coordinator, we were able to prepare her for 
trial. She testified successfully along with two of her 
friends, a 13-year-old and another 14-year-old Native girl who 
bravely testified in front of that jury and helped us to 
convict her father who is now serving life imprisonment in a 
Federal penitentiary.
    Members of the Committee, I see so many cases like these. 
We require the resources to be successful and investigate those 
cases properly. The SURVIVE Act addresses a long time issue in 
Indian Country, the lack of these kinds of resources.
    The importance of providing effective services to victims 
of crime cannot be overstated. From any angle, humanitarian, 
law enforcement or community relations, it is both right and it 
is necessary.
    The Tribal Law and Order Act of 2010 has been good for 
Indian Country and good for prosecutors in Indian Country. Our 
review of the reauthorization bill is ongoing. While we do not 
yet have a formal position to offer today, we applaud the 
efforts to compel greater improvements in law enforcement, 
especially data sharing and looking at justice services for 
Native American and Alaska Native children.
    We are particularly heartened that you intend to extend the 
Bureau of Prisons pilot project and include support for the TAP 
Program which will help us to expand that opportunity to a 
number of other tribes. Each of the bills that we are 
discussing today proposes new methods and addresses major 
threats to public safety. Savanna's Act addresses a 
particularly tragic set of cases that I have seen, missing and 
murdered individuals, often women, in Indian Country.
    The Justice Department supports the goals of this bill and 
the effort to take on this dark and tragic issue. We have 
identified some technical issues in the course of our review 
and look forward to working with you to address those.
    In conclusion, Mr. Chairman, I see that I am out of time. 
May I briefly conclude?
    The Chairman. Please.
    Mr. Shores. Thank you.
    We have made great progress working together. I know we 
have a ways to go, speaking to you from the on-the-ground 
perspective, to ensure that we reach our mutual goal, achieving 
long-lasting justice in Indian Country. We appreciate the 
efforts of the Committee to ensure that legislation affecting 
Native communities puts Tribal, State, Federal and local 
partners working together in a posture to properly and 
effectively respond to those needs.
    Thank you for the opportunity to testify before you today. 
I look forward to shortly answering some of your questions.
    [The prepared statement of Mr. Shores follows:]

  Prepared Statement of Hon. R. Trent Shores, U.S. Attorney, Northern 
            District of Oklahoma, U.S. Department of Justice
    Chairman Hoeven, Vice-Chairman Udall, and Members of the Committee:
    Thank you for the opportunity to testify before you today about 
three important bills pertaining to critical justice issues in Indian 
Country: S. 1870, Securing Urgent Resources Vital to Indian Victim 
Empowerment Act 2017; S. 1953, Reauthorization of the Tribal and Law 
Order Act of 2010; and S. 1942, ``Savanna's Act.'' It is truly an honor 
to be here, not only as a United States Attorney representing the 
Justice Department, but also as an Oklahoman and as a member of the 
Choctaw Nation of Oklahoma. I began my legal career at the Department's 
Office of Tribal Justice, meeting with tribal leaders from across the 
Country and even helping to draft testimony for officials who testified 
before this Committee. Fifteen years later, I am an experienced career 
prosecutor who has seen firsthand the very real challenges that these 
bills seek to address. As I reviewed the content of these bills, I am 
confident that we can--and will--work together to improve public safety 
in Native communities. It is our duty to do so as we seek to uphold our 
federal trust responsibility.
    The three bills address some of the biggest threats to public 
safety in Native communities. Violent crime and substance abuse occurs 
at higher rates in Indian country than anywhere else in the United 
States. That is unacceptable. There are not enough resources to cover 
all of the needs of law enforcement and victim service providers 
working in and around Indian country. Too many correctional facilities 
in Indian country are overcrowded or substandard such that they cannot 
maintain sight and sound separation between adult and juvenile 
detainees. Furthermore, the need for treatment services is widespread 
and urgent. Like many areas of our Country, Indian communities have 
been plagued by the scourge of the opioid epidemic. We must improve our 
services and programs for Native juveniles involved in the justice 
system, and we need better law enforcement tools and techniques to 
respond to cases of missing and murdered Native peoples, especially 
Native women.
    As the United States Attorney in the Northern District of Oklahoma, 
and throughout my years of experience working on tribal justice issues, 
I have seen and heard from tribal leaders, law enforcement, social 
service providers, and victims about the challenges that exist on-the-
ground in Native communities. There are 39 federally recognized tribes 
in Oklahoma, and 14 of those are in my District. We have large tribes 
like the Cherokee Nation and Muscogee (Creek) Nation and smaller tribes 
such as the Pawnee, Miami, or Delaware Tribes. We prosecute a diverse 
array of violent crimes and encounter too many victims who do not have 
the resources they so desperately need.
    As a federal prosecutor, I have stood next to a hospital bed while 
a victim of domestic violence recounted the horrific details of how her 
lip was busted, her head concussed, her tooth knocked out, her arm 
broken, and her eye blackened. I listened to her cry as she explained 
that her boyfriend had flown into a fit of rage. I remember learning 
that the boyfriend had a history of domestic violence and that multiple 
women had sought protective orders against him. And I remember the 
disappointment when the victim notified us that she did not want to 
testify for fear of repercussions. While we were still able to 
successfully prosecute the boyfriend in this case, far too often 
tribal, state, and federal prosecutions of domestic violence offenders 
are unsuccessful because of witness and evidentiary problems. In this 
and similar moments, it was crucial that I had with me federal and 
tribal law enforcement agents and a victim-witness specialist to ensure 
that we met the needs of the prosecution and the victim. Multi-
jurisdictional and multi-disciplinary teams are important in these 
types of cases, just as they also are in sexual assault and child 
sexual assault prosecutions.
    In 2008, I sat on the floor of a doublewide trailer in rural 
Oklahoma with a BIA investigator and Cherokee Nation Marshal as we 
tried to build rapport with a twelve-year-old girl who had been 
repeatedly raped by her father for a period of years. The victim had 
been so victimized that she communicated by adopting the 
characteristics of horses, that is, she whinnied, snorted, and stamped 
her feet. You see, the horses in the field behind her house were the 
only thing in her life that had not hurt her. They were her friends. 
After months of intense work with our prosecution team and counselors, 
that same little girl--and two of her friends who had also been raped 
by her father--bravely testified in front of a jury and in front of her 
father. He was found guilty and is now spending life in a federal 
penitentiary.
    Members of the Committee, there are many more cases like these--
domestic violence, sexual assaults, child abuse--that require resources 
to be successfully investigated and prosecuted, and to help give a 
voice to victims. These bills seek to provide some of those critical 
resources and I thank you.
    Thanks to the ongoing efforts of this Committee, federal agencies, 
and the Tribes, we are making progress in improving public safety in 
Native communities. Since the passage of the Tribal Law and Order Act 
of 2010 we are making progress in ensuring that Tribes are able to 
access law enforcement databases, which is critical to meeting public 
safety needs. We have expanded funding and training opportunities, 
established more productive protocols based on our government-to-
government relationship with the Tribes, and have sought to be more 
clearly accountable for our efforts.
    In the Northern District of Oklahoma, I am blessed to have a great 
relationship with the fourteen federally recognized tribes. My Tribal 
Liaison, Shannon Bears Cozzoni, regularly travels to Indian Country 
where, together with other federal prosecutors, she provides a variety 
of training to tribal law enforcement officials to help them obtain 
Special Law Enforcement Commissions to enforce federal law in Indian 
Country. As a former tribal liaison myself, I can assure you this 
position is crucial for United States Attorney's Offices and there are 
no more dedicated advocates for justice in Indian Country. The funding 
of training programs for tribal law enforcement through District-
focused initiatives and the National Advocacy Center serves to improve 
the investigative skills of law enforcement, social service providers, 
and prosecutors working in Indian Country. Similarly, the creation of 
the Native American Issues Coordinator at the Executive Office for 
United States Attorneys and the formal establishment of the Office of 
Tribal Justice has given United States Attorneys with Indian Country in 
their Districts an ever-present voice in the halls of the Justice 
Department in DC even when we are not physically present. The Tribal 
Law and Order Act of 2010 has been good for Indian Country and good for 
those of us working to ensure justice in Indian country.
    Each bill proposes new methods and refined approaches to addressing 
major threats to public safety. Savanna's Act addresses a tragic set of 
cases: missing and murdered individuals, often women, in Indian 
country. The Department of Justice supports the goals of this bill and 
the effort to take on this dark and tragic issue. We have identified 
some technical issues in the course of our review. For example, Section 
1 of the bill references the Automated Integrated Fingerprint 
Identification System, which has been replaced with the Next Generation 
Identification System. We welcome the opportunity to work with your 
staffs to assist in making some technical adjustments.
    The SURVIVE Act addresses a long-time issue in Indian country: a 
lack of resources to support the level of victim services warranted by 
the levels of violent crime in Indian country. The importance of 
providing effective services to victims of crime cannot be overstated. 
From any angle--humanitarian, law enforcement, community relations--it 
is both right and necessary. A number of the Department of Justice 
comments on an earlier version of this Act were incorporated into the 
current bill, which we recognize and appreciate. We note that the Act 
includes a consultation requirement. In fact, the Department, through 
the Office for Victims of Crime, has already begun making plans for 
formal consultations and listening sessions with tribes, with the first 
listening session having occurred in Milwaukee on October 18, 2017. Our 
review of this bill is ongoing, and welcome discussion with your staffs 
as we make progress towards a formal Administration response.
    The Tribal Law and Order Act of 2010 was a significant and 
extremely positive piece of legislation. As a result of that 
legislation, the Department of Justice is making significant progress 
on improving public safety in Indian country. This Committee has 
received previous testimony from this Department on the many ways that 
the 2010 Tribal Law and Order Act altered and improved the way that we 
work in Indian country and with our federal partners and we agree with 
the Committee's efforts to do more. Our review of this bill is also 
ongoing, so while we do not yet have a formal position to offer we do 
applaud efforts to compel greater improvements in law enforcement, data 
sharing, and justice for Native American and Alaska Native children. We 
are particularly heartened that you intend to extend the Bureau of 
Prisons pilot project and included support for our Tribal Access 
Program, which will help us expand that opportunity to more Tribes.
    In our review, we noted a recurring effort to improve data 
collection and information sharing. The Department is unequivocally in 
favor of efforts to improve collection of and access to data whenever 
we can do so without harming victim confidentiality or jeopardizing an 
investigation. We are working internally to find immediate 
opportunities for improvement. And we will continue to work with our 
partner agencies, with Tribes, and with your staffs on data collection 
and information sharing issues.
    The Department is actively engaged in efforts to address the 
specific challenges described in the bills and is committed to working 
with Congress, other federal agencies, and Tribes to more effectively 
address them. We seek, whenever possible, to expand Tribes' 
opportunities for funding, training, and technical assistance. Our 
partnerships with Tribes and with other agencies active in Indian 
country are an integral part of our daily work, which we continually 
review to ensure that our work is productive and focused on the needs 
of the Tribes.
    While we have further to go, we are far ahead of many nations in 
recognizing and protecting the rights of native peoples. Around the 
world, indigenous peoples are marginalized, exploited, or threatened 
with death--denied basic human rights, women abused, indigenous 
cultures destroyed, languages lost. With your continued leadership, the 
United States can lead by example to promote and protect the inherent 
rights of indigenous people. Recently, missing and murdered indigenous 
women was a topic of discussion during a June meeting of the Attorneys 
General for the U.S., Canada, Mexico, United Kingdom, New Zealand and 
Australia. In that meeting, Attorney General Sessions voiced support 
for the creation of a working group that would allow us to expand our 
partnerships in addressing this grievous issue.
    As indicated earlier, the Department of Justice fully supports the 
goals of these three bills. The bills under discussion today are 
clearly intended to spur further progress, specifically in support of 
law enforcement, in providing effective services to victims of crime, 
and in shedding light on the tragic number of missing and murdered 
individuals in Indian country. The Department's review of the bills is 
ongoing; some offices have already reached out to discuss some of the 
technical aspects of the bills, and we welcome the opportunity to 
continue working with your staffs to refine language.
    We have made great progress, but we know we have a ways to go 
before we reach our shared goal of achieving lasting public safety in 
Indian country. We appreciate the efforts by this Committee to ensure 
that legislation affecting Native communities puts Federal, State, and 
Tribal agencies in the best possible position to overcome barriers to 
public safety. Thank you again for the opportunity to appear before you 
today. Thank you also for the opportunity to share with you some 
perspective from the United States Attorney's Office in the Northern 
District of Oklahoma. I am happy to answer any questions you may have.

    The Chairman. Thank you, Mr. Shores.
    Mr. Rice.

 STATEMENT OF BRYAN RICE, DIRECTOR, BUREAU OF INDIAN AFFAIRS, 
                U.S. DEPARTMENT OF THE INTERIOR

    Mr. Rice. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee. Thank you for the 
opportunity to provide testimony on the bills before you today.
    My name is Bryan Rice. I am the Director of the Bureau of 
Indian Affairs in the Department of the Interior. I began this 
leadership journey a week ago Monday. I am eager to tackle all 
the issues facing Indian Country, as well as lead the Bureau 
into becoming the service delivery agency that we all expect it 
to be.
    Mr. Chairman, my background is in managing and leading 
programs serving Indian communities, specifically through 
natural resource and wildland fire programs. That has been my 
background, but this experience aligns closely with serving 
people in those communities through economic development, job 
creation, as well as the emergency management functions that 
support many of the law and order activities that we have 
across Indian Country today which is why we are here.
    At the Department of the Interior, we are working hard to 
serve the American people. Right now, several of our nominees 
for leadership positions are waiting to be confirmed in the 
Senate. It is hampering our ability to do the peoples' work.
    Having the department's full team confirmed and in place 
will help us better address the major issues our Nation faces 
today. Staffing the executive branch is the joint 
responsibility of the President and the Senate. We hope the 
Senate will live up to its end of the bargain as we look 
forward to our leaders moving through the pipeline and into the 
department.
    Regarding today's hearing, since original passage of the 
Tribal Law and Order Act in 2010, it has helped to address 
significant public safety challenges throughout Indian Country. 
The department supports reauthorization of S. 1953 and is 
looking forward to working with the bill's sponsor and this 
Committee to ensure that we are building on the early successes 
of this bill's implementation.
    Some of those include overall improved communication and 
collaboration between Federal, State, local and tribal law 
enforcement; the streamlining of the special Law Enforcement 
Commission process which allows for cross deputization with 
other law enforcement agencies; and improved coordination of 
the mental health and substance abuse services across all 
agencies aimed at decreasing recidivism.
    To date, the BIA has made progress in the area of tribal 
law and order, yet we are continually looking to improve. We 
have identified additional areas where we still need to 
improve. I have included those in the written testimony. 
Focusing on many of these areas will enable the BIA to protect 
lives, prevent crimes, support tribal justice systems and 
ultimately make communities safer.
    The Tribal Law and Order Act included increased data and 
reporting requirements which helps the BIA and other agencies 
better understand where challenges exist. For example, the 
Annual Unmet Needs Report highlights the need for additional 
public safety resources across Indian Country. Coordination 
between the BIA Office of Justice Services and the Department 
of Justice in tracking crimes has also allowed the Bureau of 
Indian Affairs to develop a new reporting tool for tribes to 
submit crimes collected under the Uniform Crime Report.
    I would like to thank the members of this Committee for 
your continued and unwavering support for TLOA. Through 
previous authorizations of the Act, the BIA has been able to 
improve execution of our mission such as putting more resources 
on the ground.
    For example, since January of this year, the BIA Office of 
Justice Services has filled nearly 50 law enforcement and 
corrections positions with several dozen more in the pipeline. 
These boots on the ground are critical for us to carry out the 
mission as well as to support the tribes in carrying out their 
mission as well. This amount of resources is an overall 
improvement of our service to Indian Country.
    I would like to thank the Committee for your work and 
support in another area, improving the state of affairs in 
detention centers. As we heard earlier, this is a difficult 
topic. The intent is not to increase incarceration but we must 
ensure that those who enter the system are appropriately cared 
for. The process of ensuring safety and security of inmates, as 
well as providing adequate bed space, is an important component 
of the tradeoffs in managing programs and ensuring the most 
value is gained in these constrained budget environments.
    These examples highlight the strong partnership that is 
critical between the Legislative and Executive Branches to 
ensure Indian Country is receiving the attention it deserves. I 
am looking forward to doing my part in continuing that 
partnership to do the best we can to serve Indian Country.
    Thus far, TLOA has served as a valuable road map, 
supporting significant steps toward the goal of improving 
safety across Indian Country and our support of this 
reauthorization will help Indian communities receive, where 
needed, public safety attention from BIA and our partners.
    Thank you again for the invitation to testify and I look 
forward to working with this Committee on issues today as well 
as issues in the future. I will be happy to answer any 
questions. Thank you.
    [The prepared statement of Mr. Rice follows:]

 Prepared Statement of Bryan Rice, Director, Bureau of Indian Affairs, 
                    U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice-Chairman Udall, and members of 
the Committee. My name is Bryan Rice and I am the Director of the 
Bureau of Indian Affairs (BIA) at the Department of the Interior 
(Department). Thank you for the opportunity to provide testimony before 
this Committee on S. 1953, the Tribal Law and Order Reauthorization and 
Amendments Act (TLORA) of 2017.
    The passage of the Tribal Law and Order Act (TLOA) in 2010 brought 
about many important changes in addressing public safety in Indian 
Country. Through our experiences in implementing TLOA, we have 
identified areas that still require additional attention. The 
Department believes S. 1953 is a critical start to this important 
conversation and supports the goals of the bill. We would like to work 
with the sponsor to further clarify a number of provisions to further 
strengthen the legislation.
    A significant focus of TLOA was to address challenges related to 
reporting and data collection. These challenges are present across 
multiple sectors, but are particularly problematic in the context of 
criminal justice, in which Federal, state, tribal, and local 
governments share responsibilities. It is important to continue efforts 
to build accurate data and provide Congress, the public, and, most 
importantly, the tribes, with the information needed to identify and 
analyze the criminal justice needs in Indian Country. Section 103 of S. 
1953 would assist in that effort by providing for enhanced sharing of 
Federal data with tribes.
    As the nation moves toward evidence-based policy making, there has 
been increased focus on the quality of information the Department and 
other agencies are required to collect and report back to Congress. 
While the legislation includes numerous reporting requirements for 
agencies, we would welcome the opportunity to meet with the sponsor to 
discuss and determine how the Department could best meet the reporting 
requirements stipulated in a timely manner. We would like to engage 
with the bill's sponsor about our current capacity to analyze complex 
data sets and what we would need to meet the reporting requirements set 
forth by this bill.
    S. 1953 recognizes that public safety in Indian Country is an issue 
that requires a multidisciplinary approach. In particular, Section 102 
of this bill asks the Department specifically to work with the 
Department of Health and Human Services and the Department of Justice 
to integrate and coordinate law enforcement, public safety, and 
substance abuse and mental health programs. The inclusion of 
alternatives to detention in the bill can play an important role in 
breaking the cycle of recidivism, as many Indian Country offenders are 
engaging in criminal activity due to untreated mental health and 
alcohol and substance abuse issues. Collaboration with other agencies 
may provide new pathways for individuals to get the help they need in 
order to break recidivism cycles, while simultaneously overcoming the 
fragmentation and siloing of programs across agencies that often 
impedes efforts by creating service gaps. The Department stands ready 
to work with the bill sponsors to further explore whether 
interdepartmental cooperative efforts and program consolidation can 
help meet the goal of reducing recidivism.
    Tribal courts are an essential component for the delivery of 
justice services in tribal communities. Section 107 reauthorizes tribal 
court training programs, which are critical to supporting tribes as 
they build their justice services capacity. Strengthening criminal 
justice capacity will be important as tribes potentially seek to 
utilize the provisions in the TLOA to reassume concurrent federal-
tribal jurisdiction in Public Law 280 states, or to exercise the 
special domestic violence criminal jurisdiction provision in the 
Violence Against Women Reauthorization Act of 2013.
    In many parts of the country, the BIA's Office of Justice Services 
(OJS) does not have enough bed space to house tribal inmates, requiring 
contracts with local and county facilities to meet the need. This 
facility shortage creates additional resource challenges, including 
increased transportation costs and further stretching already thin 
officer patrol coverage. Section 102(c), Memorandum of Agreement, can 
provide OJS additional flexibility to address the incarceration needs 
currently facing Indian Country.
    TLOA's Indian Law and Order Commission devoted an entire chapter to 
intergovernmental cooperation, noting that a number of tribal 
governments have seen success through partnerships with local counties 
and state agencies using cross-deputization agreements and memoranda of 
understanding. The Department believes that encouraging tribes and 
state and local law enforcement agencies to pool their resources and 
work together will ultimately lead to more comprehensive law 
enforcement coverage and safer communities.
    The Department is also interested in working with the sponsor to 
address additional technical changes to TLOA that are not currently 
reflected in the legislation. Currently, Section 211 of TLOA provides 
for BIA-OJS to develop an annual report of unmet staffing needs of the 
law enforcement, corrections, and tribal court programs. The Department 
is concerned with the proposal to withhold funding in the event the 
reports currently required to Congress are delayed. All funding for law 
enforcement within the BIA-OJS is essential and withholding such 
funding could negatively impact the BIA's delivery of public safety 
needs to tribes and Indian Country. While there have been delays in 
providing this report in the past, the Department is committed to 
working to provide accurate and relevant data to the Congress 
consistent with the TLOA timeframes. The Department will also work with 
the Committee to further refine the annual reporting requirements.
    Section 231(a)(4)(A) of TLOA requires that requests for a 
background check made by an Indian Tribe that has contracted or entered 
into a compact for law enforcement or corrections services, must 
completed by OJS no later than 60 days after the date it receives the 
request. As the Office of Personnel Management (OPM) has the 
responsibility for completing background checks for the federal 
government, we recommend tribal background investigations be reassigned 
to OPM. If background checks are not reassigned to OPM, we request that 
the 60-day requirement be changed to 120 days, which would allow more 
time for completion.
    Currently, Federal Tort Claims Act (FTCA) coverage is frequently 
declined for intentional torts committed by tribal law enforcement 
officers carrying out self-determination contracts or compacts unless 
the officers (a) have a special law enforcement commission (SLEC) under 
25 U.S.C. <l-arrow> 2804(a)(3)(A)(i) and (b) are enforcing federal law 
at the time of the activities from which the claims arose. We believe 
this interpretation is under-inclusive based upon statutory 
construction, congressional intent, and recent Supreme Court precedent, 
Millbrook v. United States, 133 S. Ct. 1441 (2013), and that it results 
in declination of FTCA coverage to tribal officers that Congress 
intended to be provided with the ``full protection and coverage'' of 
the FTCA.
    Contracted or compacted tribal officers provide services that 
normally would be provided by the BIA; thus, tribal officers should 
have the same treatment and protection as Federal officers. We would 
like to work with the Committee to provide much needed clarification to 
the legal status of tribal officers without SLECs and to make certain 
that tribal law enforcement officers are treated equitably when they 
are carrying out the functions or services contracted from the BIA.
Conclusion
    The Department of the Interior looks forward to working with the 
bill sponsor and this Committee on S. 1953, the Tribal Law and Order 
Reauthorization Act. By making TLOA stronger, we will make significant 
steps toward improving law and order in Indian country.
    Thank you for the opportunity to testify today. I look forward to 
answering your questions.

    The Chairman. Thank you, Mr. Rice.
    Again, Chairman Flute, thank you very much for being here. 
We appreciate it. It is good to see you. We welcome your 
testimony.

STATEMENT OF HON. DAVE FLUTE, CHAIRMAN, SISSETON WAHPETON OYATE 
                OF THE LAKE TRAVERSE RESERVATION

    Mr. Flute. Chairman Hoeven, if I could, please, I would 
like to speak my language for just a little bit, with your 
permission.
    [Greeting in native tongue.]
    Mr. Flute. I greet each and every one of you with a 
handshake from my heart. I am hoping the testimony and the 
words that I am about to share with this great Committee 
enhance your understanding of the problems we face in the Great 
Plains Region.
    Chairman Hoeven, Vice Chairman Udall and members of the 
Committee, I want to thank you for allowing me to testify today 
in regard to these two important pieces of legislation, first, 
in securing urgent resources vital to Indian victims' 
empowerment.
    The Sisseton-Wahpeton Sioux Tribe strongly supports the Act 
and the legislation being presented. We strongly support the 5 
percent set-aside in the SURVIVE Act. This will help tribes 
like mine and those disadvantage tribes in the Great Plains 
region that do not have the resources that other tribes have 
across the United States.
    I say this respectfully. I say this very humbly. Many of 
our tribes in the Great Plains region are not percap tribes. I 
don't want to be misunderstood by our congressional leadership, 
the BIA or anybody working towards enhancing and passing these 
laws. We have some tribes out there that are disadvantaged with 
resources.
    The 5 percent set-aside would be a great contribution to 
the treaty tribes in the Great Plains region and those tribes 
in other regions that have the problems we have. With that, we 
give full support to the SURVIVE Act. We thank the Chairman for 
presenting this piece of legislation.
    Reauthorization of the Tribal Law and Order Act, I 
appreciate the attorney at the end, Mr. Shores, for your 
comments. Concerning reauthorization of TLOA, I want to hit on 
something that is really important to tribes right now.
    Our detention facilities are being decommissioned. In TLOA 
I, we see there was $35 million that was supposed to be added 
in this piece of legislation. I would like to respectfully 
request seeing what detention facilities have been constructed 
or what is going on with those monies.
    A tribe like mine, we are a VAWA and we are a TLOA tribe. I 
appreciate the Chairman mentioning the Tribal Access Program. 
We are one of the pilot tribes. We are contributing the needed 
data to the NCIC. There was a gap in VAWA and TAP helped fill 
that gap with being able to collect that data and being able to 
share that data with other tribes and NCIC so we can track 
these criminals and people perpetrating our Indian women and 
being violent criminals in our Indian communities.
    With TLOA, without an operative justice center, we are 
hamstrung in law enforcement efforts. We have domestic 
violence, drug offenders, child neglect, and drunk drivers, but 
we have become a catch and release tribe. That is happening 
throughout Indian Country.
    I understand that the BIA has rules, regulations and 
standards they need to adhere to. We do not hate on the BIA for 
that, but we need to be very diligent on both sides that when 
we are closing down these detention facilities, there is also 
the real life. I am giving you real life examples where we have 
caught methamphetamine distributors and drunk drivers and 
because our memoranda of understanding with our local counties, 
those jail facilities are full. They are turning away the 
criminals our tribal law enforcement is detaining. Those are 
the understandings we have.
    We respectfully ask that there funding come with these 
packages. As there is the 5 percent set-aside in the SURVIVE 
Act, we respectfully ask that we fund the Tribal Law and Order 
Act II so that tribes have the abilities being closed down, 
their detention facilities being closed down. We need the long 
term fix, members of the Committee.
    We appreciate the leadership you have given us, especially 
Senator Heitkamp as well for your advocacy on Native American 
women and children.
    In closing, Mr. Chairman, I would like to share two real 
quick stories of recent real life examples.
    A six-year-old kid went to the public school with a loaded 
meth needle. A loaded meth needle is liquid meth. We are seeing 
the opioid use and methamphetamine grown on the reservation and 
not just the reservation, it is happening in both northeast 
South Dakota and southeast North Dakota. We are seeing it on 
the rise.
    We appreciate this Committee's leadership in giving 
attention to tribal public safety. Our tribal law enforcement 
was called because the mother was a tribal member. We 
apprehended the mother. We did a legal search on the house and 
we found more liquid meth needles in this house. We followed 
the process as far as we could and she is back on the street 
again because we don't have a detention facility to hold this 
individual.
    There are more stories out there. I appreciate the 
attorney's testimony on the kids he is seeing, victims of 
crime. We have kids that are going to be socially challenged 
and physically challenged because of their under-developed 
limbs and under-developed brains. It is a serious issue that is 
ubiquitous across this Nation.
    It is not a surprise that there is an opioid crisis out 
there and a methamphetamine crisis, but heroin is on the rise. 
In our great State of North Dakota, Mr. Chairman, I do have a 
sliver up there, part of the reservation, so we do acknowledge 
that.
    We had a FedEx package. What upsets me is my reservation 
was targeted by a FedEx package. It was our canine unit, 
purchased with the tribal dollars that we have because we know 
we are limited in resources, that hit on a FedEx package that 
had methamphetamine and heroin. How does that get through the 
system?
    I am very appreciative of the mobile enforcement teams and 
the corrective action support teams that BIA has had to offer 
so that our tribal law enforcement can expand in those 
different types of training. We respectfully ask that these two 
bills be funded with the monies.
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Flute follows:]

  Prepared Statement of Hon. Dave Flute, Chairman, Sisseton Wahpeton 
                 Oyate of the Lake Traverse Reservation
I. Introduction
    Good morning, Chairman Hoeven, Vice Chairman Udall and Members of 
the Committee and Honored Guests. My name is David Flute. I serve as 
the Chairman of the Sisseton-Wahpeton Tribe (SWST) of the Lake Traverse 
Indian Reservation in North and South Dakota.
    I am pleased to testify at this important hearing in support of S. 
1870, the Securing Urgent Resources Vital to Indian Victim Empowerment 
Act of 2017, also referred to as the SURVIVE Act, S. 1953, the 
Reauthorization of the Tribal Law and Order Act (TLOA) of 2010, and S. 
1942, a bill to direct the Attorney General to review, revise and 
develop law enforcement and justice protocols appropriate to address 
missing and murdered Indians.
    For the past decade, we had been working to replace our old 
detention facility with a multipurpose Community Justice and 
Rehabilitation Center (Tribal Justice Center), designed to provide a 
comprehensive, all-inclusive approach that will also address the 
pressing behavioral health needs of our tribal members. Over $1.2 
million has been expended on this endeavor.
    The funding and construction of our Tribal Justice Center is our 
highest and most important priority. We thank you for all of your 
efforts to increase Department of Justice (DOJ) funding for Indian 
country through the proposed Senate FY 2018 seven percent (7 percent) 
DOJ Office of Justice Programs (OJP) tribal set-aside and five percent 
(5 percent) DOJ Crime Victims Fund tribal set-aside. We especially 
appreciate your inclusion of report language, which recommends that DOJ 
should give consideration for funding ``detention facilities, including 
outdated detention facilities that are unfit for detention purposes and 
beyond rehabilitation. . .''.
    And, we want to thank your staff for their excellent work and 
consistent consultation with our tribal leadership. We are working to 
have our Tribal Justice Center site shovel-ready, so when FY 2018 CJS 
and Interior Appropriations Bills are enacted into law, we are prepared 
to move forward immediately.
    South Dakota Governor Daugaard recognized our need for Federal 
assistance. On August 21, 2017, he wrote to the South Dakota 
congressional delegation:

         If Congress can provide funding assistance, from the BIA and/
        or DOJ, to the Sisseton-Wahpeton Sioux Tribe for its Justice 
        Center, the public safety of the Sisseton-Wahpeton Sioux Tribe 
        and the surrounding area of northeast South Dakota and 
        southeast North Dakota will be enhanced.

    The Governor wrote his letter after his visit to our Sisseton-
Wahpeton community, which included a review of the detention facility.
    On October 3, 2017, North Dakota Governor Burgum wrote to the North 
Dakota congressional delegation:

         We support the Sisseton-Wahpeton Sioux Tribe's efforts to 
        build the new Justice Center and commend your work to assist 
        the Tribe in securing funding. Your success in promoting 
        construction of the new Sisseton-Wahpeton Justice Center will 
        enhance regional law enforcement, criminal justice and the 
        safety of our citizens.

    As our testimony will demonstrate, securing the funding for the 
construction of our Community Justice and Rehabilitation Center will 
allow us to more fully exercise our inherent sovereignty to provide 
public safety and wellness services for our tribal members. Moreover, 
having our Justice Center facility fully operational will allow us to 
be more fully prepared and equipped to implement S. 1870, S. 1953, and 
S. 1942. Our testimony will address these points as well.

II. The Sisseton-Wahpeton Sioux Tribe
    As Native Americans, respect for our Native Nations, treaty rights, 
and Indian lands is important because our rights to Native self-
governance on our Reservation homeland are the essence of Freedom and 
Liberty for us. We agree with the Framers of the Declaration of 
Independence that:

         We hold these truths to be self-evident, that all men [and 
        women] are created equal, that they are endowed by their 
        Creator with certain unalienable Rights, that among these are 
        Life, Liberty, and the pursuit of Happiness.-That to secure 
        these rights, Governments are instituted among Men, deriving 
        their just powers from the consent of the governed. . .. \1\

    \1\ At the time of the formation of the Constitution, the 
Continental Congress pledged in the Northwest Ordinance of 1787: The 
utmost good faith shall always be observed towards the Indians; their 
lands and property shall never be taken from them without their 
consent; and in their property, rights, and liberty, they shall never 
be invaded or disturbed, unless in just and lawful wars authorized by 
Congress.. President Washington and the first Congress ratified the 
Northwest Ordinance on August 7, 1789.
---------------------------------------------------------------------------
    Through our treaties, we formed an alliance with the United States, 
and our Treaty acknowledges the original, natural rights to Life, 
Liberty and Self-Government that the Creator endowed our People with 
from time immemorial.
    From the time prior to recorded history, our people's original 
homelands have been in Minnesota, North and South Dakota. The Sisseton-
Wahpeton Sioux Tribe is signatory to the 1851 Treaty with the Sisseton-
Wahpeton Bands of Dakota Sioux (Traverse des Sioux). During the Dakota 
Conflict of 1862, the Sisseton-Wahpeton Sioux Tribe assisted the United 
States by rescuing white residents of our 1851 reservation and rescuing 
hostages and captives.
    We just celebrated the 150th Anniversary of our 1867 Lake Traverse 
Treaty with the United States. The 1867 Treaty continues our ``friendly 
relations with the Government and people of the United States.'' Our 
Treaty also recognizes our people's right to self-government and to 
adopt ``laws for the security of life and property,'' to promote the 
``advancement of civilization'' and promote ``prosperity'' among our 
people. More than two decades prior to North and South Dakota 
statehood, the 1867 Lake Traverse Treaty set aside the Lake Traverse 
Reservation as our ``permanent reservation'' homeland:

         Beginning at the head of Lake Travers[e], and thence along the 
        treaty-line of the treaty of 1851 to Kampeska Lake; thence in a 
        direct line to Reipan or the northeast point of the Coteau des 
        Prairie[s], and thence passing north of Skunk Lake, on the most 
        direct line to the foot of Lake Traverse, and thence along the 
        treaty-line of 1851 to the place of beginning.

    Under the Allotment Policy, significant tribal lands were sold as 
surplus lands against our wishes, but under the modern Indian Self-
Determination Policy, Congress affirmed our efforts to recover that 
portion of our homelands, and treats our recovered Indian trust lands 
as ``on-reservation'' acquisitions within the original boundaries of 
the Lake Traverse Reservation. Public Law 93-491 (1974).
    Among the Sisseton-Wahpeton Sioux Tribe, we have maintained our 
treaty alliance with the United States, and we are rightfully proud of 
our volunteer service to the United States through the military. 
Woodrow Wilson Keeble, one of our most respected tribal members, served 
in World War II and in Korea, and President George W. Bush posthumously 
awarded him the Congressional Medal of Honor. My own grandfather served 
in the 101st Airborne Division in Bastogne during the Battle of the 
Bulge in World War II. I served during the War in Afghanistan.
III. The Lake Traverse Reservation
    The Lake Traverse Reservation is located in the Northeastern part 
of South Dakota and the southeastern corner of North Dakota. The 
Reservation boundaries extend across seven counties, two in North 
Dakota and five in South Dakota. The Dakota Magic Casino in Hankinson, 
North Dakota on our tribal reservation lands has been a major success 
and tourism destination for the Sisseton-Wahpeton Sioux Tribe, with 
over 750,000 visits per year and with some customers visiting 4 or 5 
times, we estimate that more than 150,000 people visit our facility 
annually. We operate Dakota Winds Golf Course, a hotel, restaurant, 
buffet and lounge at our North Dakota Resort. We employ 425 people in 
Hankinson, 55 percent of our employees are tribal members and 45 
percent are non-members from nearby towns. We also have two tribal 
housing areas near our Casino and Resort in Hankinson.
    Our Dakota Sioux Casino is located just north of Watertown, South 
Dakota and we employ 202 people, 58 percent of our employees are tribal 
members (or Indians from others tribes) and 42 percent are non-members 
from nearby towns. We also operate a convenience store and service 
station, buffalo herd, fuel company, extruded film factory, and we 
recently opened a grocery store, so we are working hard to create jobs 
and develop our economy.
    Our Tribal Headquarters is located in Agency Village, South Dakota. 
We have more than 14,000 tribal members and approximately 8,000 live on 
or near our Lake Traverse Reservation in North and South Dakota. SWST 
is a Treaty Tribe that provides essential governmental services to our 
tribal members and others residing, working, visiting and traveling 
through the Lake Traverse Indian Reservation in northeast South Dakota 
and southeast North Dakota.
IV. Drug and Alcohol Abuse, Violent Crime and Juvenile Dependency
    The FBI UCR Crime Report (Sept. 25, 2017) finds that: Violent Crime 
in the United States increased for the second straight year in 2016--
overall violent crime increased by 4.1 percent. The report shows 
increases over 2015 in all four offenses in the violent crime category: 
murder, rape, robbery, and aggravated assault. Murder has the largest 
growth at 8.6 percent. The 2016 Nationwide Crime Rate 386.3 per 
100,000, the South Dakota Crime Rate was 418.4 per 100,000 and the 
North Dakota Crime Rate was 251.2 per 100,000.
    South Dakota State 2016 Crime Reports include a 12.5 percent 
increase in drug crime, although overall some of the most violent crime 
was down. South Dakota Attorney General Marty Jackley said, ``Right now 
there's a meth epidemic across the Nation. . .. It affects the 
Reservations as well as the State when the methamphetamine come into 
the State from across the Southern borders.. We need to do everything 
that we can to spread the message to the youth and do everything we can 
for prevention and treatment.'' Bridget Bennett, KSFY TV, Reservation 
Crime Would Nearly Double SD Crime Stats (March 20, 2017). In August 
2016, tribal law enforcement responded to a home birth on the Lake 
Traverse Reservation, and the full term baby was born dead with a high 
level to the drugs in its system.
    KSFY News Reports explain that if Reservation crimes were included 
in state totals, the number of reported murders in South Dakota would 
nearly double. The FBI, U.S. Attorneys and tribal law enforcement have 
jurisdiction over Indian reservation crime. ``The number of cases and 
number of users of methamphetamines has been rising on Indian 
reservations across the state. The increase in drug activity is 
correlating to an increase in the violent crime. Specifically, we've 
seen an increase in violent crime incidents in all of the Indian 
reservations throughout the state,'' said Matt Moore, FBI Supervisory 
Senior Resident Agent for Sioux Falls.
    South Dakota law enforcement made 7,200 drug arrests in 2015, 
nearly double the number made in 2005. Aggravated assault and robbery 
cases also doubled over the same ten-year period. According to Sioux 
Falls Police Chief Matt Burns, ``The public's appetite for high-grade 
marijuana and methamphetamine has fostered a more violent drug culture 
in which buyers and sellers are more likely to arm themselves.'' See Is 
South Dakota more violent than it's ever been? Sioux Falls Argus 
Leader, January 13, 2017. The Sioux Falls 2013 drug ``rip'' murder of 
Jordan LeBeau, 19, who was armed, by two Watertown teenagers is one of 
the more high profile murders in the past few years. Watertown is 
located less than 10 miles from the Sisseton-Wahpeton Sioux Tribe's 
Lake Traverse Reservation.
    North Dakota Crime Statistics: North Dakota faces significant drug 
crime challenges as well, including on our Indian reservations. In 
2015, North Dakota suffered a 9.8 percent increase in per capita crime, 
which was the largest per capita crime increase in 5 years and the most 
homicides in decades. Based on FBI reports:

         That included a 9.5 percent increase in crimes against persons 
        such as murder, rape and assaults, and a 14 percent percent 
        increase in crimes against property such as burglary, robbery 
        and motor vehicle theft. The number of crimes against society--
        among them drug violations and weapons violations--increased by 
        11.1 percent.

    ``North Dakota in all is a different community. We're not 
Minneapolis, but we're not the North Dakota of 25, 30 years ago where 
you can leave your doors unlocked and you know everybody,'' Bismarck 
Police Chief Dan Donlin told the Bismarck Tribune. Thankfully in 2016, 
North Dakota had a 1.1 percent decrease in crime, with gains made in 
decreased drunk driving.
    At Sisseton-Wahpeton, we have seen continuing serious increase in 
drug related crime and violence. That is consistent with the overall 
pattern of North and South Dakota, except we have not had a reduction 
in drunk driving.
    We have been working together with Federal, state and local law 
enforcement to fight drug crime and violent crime. These law 
enforcement agencies along with the FBI, state DCI, the Tribal CI, and 
federal, state and tribal prosecutors are developing strategies to 
target the drug distributors who have figured out the jurisdictional 
complexities between the Tribe and the State, and we are working 
collaboratively cover any jurisdictional gaps.
    Due to the drug and alcohol abuse problems affecting our 
Reservation, our tribal police made about 1400 arrests on the Lake 
Traverse Reservation in North and South Dakota last year. Much of the 
drug use also involves or stems from opioid abuse. In recent years, 
SWST youth and adults on our Reservation have been suffering with 
chemical dependency, drug and alcohol abuse, and violent crime 
resulting in the key incarceration figures:

  <bullet>  Substance abuse offenses & criminal offenses account for 
        approx. 75 percent of all adult arrests, of which 15 percent 
        exhibit highly repetitive substance abuse and criminal 
        behavior. This group uses a disproportionate amount of justice 
        (and potentially other) system resources.

  <bullet>  About 80 percent of all juveniles charged with a substance 
        abuse offense, often accompanied by a curfew violation. This 
        pattern shows a lack of parental supervision and clearly 
        underscores a need to address these offenses in the context of 
        families and family networks.

    SWST has identified Behavioral Health, including addressing 
chemical dependency, mental health, adolescent treatment, detox, 
transitional care, inpatient/outpatient services for adult and youth, 
as our top community health and wellness priority. We currently lack 
sufficient facilities and services to adequately address these health 
care needs. We had a 1974 building for law enforcement services, which 
the BIA closed and decommissioned in December 2016 due to operational 
and other deficiencies.
    The BIA's closure of our jail has left us with little recourse 
against drunk driving, drug crimes and domestic abuse. When Governor 
Daugaard came to visit us, my assistant observed two drunk drivers 
travelling our roads together and called on the police, so our Chief of 
Police was not able to attend our law enforcement meeting with the 
Governor. Our tribal police have had to send home domestic violence 
abusers and recently, we had a 7 year-old bring a syringe to school, 
which his mother used for methamphetamines. We had to let the mother 
back on the streets until her trial because we have no place to detain 
her. Our incidents of drug related crime problems are serious. The BIA 
suggested contracting with nearby county detention facilities, but the 
counties are overwhelmed and have no room for our offenders. So, under 
the BIA's law enforcement plan, we are left with a ``catch and 
release'' system. The BIA's approach to our detention center is an 
accident waiting to happen.
V. FY 2018 SENATE CJS APPROPRIATIONS/INTERIOR APPROPRIATIONS BILLS
    The Sisseton-Wahpeton Sioux Tribe appreciates the efforts that the 
Senate has made to enhance Tribal Detention Facility/Justice Center 
funding. A reference was included in the FY 2018 CJS Senate Bill that 
establishes a 7 percent set-aside for Indian tribes in OJP funding and 
a 5 percent set aside for Indian tribes from the Crime Victim Fund. The 
Senate Report has language concerning tribal justice centers:

         Flexible Tribal Assistance.--The Committee recommends funding 
        tribal grant programs by permitting 7 percent of discretionary 
        grant and reimbursement program funds, a total of $110,705,000 
        made available to the OJP and COPS, to be used for tribal 
        criminal justice assistance, and continues to strongly support 
        efforts to help tribes improve the capacity of their criminal 
        justice systems. The OJP is expected to consult closely with 
        tribal stakeholders in determining how tribal assistance funds 
        will be awarded for detention facilities, including outdated 
        detention facilities that are unfit for detention purposes and 
        beyond rehabilitation. . ..

    We face some remaining hurdles. First, in our discussions with 
Justice Department staff, we have been informed that the use of the 
term recommends does not guarantee action by the Department, so perhaps 
Congress should use the term directs or incorporate the directive in 
the bill language. Second, the Justice Department is planning a 
nationwide consultation with tribal stakeholders, and there is no 
requirement to coordinate with the BIA, which has established a list to 
assist Indian tribes with replacement of detention facilities that they 
have closed--we believe that Congress should require OJP to coordinate 
with BIA on funding of detention facilities. Third, there is no set 
amount of funding for the Tribal Detention Facilities which is 
important to identify given that our proposed Justice Center planned by 
EKM&P--A DOJ Contractor--calls for a $32 Million facility.
    The BIA found $5 Million from year end FY 2017 funds for the Hopi 
Tribe Detention Facility-which has about 7,000 tribal members resident 
on the Reservation. So, now the BIA list of Indian tribes with closed 
facilities is in order of priority:

        1. Blackfeet Tribe of Montana;

        2. Sisseton-Wahpeton Sioux Tribe of North and South Dakota; and

        We understand that the BIA also recently closed the Tribal 
        Detention Center of the Mescalero Apache Tribe of New Mexico. 
        And, there are likely other tribal detention facilities facing 
        the same fate.

    The BIA promised to find the Sisseton-Wahpeton Sioux Tribe $2 
Million to $3 Million in year-end funds when it closed our facility in 
December 2016, but later withdrew its promise. The Hopi Tribe was 
waiting for two years before it received funding, so according to that 
timeline, we would be waiting for four more years BIA funding because 
the Blackfeet Tribe is ahead of us.
    Accordingly, we are seeking support from our Senators to renew 
Senator Rounds' amendment to the FY 2017 CJS Appropriations Bill to the 
effect that $25 Million should be directed toward detention facilities:

         Of the funds that are made available in this Act for the 
        Office of Justice Programs to be used for tribal criminal 
        justice assistance, OJP is directed to use up to $35 million to 
        replace outdated detention facilities located on Indian lands, 
        which have been determined by the United States to be unfit for 
        detention purposes and are beyond rehabilitation. OJP shall 
        give priority to Indian tribes (or intertribal consortia) that 
        have had detention facilities closed by the BIA and await 
        replacement or repair, who serve 2,500 or more tribal members 
        and demonstrate readiness and preparedness for construction.

    Because we need funding for Adult Detention and Juvenile Detention, 
which must be sight and sound separated under BIA regulations, we 
believe that there should be a complimentary fund at BIA to assist in 
the construction of Tribal Justice Centers. So we ask for the Committee 
to support an amendment to the FY 2018 Interior Appropriations Bill to 
the effect that:

  <bullet>  $15 Million should be appropriated through Interior 
        Facilities Construction for Tribal Detention Facilities for 
        Indian tribes (or intertribal governmental consortia) serving 
        2,500 tribal members whose detention facilities have been 
        closed by the BIA and the BIA should provide priority for 
        construction ready projects in areas of Indian country under 
        Title 18 USC 1152 and 1153 Federal criminal jurisdiction; 
        provided that no funds shall be used by the BIA to close BIA or 
        Tribal Detention Facilities unless the BIA has a plan developed 
        in consultation with the affected Indian tribe to remediate, 
        repair or replace the facility to be closed so that tribal 
        communities are not left without public safety facilities.

    This Justice--Interior coordination will assist us in building the 
Adult and Juvenile Detention Center wings of our Sisseton-Wahpeton 
Sioux Justice Center.
VI. Support for Passasge of S. 1870, The Survive Act
    For several years, the President's Budget has recommended a 5 
percent Set-Aside for Indian Tribes from the Crime Victims Fund due to 
the high level of violent crime victimization among American Indians 
and Alaska Natives and the unique Federal law enforcement authority for 
areas including North and South Dakota, Montana, New Mexico and 
Arizona, which are under the Indian Major Crimes Act, 18 USC sec. 1152, 
and the Indian Country Crimes Act, 18 USC sec. 1153. President Trump's 
FY 2018 budget recommended a 5 percent Set-Aside for Indian Tribes from 
the Crime Victims Fund.
    In prior years, only 0.5 percent of the Crime Victims Fund has been 
expended on Indian country. The lack of funding for victims' services 
and mental health contributes to the suffering of crime victims and 
their families, including astronomically high rates of suicide in 
Indian country. ``Violence including intentional injuries, homicide and 
suicide, accounts for 75 percent of deaths of AI/AN youth ages twelve 
to twenty.'' Center for Native American Youth at the Aspen Institute. 
The CVF 5 percent tribal set-aside is necessary and justified. The 
National Task Force to End Domestic and Sexual Violence, a coalition 
representing thousands of local and national organizations addressing 
violent crime victimizations, supports the funding level for tribal 
governments included in the Senate CJS bill.
    In the House of Representatives, the full Appropriations Committee 
accepted the Cole-McCollum Amendment providing for a 5 percent Set-
Aside for Indian Tribes from the Crime Victims Fund. Yet, when the Bill 
was under consideration by the Full House, Chairman Goodlatte, House 
Judiciary Committee objected to the 5 percent Set-Aside for Indian 
Tribes from the Crime Victims Fund because it was ``authorizing'' on an 
Appropriations Bill.
    The Survive Act provides the necessary authorization to overcome 
Chairman Goodlatte's opposition to the Senate 5 percent Set-Aside for 
Indian Tribes from the Crime Victims Fund. Moreover, the Survive Act 
acknowledges the high rate of violent crime victimization among 
American Indians and Alaska Natives, the Federal trust responsibility 
and the unique Federal law enforcement responsibility for areas of 
Indian country under Federal and tribal jurisdiction.
    Our Sisseton-Wahpeton people, who are victimized by violent crime, 
suffer post-traumatic stress akin to what some military veterans have 
suffered. We suffer high rates of suicide as a result, and Crime Victim 
Funding for counseling and support services is essential to address 
Indian crime victimization issues, including Human Trafficking. 
Furthermore, once we have access to a reliable source of funding 
through the 5 percent CVF tribal set aside, these resources will help 
augment and enhance the crime victim support services that will be 
provided at our Community Justice and Rehabilitation Center.
VII. Support For Passage of S. 1953, Reauthorization of TLOA
    More than two decades ago, the Justice Department undertook an 
Indian Law Enforcement Improvement Effort, with the establishment of 
tribal liaison positions, increased FBI agents for Indian country, 
increased Assistant U.S. Attorneys and later, Special Assistant U.S. 
Attorneys (cross-designated tribal attorneys) to assist with the 
prosecution of Indian country crime. In 1997-2,000, the Justice 
Department undertook the President's Indian Country Law Enforcement 
Improvement Initiative, which increased OJP, COPS, VAWA and other DOJ 
funding for Indian Country Law Enforcement. At the time the initiative 
was undertaken, Congress did not enact comprehensive Indian country 
authorizing legislation and provided simply that funding was available 
to ``state, local and tribal governments.'' Accordingly, through 
Attorney General consultations in 2009-10, the Justice Department heard 
from Indian nations and tribes about the very pressing need for 
legislation, which resulted in the enactment of the Tribal Law and 
Order Act in 2010. According to the Justice Department's 2011 Report on 
Tribal Justice Centers:

         Sections 211 and 244 of the Tribal Law and Order Act (TLOA) 
        direct the Department of Justice (DOJ) and the Department of 
        the Interior (DOI) to create ``a long-term plan to address 
        incarceration in Indian country.'' Pub. L. No. 111-211 (July 
        29, 2010).

    After consultation with Indian tribes, Justice Department issued: 
``The Long Term Plan to Build and Enhance Tribal Justice Systems 
(Tribal Justice Plan).'' The Report explains that DOJ will undertake to 
promote detention construction and services in cooperation with 
Interior and tribal governments. The mid-term plan was as follows:

  <bullet>  The Work Group will develop and enhance collaborative 
        strategies to increase the accessibility of federal funding and 
        resources for Tribal Nations in the areas of alternatives, 
        detention, and reentry.

  <bullet>  The Work Group will explore options and potential resources 
        to promote comprehensive programming for detention facilities. 
        Strong multi-disciplinary collaboration is necessary to 
        leverage resources for good detention programming. Federal 
        agencies can play a leadership role in supporting the 
        collaboration at the tribal level, given the range of roles on 
        the federal, tribal, state and local levels.

  <bullet>  The Work Group should identify existing funding, training 
        and technical assistance that supports detention and reentry, 
        and make it available in a central location online.

  <bullet>  DOI and DOJ will enhance their current coordination and 
        planning efforts related to funding new construction, to 
        maximize success of these projects.

    Despite this strategy for improved Tribal Detention resources, 
under the sequester system, the Justice Department resources have been 
limited to repairing existing facilities in recent years. Congress 
should enhance DOJ coordination with the BIA, which continues to close 
existing Tribal Detention facilities for non-compliance with BIA 
Detention Standards with no plan for replacement.
    The Tribal Law and Order Act authorized the Justice Department's 
Tribal Law Enforcement Programs for five years, and the authorizations 
expired in 2015. For the purposes of our Detention Center, the 
reauthorization of the DOJ Detention Program is important:

        TRIBAL JAILS PROGRAM.
        (a) IN GENERAL.--Section 20109 of the Violent Crime Control and 
        Law Enforcement Act of 1994 (42 U.S.C. 13709) is amended by 
        striking subsection (a) and inserting the following:
        ``(a) RESERVATION OF FUNDS.--Notwithstanding any other 
        provision of this part, of amounts made available to the 
        Attorney General to carry out programs relating to offender 
        incarceration, the Attorney General shall reserve $35,000,000 
        for each of fiscal years 2011 through 2015 to carry out this 
        section.''.
        (b) REGIONAL DETENTION CENTERS.--
        (1) IN GENERAL.-Section 20109 of the Violent Crime Control and 
        Law Enforcement Act of 1994 (42 U.S.C. 13709) is amended by 
        striking subsection (b) and inserting the following:
        ``(b) GRANTS TO INDIAN TRIBES .--
        ``(1) IN GENERAL .--From the amounts reserved under subsection 
        (a), the Attorney General shall provide grants--
        ``(A) to Indian tribes for purposes of--
        ``(i) construction and maintenance of jails on Indian land for 
        the incarceration of offenders subject to tribal jurisdiction;
        ``(ii) entering into contracts with private entities to 
        increase the efficiency of the construction of tribal jails; 
        and
        ``(iii) developing and implementing alternatives to 
        incarceration in tribal jails;
        ``(B) to Indian tribes for the construction of tribal justice 
        centers that combine tribal police, courts, and corrections 
        services to address violations of tribal civil and criminal 
        laws;
        ``(C) to consortia of Indian tribes for purposes of 
        constructing and operating regional detention centers on Indian 
        land for long-term incarceration of offenders subject to tribal 
        jurisdiction, as the applicable consortium determines to be 
        appropriate.
        ``(2) PRIORITY OF FUNDING.--in providing grants under this 
        subsection, the Attorney General shall take into consideration 
        applicable--
        ``(A) reservation crime rates;
        ``(B) annual tribal court convictions; and
        ``(C) bed space needs.
        ``(3) FEDERAL SHARE .--Because of the Federal nature and 
        responsibility for providing public safety on Indian land, the 
        Federal share of the cost of any activity carried out using a 
        grant under this subsection shall be 100 percent.''.

    The effort to enhance Juvenile Justice programs in TLOA is 
important because it recognizes and enforces the need for both the 
Federal and Tribal Governments to work together to help our American 
Indian youth to succeed.
    Furthermore, the Sisseton-Wahpeton Sioux Tribe believes that when 
Congress reauthorizes TLOA, Congress should establish an Indian Law 
Enforcement Improvement Commission composed of the Justice Department, 
Interior and Indian tribes to enhance the effectiveness and 
coordination of Indian law enforcement, as follows:

  <bullet>  The Department of Justice shall cooperate with the 
        Department of the Interior in providing comprehensive law 
        enforcement services to assist Indian tribes to ensure public 
        safety, maintain law and order, and administer justice in 
        Indian country, including detention facilities; and

  <bullet>  The Secretary of the Interior and the Attorney General 
        shall establish a Joint Indian Country Justice Commission 
        composed of the Department of the Interior Assistant Secretary 
        for Indian Affairs, Assistant Secretary Policy, Management and 
        Budget, Director BIA and Director BIA Law Enforcement, the 
        Deputy Attorney General, Associate Attorney General and the 
        Director of the Office of Tribal Justice, US DOJ, a 
        Representative each from the FBI and the DEA, and Tribal Law 
        Enforcement Representatives to Coordinate Tribal Law 
        Enforcement Operations, Implement Strategies to Fight Crime and 
        Promote Public Safety, to Develop Strategies Concerning Indian 
        Country Public Safety, Law Enforcement and the Administration 
        of Justice; the Commission should be intergovernmental in 
        nature and shall not be subject to FACA;

    Moreover, the TLOA Reauthorization should include a demonstration 
project modeled upon Public Law 102-477 for Indian tribes under Federal 
and Tribal Law Enforcement Jurisdiction, as follows:

  <bullet>  Indian tribes with 2,500 tribal members or more (and 
        intertribal consortia serving 2,500 Indians or more) may submit 
        comprehensive plans for public safety, law enforcement and the 
        administration of justice and such comprehensive law 
        enforcement plans shall be jointly funded by Interior and 
        Justice and administered by Interior under Public Law 93-638 
        with unified reporting to both agencies and a unified program 
        audit;

  <bullet>  After consultation with the Secretary of the Interior and 
        the Indian Country Law Enforcement Improvement Commission, the 
        Attorney General may waive administrative, statutory and 
        regulatory provisions when such waivers are deemed necessary to 
        promote Indian Self-Determination and public safety, effective 
        Indian country law enforcement, and efficient administration of 
        justice in Indian country, provided that overall public safety, 
        law enforcement and criminal justice program goals shall be 
        maintained and a report shall be provided annually to Congress 
        concerning the necessary waiver of administrative, statutory 
        and regulatory requirements.

    Such a pilot project has been shown to be practical and effective 
under Public Law 102-477 (Labor--Interior Employment Training 
Programs), and Indian tribes under Federal and tribal law enforcement 
jurisdiction need more basic assistance for law enforcement than is 
currently provided by grants.
    We appreciate the leadership of Chairman Hoeven, Vice Chairman 
Udall and the members of the Senate Committee on Indian Affairs on 
these important issues. We support the enactment of the TLOA 
reauthorization with our requested additions. For the Sisseton-Wahpeton 
Sioux Tribe, and other Tribes where the BIA has closed their Tribal 
Jails, we cannot emphasize enough how important a Tribal Justice 
Center/Detention Center is to maintain basic public safety.
VIII. Support For Passage of S. 1942, To Address Missing and Murdered 
        Indians
    North Dakota and the North Dakota Indian community just underwent a 
terrible tragedy with the murder of Savanna Greywind, whose baby was 
torn from her womb by a deranged couple living in a neighboring 
apartment. Savanna was a nursing assistant at a nearby senior care 
facility. Moreover, recently three of our teenage tribal member girls 
were subject to human trafficking. As is so often the case with missing 
and abducted Native women, information sharing is essential. In order 
to protect Native women, we must find them as soon as possible. S. 1942 
provides the more focus and priority for cases involving missing and 
exploited Native women. Specifically, the bill further requires the 
Departments of Justice and Interior to coordinate efforts to establish 
protocols to investigate missing and murdered Native Americans. 
Protocols shall be developed in consultation with Indian tribes, the 
FBI, DOI, BIA, and IHS. DOJ must also annually report to the Senate 
Committee on Indian Affairs and the House and Senate Judiciary 
Committees on the known statistics on missing and murdered Indian women 
in the U.S. and related information. Accordingly, the Sisseton-Wahpeton 
Sioux Tribe fully supports the enactment of this legislation to 
safeguard Native women.
IX. Conclusion
    In closing, I want to thank the Committee for the opportunity to 
testify on behalf of the Sisseton-Wahpeton Sioux Tribe regarding our 
tribal law enforcement, public safety and related wellness priorities 
in expressing our support for S. 1870, the Securing Urgent Resources 
Vital to Indian Victim Empowerment Act of 2017, S. 1953, the 
Reauthorization of the Tribal Law and Order Act of 2010, and S. 1942, a 
bill to direct the Attorney General to review, revise and develop law 
enforcement and justice protocols appropriate to address missing and 
murdered Indians.
    We are challenged by the rise in drug crimes and attendant 
violence. Our top priority of securing funding for our Tribal Justice 
and Detention Center, will be the key vehicle to empower our Tribe with 
the infrastructure, tools and capacity to implement and participate in 
these key legislative measures when enacted into law. Please help us 
restore safety to our community. Wopida.

    The Chairman. Thank you, Chairman Flute. I agree with you.
    Councilman Boyd.

        STATEMENT OF HON. JOEL BOYD, COLVILLE BUSINESS 
  COUNCILMAN, CONFEDERATED TRIBES OF THE COLVILLE RESERVATION

    Mr. Boyd. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee.
    My name is Joel Boyd. I am a member of the Colville 
Business Council, the governing body of the Colville 
Confederated Tribes. I also serve as Colville Chair for the Law 
and Justice Committee which oversees the tribal courts as well 
as law enforcement.
    I appreciate this opportunity to testify today on S. 1953, 
which would amend the Tribal Law and Order Act and S. 1870, the 
SURVIVE Act. The Colville Tribes supports both bills and urges 
the Committee to approve them quickly. I would like to briefly 
summarize how the Colville Tribes would benefit from both 
bills, particularly in the area of juvenile justice.
    The Colville Reservation is located in north central 
Washington State and covers approximately 2,275 square miles. 
The reservation is slightly larger than the State of Delaware. 
The tribe has nearly 9,500 enrolled members and is one of the 
largest Indian tribes in the Pacific Northwest.
    Although we are sparsely populated, the Colville 
Reservation generates a high demand for police services. BIA 
funding limitations have meant that the tribe has a ratio of 
2.3 officers per 1,000 residents. This lack of funding 
translates into response times that are often greater than two 
hours for calls to the more remote areas.
    The Colville Tribe would benefit from several provisions in 
the Tribal Law and Order Act amendments. The legislation would 
require the Federal Government to develop a process for 
notifying tribes when a tribal member youth comes in contact 
with Federal, State or local juvenile justice systems.
    In the State of Washington, local and State governments 
handle juvenile cases involving tribal youth. Counties do not 
consistently report to the Colville Tribes when a tribal member 
enters the juvenile justice system.
    One of the counties on the reservation, Ferry County, 
operates a divergent program for juveniles. The Colville Tribe 
is often able to provide supplemental community resources and 
services that would enhance that program and make it more 
likely to succeed. This type of notification is common sense 
practice and will ensure proper coordination for our youth to 
receive the services and attention they need.
    S. 1953 also requires the Federal Government to consult 
with Indian tribes on several issues, including traditional 
justice systems. The CCT has established a traditional justice 
system called the Peacemaker Circle.
    The Peacemaker Circle is a group composed of tribal elders 
with knowledge of the tribe's customs and traditions that 
assist in resolving disputes. For some time, the tribe has been 
interested in utilizing the Peacemaker Circle for criminal 
matters involving tribal member juveniles. We believe having 
Federal agencies directly involved in facilitating discussions 
with State and local governments would assist in making this a 
reality.
    The Colville Tribe also supports S. 1870, the SURVIVE Act. 
The SURVIVE Act would create tribal grant programs within the 
Department of Justice's Office for Victims of Crime and require 
5 percent allocation from that fund to be provided to Indian 
tribes. Resources for Indian victims of crime have 
traditionally been very limited. The SURVIVE Act is an enormous 
step toward addressing this gap by providing a reliable source 
of funding for Indian victims that does not depend upon 
appropriations.
    In conclusion, the Colville Tribe strongly supports the 
Tribal Law and Order Act amendments and the SURVIVE Act.
    If I may, I would like to take this time to share a brief 
story on why this is so personal to me. While I was going to 
college, I worked as a youth camp counselor in my hometown. We 
had a range of kids from 7 years old to 14 that would come in.
    It is a little tough when you build this bond with these 
kids and see them every day in the community and then you see 
them as they grow up. Some of them start to get into the court 
systems to where they are breaking the law, drinking and doing 
drugs at a young age. They are sent to county jail but we will 
see that same kid back the next week doing the same things he 
was doing before.
    It is really tough for me because those are my little 
buddies which is what I called them when I worked with them. 
Some of these kids are becoming young adults now. When I see 
them in stores or anything, it affects me a lot.
    That is one thing that with TLOA, we can address, getting 
more of a bridge between county and tribal courts so that we 
can work on matters and get the kids into treatment and get 
them the help they need rather than sending them through a 
juvenile system and not hearing anything on what their 
accomplishments can be.
    Thank you. I am happy to answer any questions the Committee 
may have at this time.
    [The prepared statement of Mr. Boyd follows:]

  Prepared Statement of Hon. Joel Boyd, Colville Business Councilman, 
            Confederated Tribes of the Colville Reservation
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and members of 
the Committee. My name is Joel Boyd, and I am a member of the Colville 
Business Council, the governing body of the Confederated Tribes of the 
Colville Reservation (``Colville Tribes'' or the ``CCT''). I serve as 
the Chair of the Colville Business Council's Law and Justice Committee, 
which oversees law enforcement and tribal courts on the Colville 
Reservation.
    I appreciate this opportunity to testify today on S. 1953, which 
would amend the Tribal Law and Order Act of 2010 (TLOA), and S. 1870, 
the SURVIVE Act. The Colville Tribes supports both S. 1953 (the ``TLOA 
Amendments'') and the SURVIVE Act and urges the Committee to approve 
them quickly. My testimony will focus on how the Colville Tribes and 
similarly situated Indian tribes would benefit from both bills, 
particularly in the area of juvenile justice.
    I would like to commend the members of the Committee and the 
Committee staff for their support for and continued work on the TLOA. 
The Colville Tribes testified twice before this Committee when the TLOA 
was first pending in Congress in 2009 and 2010, and we are grateful for 
the Committee's willingness to again consider our views.
Law Enforcement on the Colville Reservation
    Located in north-central Washington State, the Colville Indian 
Reservation encompasses approximately 2,275 square miles, and covers a 
geographic area slightly larger than the state of Delaware. Although 
now considered a single Indian tribe, the Confederated Tribes is, as 
the name states, a confederation of 12 aboriginal tribes and bands from 
across eastern Washington. The Colville Tribes has nearly 9,500 
enrolled members, making it one of the largest Indian tribes in the 
Pacific Northwest. About half of the Tribe's members live on or near 
the Colville Reservation. Most of the Colville Reservation is rural 
timberland and rangeland, and most residents live in one of four 
communities on the Reservation: Nespelem, Omak, Keller, and Inchelium.
    Like many other Indian tribes, the Colville Tribes is hampered by 
insufficient funding, insufficient legal authority to fully punish 
offenders, and the reluctance of federal authorities to investigate and 
prosecute violent crimes that occur on the Colville Reservation. 
Although sparsely populated, the Colville Reservation generates a high 
demand for police services. The CCT has contracted law enforcement 
services from the Bureau of Indian Affairs (BIA) pursuant to the Indian 
Self-Determination and Education Assistance Act. BIA funding 
limitations have meant that the CCT has a ratio of 2.3 officers per 
1,000 residents. This lack of funding for law enforcement personnel 
translates into response times that often exceed two hours for calls to 
the more remote areas of the Reservation.
The TLOA Amendments (S. 1953)
    The Colville Tribes would benefit from several provisions in the 
TLOA Amendments. Most notably, section 203 of the bill would require 
the federal government to develop a means for notifying tribes when a 
tribal member youth comes in contact with federal, state, or other 
local juvenile justice systems.
    In 1953, Congress enacted Public Law 83-280 which authorized 
several states, including the state of Washington, to exercise 
authority over certain criminal and civil matters on Indian 
reservations in the state. By default, local government courts 
administer detention and probation services, and the state of 
Washington administers commitment and aftercare services for juvenile 
matters that occur on-reservation.
    The Colville Reservation covers portions of both Ferry and Okanogan 
counties, and those counties handle juvenile criminal cases. These 
counties do not consistently report to the CCT when Colville tribal 
members enter their juvenile justice systems. The section 203 
requirement that Indian tribes be notified when tribal member juveniles 
enter local government systems would be a key first step for ensuring 
proper coordination for our youth to receive the services and attention 
that they need.
    For example, Ferry County operates a diversion program for 
juveniles in its system in cooperation with local school districts. The 
Colville Tribes is often able to provide supplemental community 
resources and services that would increase the likelihood that a 
diversion program would succeed with our youth. Notifying Indian tribes 
when their tribal youth has entered a state or local juvenile system is 
a common-sense practice that should have been implemented long ago.
    Section 203 also requires the federal government to consult with 
Indian tribes not less than bi-annually on several issues, including 
the means by which traditional or cultural tribal programs may serve or 
be developed as promising or evidence-based programs. The CCT has 
established a traditional justice system called the ``Peacemaker 
Circle,'' which is a group composed of tribal elders with knowledge of 
the CCT's customs and traditions that facilitates discussion and 
assists in resolving disputes. The CCT has been interested in utilizing 
the Peacemaker Circle for criminal matters involving tribal member 
juveniles for some time. The CCT believes that having federal agencies 
directly involved in facilitating these discussions would assist in 
making this a reality.
    Also, section 102 of the TLOA Amendments would require the 
Departments of the Interior, Health and Human Services, and Justice to 
consult with Indian country and submit a report to Congress on 
transferring federal funding from different federal agencies and 
administering the funds under a single plan. The CCT hopes that this 
report would provide an important record to assist in addressing some 
of the challenges the CCT police department faces in providing quality 
policing services for juveniles.
    The CCT has been a training ground for many law enforcement 
officers. Because of budget limitations, the salaries of and benefits 
for CCT officers are not as competitive as local government 
jurisdictions. Once our officers have completed their basic training 
and field training hours, they often move on to other police 
departments and leave the CCT lacking in capacity, such as forensic 
interviewing. Coordinating federal resources from different agencies 
would allow the CCT to maximize funding and resources to fill these 
gaps.
    Finally, the CCT suggests an addition to the reporting requirements 
in section 101 of the TLOA amendments. In the past, the BIA has been 
less than forthcoming on how it allocates increases in law enforcement 
funding. In prior years, the CCT discovered instances where Indian 
tribes with little violent crime and no staffing need were allocated 
increases from additional appropriations or carryover funds. To ensure 
transparency in these allocation decisions, the CCT recommends that 
language be included that requires the BIA to disclose the 
methodologies or criteria it uses to allocate funding increases or 
carryover.
The SURVIVE Act (S. 1870)
    The SURVIVE Act would create a tribal grant program within the 
Department of Justice's Office for Victims of Crime and require a five 
percent allocation from the Crime Victims Fund (CVF) be provided to 
Indian tribes. The CVF is funded by fines and penalties paid by 
convicted federal offenders and does not require congressional 
appropriations. Indian tribes or tribal organizations would be eligible 
to apply, and the grant funds could be used for a wide range of 
services for victims of crime--from counseling services for victims to 
training. The SURVIVE Act would establish a five percent set aside--
approximately $150 million annually--of the CVF for these grants.
    The Colville Tribes strongly supports the SURVIVE Act. Resources 
for Indian victims of crime have traditionally been extraordinarily 
limited. The SURVIVE Act is an enormous step toward addressing this gap 
by providing a reliable source of funding for Indian victims that is 
not subject to annual appropriations.
    The Colville Tribes strongly supports the TLOA Amendments and the 
SURVIVE Act. At this time, I would be happy to answer any questions the 
Committee may have.

    The Chairman. Thank you, Councilman Boyd.
    Director O'Leary, thank you for being here.

STATEMENT OF CARMEN O'LEARY, EXECUTIVE DIRECTOR, NATIVE WOMEN'S 
                  SOCIETY OF THE GREAT PLAINS

    Ms. O'Leary. Good afternoon.
    On behalf of the Native Women's Society, I want to thank 
you all for the invitation to present testimony on these 
important Senate bills.
    First, I want to say each bill is of extreme importance to 
the everyday safety of Native women and the ability of our 
Indian tribes to protect Native women. These bills remove 
certain barriers and increase the ability of Indian tribes to 
respond to these crimes and provide new options for Federal law 
enforcement agencies to respond to violence against Native 
women. Given the time restrictions, I am going to limit my oral 
comments to certain key provisions.
    I do want to begin by saying the crisis we face in the 
levels of violence committed against Native women is well 
documented. I believe one of the Senators already talked about 
the National Institute of Justice report published in 2016 
which highlighted that more than four in five Native women have 
been victims of violence. I think the percentage was 84.3 
percent and that will happen in their lifetime.
    The violence committed against these women included sexual 
and physical violence, stalking and psychological abuse. I have 
provided many of those statistics in my written testimony.
    Going on to talk about the SURVIVE Act, for over ten years 
now the National Congress of American Indians Task Force, 
advocates and tribal leaders have requested creation of a 
permanent, dedicated funding stream under the Victims of Crime 
Act. The concerns of the NCAI Task Force are based on the 
following information from the U.S. Justice Department.
    When we look at the years between 2011 and 2014, programs 
that served American Indians and Alaska Natives survivors of 
violence crimes received less than .5 of the Crime Victim Fund 
annually. In 2013, more than 60 percent of the States with 
Indian tribes did not make a single subgrant. As a result, 
Native communities and survivors of violent crimes received 
little assistance.
    With the high rates of violence against Native women, 
Indian tribes and tribal programs need the necessary resources 
to provide basic services such as safe shelter, rape crisis 
services and advocacy for Native women who, on many tribal 
reservations, have no services.
    In addition, Native women need immediate and long term 
counseling and medical services due to multiple victimizations 
committed against them by a single or multiple abusers. Sadly, 
for those families traumatized by having a missing or murdered 
relative, they often need assistance with transporting their 
loved one home and burial.
    It is a travesty of justice that Indian tribes with the 
highest rates of victimization do not have direct access to 
dedicated tribal funding streams under VOCA. S. 1870 would 
address this longstanding injustice by directing that 5 percent 
of the total annual outlays from the Crime Victims Fund be 
provided to Indian tribes.
    Concerning S. 1942, to organize and respond to an 
injustice, it must first be acknowledged and understood. The 
Native Women's Society of the Great Plains has worked for the 
last five years to increase awareness of this issue. We have 
supported community justice walks, we have a Facebook page 
dedicated to missing and murdered Native women and we honor 
Native women who have been murdered by creation of miniature 
traditional dresses. There are so many women who have gone 
missing or have been murdered. It is truly a crisis facing 
Indian tribes.
    In October 2016, the National Congress of American Indians 
passed a resolution to address the crisis of missing and 
murdered Native women and girls by the Federal Government with 
agencies included, but not limited to, the Department of 
Justice, Interior, Health and Human Services to review, revise 
and create law enforcement and justice protocols appropriate to 
the disappearance of Native women and girls, including 
interjurisdictional issues, to provide victims services to the 
families and community members of the disappeared and murdered 
women such as counseling for their children, burial assistance, 
community walks, healing ceremonies, also coordination of 
efforts across the departments to increase the response to the 
disappearance of murdered Native women and girls and 
coordinating efforts in consultation with Indian tribes to 
increase the response of State governments where appropriate to 
cases of disappearance or murder of Native girls and women. 
These were fundamental steps toward responding to the crisis we 
face on a daily basis in lost lives.
    S. 1942 addresses necessary steps in responding to the 
crisis we face as Native women who continue to go missing and 
are murdered. This year the Senate passed a resolution 
declaring May 5 as the National Day of Awareness for Missing 
and Murdered Native Women.
    Thank you for your support for the National Day of 
Awareness. The first National Day of Awareness reached millions 
of people across the United States and the world through social 
media platforms. The public call for increased awareness is 
indicative of the extent of the reality that Native women go 
missing on a daily basis often without any response by law 
enforcement.
    I support the changes S. 1942 would make and also would 
like to suggest inclusion of a field hearing on missing and 
murdered Native women to allow tribal communities the 
opportunity to share their losses and recommendations of how to 
improve the Justice responses to cases of missing and murdered 
Native women.
    The Tribal Law and Order Act is a historic bill. Advocates 
celebrated that because we recognize the need to create that 
reform in American Indian tribes. The most significant change 
would be restoring the authority of Indian tribes to sentence 
offenders for more than a maximum of one year per crime.
    TLOA has many other important provisions. I would like to 
address several. I know I am out of time. I have put that in my 
written testimony.
    Again, thank you.
    [The prepared statement of Ms. O'Leary follows:]

   Prepared Statement of Carmen O'leary, Executive Director, Native 
                  Women's Society of the Great Plains
    Good Afternoon Senators, On behalf of the Native Women's Society of 
the Great Plains I would like to thank you for the invitation to 
present testimony on these important Senate bills. First I want to say 
each bill is of extreme importance to the everyday safety of Native 
women and the ability of Indian tribes to protect women. These Senate 
bills remove certain barriers and increase the ability of Indian tribes 
to respond to these crimes and provide new options for Federal law 
enforcement agencies to respond to violence against Native women. Given 
the time restrictions of today's hearing I will limit my oral comments 
to certain key provision.
    I do want to begin however saying that the crisis we face in the 
levels of violence committed against Native women is well documented. 
In 2016, the National Institute of Justice published a report that 
again highlights that more than 4 in 5 American Indian and Alaska 
Native women (84.3 percent) have experienced violence in their 
lifetime. The violence committed against these women included sexual 
and physical violence, stalking, and psychological abuse. The NIJ 
reports

  <bullet>  56.1 percent experienced sexual violence
  <bullet>  55.5 percent experienced physical violence by an intimate 
        partner
  <bullet>  48.4 percent experienced stalking, and
  <bullet>  66.4 percent experienced psychological aggression by an 
        intimate partner \1\

    \1\ National Institute of Justice, 2106
---------------------------------------------------------------------------
S. 1870 Securing Urgent Resources Vital To Indian Victim Empowerment 
        Act--Creation of a Tribal Dedicated Funding Stream Under the 
        Victim of Crime Act
    For over 10 years, the National Congress of American Indians Task 
Force, advocates, and tribal leaders have requested the creation of a 
permanent dedicated funding stream under the Victim's of Crime Act. The 
concerns of the NCAI Task Force are based on the following information 
from the United States Department of Justice:

  <bullet>  Between the years of 2011-2014, programs that served 
        American Indians/Alaska Native survivors of violent crimes, 
        received less than 0.5 percent of the CVF annually.

  <bullet>  In 2013, more than 60 percent of states with Indian tribes 
        did not make a single sub grant. As a result, Native 
        communities and survivors of violent crimes, received little 
        assistance.

    With the high rates of violence against Native women Indian tribes 
and tribal programs need the necessary resources to provide basic 
services such as safe shelter, rape crisis services, and advocacy for 
Native women who on many tribal reservations have no services. In 
addition, Native women need immediate and long term counseling and 
medical services due to the multiple victimizations committed against 
them by a single or multiple abusers. And sadly for those families 
traumatized by having a missing or murdered relative they often need 
assistance with transporting their loved one home and with burial. It 
is a travesty of justice that Indian tribes with the highest rates of 
victimization do not have direct access, a dedicated tribal funding 
stream, under the Victim of Crime Act.
    Senate Bill 1870 will address this longstanding injustice by 
directing that five percent of the total annual outlays from the Crime 
Victims Fund (CVF) be provided to Indian tribes.
S. 1942 A Bill To Direct the Attorney General To Review Revise and 
        Develop Protocols on Missing and Murdered Indians
    To organize and respond to an injustice, it must be first be 
acknowledged and understood. The Native Women's Society of the Great 
Plains has worked for the last five years to increase awareness of this 
issue. We have supported community justice walks, have a FaceBook page 
dedicated to missing and murdered Native women, and honor Native women 
who have been murdered by creation of miniature traditional dresses. 
There are so many women who have gone missing or have been murdered it 
is truly a crisis facing Indian tribes.
    I have antidotal information but no hard and fast statistics but do 
want to share one story, that of Vicki Eagleman of Lower Brule SD. Her 
story is one that has been repeated too many times. The family reports 
her missing and no one investigates, her mom knew when she did not come 
home that night something was wrong. Her family initiated the searches 
on their own and found her body 7 miles from her home. No one has been 
brought to justice to this day.
    In October of 2016, the National Congress of American Indians 
(NCAI) passed a resolution to address the crisis of missing and 
murdered Native women and girls by the federal government, with 
agencies including but not limited to the Departments of Justice, 
Interior, and Health and Human Services, including actions such as:

  <bullet>  To review, revise, and create law enforcement and justice 
        protocols appropriate to the disappearance of Native women and 
        girls, including inter-jurisdictional issues; and

  <bullet>  To provide increased victim services to the families and 
        community members of the disappeared or murdered Native woman 
        such as counseling for the children of the disappeared, burial 
        assistance, and community walks and healing ceremonies; and

  <bullet>  Coordination of efforts across federal departments to 
        increase the response to the disappearance or murder of Native 
        women and girls; and

  <bullet>  Coordinate efforts in consultation with Indian tribes' 
        efforts to increase the response of state governments, where 
        appropriate, to cases of disappearance or murder of Native 
        women or girls.

    These were fundamental steps toward responding to the crisis we 
face on a daily basis in lost lives. S. 1942 addresses necessary steps 
in responding to the crisis we face as Native women continue to go 
missing and are murdered. This year the Senate passed a resolution 
declaring May 5th, 2017 as a National Day of Awareness for Missing and 
Murdered Native Women. I thank you for your support for the National 
Day of Awareness and can say the first national day of awareness 
reached millions of people across the United States and the world 
through social media platforms. \2\ This public call for increased 
awareness is indicative of the extent of the reality that Native women 
go missing on a daily basis often without any response by law 
enforcement. I support the changes S. 1942 will make and would also 
like to suggest inclusion of field hearings on missing and murdered 
Native women to allow tribal communities the opportunity to share their 
losses and recommendations of how to improve the justice response to 
cases of missing and murdered Native women.
---------------------------------------------------------------------------
    \2\ Social media impressions related to the national day numbered 
approximately 8.5 million. Source: http://keyhole.co.
---------------------------------------------------------------------------
S. 1953 Reauthorization of the Tribal Law Order Act of 2010
    The Tribal Law and Order Act (TLOA) was a historic bill we as 
advocates celebrated because we recognized the need to create law 
enforcement reform for American Indian tribes. The most significant 
change being restoring the authority of Indian tribes to sentence 
offenders for more than a maximum of one year per crime. TLOA also has 
many other important provisions and I would like to address several.
    Federal Accountability. TLOA, Section 201 of the Tribal Law and 
Order Act of 2010 requires U.S. Attorneys to coordinate with tribal 
justice officials on the use of evidence when declining to prosecute or 
refer a reservation crime. Sharing of this type of information is 
critical to keeping Indian women safe. Tribal officials need to be 
notified when a U.S. Attorney declines to prosecute sexual assault and 
domestic violence cases so that, in the case of an Indian defendant, a 
tribal prosecution may proceed, or in all other cases, tribes can at 
least notify the victim of the status of the case so that the victim 
may take the necessary steps for protection. I recommend U.S. Attorneys 
do more to increase coordination and reporting duties with tribal 
justice officials under the TLOA.
    Enhanced Tribal Sentencing Authority. Section 304 of the TLOA 
grants tribal courts the ability to sentence offenders for up to 3 
years' imprisonment for any one offense under tribal criminal law if 
certain protections are provided. This is a significant improvement, 
although this maximum sentence still falls short of the average 
sentence of 4 years for rape in other jurisdictions. Indian tribes must 
have the capacity to house the offender in detention facilities that 
meet federal standards; otherwise, the enhanced sentencing power is 
meaningless. It is very important the Bureau of Prisons Pilot Project 
is reauthorized.
    Prisoner Release and Reentry. Section 601 of the TLOA requires the 
U.S. Bureau of Prisons to notify tribal justice officials when a sex 
offender is released from federal custody into Indian country. It is 
absolutely essential that tribal justice officials are notified of 
prisoner release and reentry on Indian lands, regardless of the process 
by which this occurs. Proper implementation of this provision is 
critical to the safety of Indian women.
    These are just some of the provisions within the TLOA that will 
help protect the safety of Native women.
    Again, I thank you for the opportunity to testify on these 
important Senate Bills.

    The Chairman. Thank you, Ms. O'Leary. Thank you to all the 
witnesses for being here.
    We will now proceed with five minute rounds of questioning.
    I would ask of each of you the following. My question is 
right now under the Crimes Victim Fund, less than $30 million a 
year out of $3 billion goes to help on reservations. If we are 
able to pass the SURVIVE Act, that would increase to $150 
million a year. In your opinion, is that important and can it 
make a real difference in Indian Country? I would ask that 
question of each one of you, starting with Mr. Shores.
    Mr. Shores. Thank you, Mr. Chairman.
    Of course that is important. As we talk about whether it is 
a legal obligation under the trust responsibility or a moral 
obligation to address the needs of victims in Indian Country, 
when we look at the President's fiscal year 2018 budget 
request, it does include a 5 percent set-aside for OVC. The 
department is supportive of that. That is one way, I think, 
that we can certainly ensure there are the opportunities to 
improve resources and access to those resources for Native 
American victims.
    The Chairman. Mr. Rice.
    Mr. Rice. Thank you, Mr. Chairman.
    Absolutely, I would echo my colleague's comments. I look at 
it also from the perspective that the Bureau of Indian Affairs 
provides services directly to Native American communities and 
also through support of self-governance, self-determination, 
compacts and contracts.
    In looking at how we affect the future with any kind of 
support coming our way, we are having a broader conversation 
about what that looks like, how do we get the right tools, the 
right funds in the right place to have the most impact? 
Historically, the spread of funding applications usually will 
have impact. If we can get it to a priority area or priority 
areas, I think we can have a broader impact on the services we 
are providing.
    The Chairman. Chairman Flute, to your outstanding 
testimony, I think we are making real progress in terms of 
funding for the Law Enforcement Center which comes out of 
Interior, EPA. Our challenge is operating and maintenance type 
funding which actually comes out of criminal justice science.
    Mr. Flute. Mr. Chairman, I say this with the support of my 
tribal council that the Sisseton Wahpeton Sioux Tribe might be 
in a little better situation to provide O&M costs from the 
revenues we generate. Unfortunately, our need is getting the 
funds for the detention facility.
    The Chairman. To make the point, I think we are honing in 
on those dollars. You have been a real champion on it.
    Mr. Flute. Thank you. I appreciate that, Mr. Chairman.
    I say this because I am a member of the Great Plains Tribal 
Chairman Association. I serve at the pleasure of the United 
Tribes of North Dakota as chairman of the board. Our tribal 
enrollments are growing in the tribes. With increased tribal 
enrollment comes increased challenges and crimes because of the 
disadvantages that we have. This would help a great deal.
    We would also ask that there be continuing authorization so 
that, as tribes, we don't have to come back and ask for this 
again. We definitely appreciate your leadership.
    The Chairman. That is the reason for the authorization so 
it would be a continuing authorization.
    Mr. Flute. Thank you.
    The Chairman. Councilman Boyd.
    Mr. Boyd. Can you explain the question one more time?
    The Chairman. I pointed out that right now less than $30 
million a year comes from the Crime Victims Fund to Indian 
Country, less than $30 million. The SURVIVE Act would increase 
that to $150 million. Is that important to you? Do you need 
those resources? How would you use them?
    Mr. Boyd. Yes, it would be important. Now the CCT has not 
gone to the State for any kind of CVF funds just because we 
have not had good luck in the past, you could say, with that, 
with little outcome.
    The Chairman. It has gotten to the point where you weren't 
even applying for it because you were not getting it?
    Mr. Boyd. Exactly.
    The Chairman. I think that makes the point very 
dramatically, that we need to provide more funding.
    Mr. Boyd. Yes, sir.
    The Chairman. Ms. O'Leary.
    Ms. O'Leary. With all due respect, it is the season for 
Halloween, so I am going to use that for an example.
    If the first 50 kids show up at the door and you give them 
all the candy, then ask them to pass it out to the other kids, 
you know how successful that is, right? I think that gives you 
a good example of why we need to have the resources to provide 
services for Native people with Native people because that is 
where the resources will then go.
    I cannot stress to you, Senators, how important it is to 
have safe space for victims of crime when they are fleeing 
violence. It is the difference between getting it to stop and 
not stopping it.
    You have all heard about the lack of law enforcement and 
accountability to offenders. If they are not going to be picked 
up and held accountable, we are going to do catch and release, 
you know what happens to a fish when you catch and release, it 
gets bigger and better at what it does, right?
    There are some things to think about in what is happening 
in our communities. There is just so much we can do with this 
kind of money. We can create that safe space, provide more 
counseling, and we will have burial help.
    Please note that many times the women and children coming 
into the shelters and programs that I serve, this is not a 
onetime thing. It is often happening over a lifetime. That is 
why we are getting the horrendous problems we have.
    Not to leave out the offenders, we need that money and 
services that could come through the Tribal Law and Order Act 
too. Maybe we are not talking enough about some of those 
services too. I think this would be money well spent.
    The Chairman. It flows right on. That is a great point. 
That is the other side of the coin, the prevention, the 
enforcement and the coordination among the law enforcement 
agencies. That is a great point. Thank you.
    Vice Chairman Udall.
    Senator Udall. Thank you, Mr. Chairman.
    Just recently, I received a statutorily required report 
that was due in 2012, five years late. In order to exercise 
this Committee's oversight authority, we must receive timely 
reporting of information on Indian programs from Federal 
agencies. S. 1953 looks to address this same issue by 
withholding administrative funding from the Department of the 
Interior and the Department of Justice agencies that fail to 
submit required reports by the legislative deadline.
    Mr. Rice, in your testimony, you express that withholding 
such funding could negatively impact the BIA's delivery of 
public safety needs to tribes in Indian Country. Could you 
elaborate on how this could impact tribes?
    Mr. Rice. Absolutely. Thank you, Senator.
    When I first stepped into this role, I started asking the 
questions to the Law Enforcement Program about those reports, 
saying, why is it late, what has happened and is it something 
we can fix? What I came to learn is that the reports were being 
developed was based on the timing of the money that went with 
it. If the funding was two-year funding, report development 
began two years afterward.
    The first round of this, rewinding the clock to 2010, folks 
were not prepared to develop the report, the process, the 
vetting of the report. All those pieces were new and people had 
to develop it, a step forward.
    Fast forward to today, the trend that I am seeing in 
talking with staff is that the way the information is being 
collected, the way the report is going to be developed is 
moving faster. It does not mean it is as fast as it should be, 
absolutely not. We need to move quicker.
    The problem or the challenge that I see with carving out 
administrative funds is that the administrative overhead within 
the Bureau of Indian Affairs is very lean, so the focus of the 
Law Enforcement Program, Office of Justice Services, is boots 
on the ground.
    It is having those patrol officers, having the correctional 
staff, the dispatchers, all the people actually providing those 
services with a small overhead that is doing oversight for all 
the other programs. If we have to carve off administrative 
dollars, it is going to have a direct correlation to those 
boots on the ground. That is the area that will take some time 
to actually figure out what that impact will be. On the 
surface, I think the impact would be severe.
    Senator Udall. And on the tribes.
    Mr. Rice. Absolutely.
    Senator Udall. U.S. Attorney Shores, if the required 
reports under S. 1953 were not submitted on time, what impact 
would withholding administrative funds from your department 
have on its ability to keep tribal public safety programs 
running?
    Mr. Shores. Senator, thank you for the question.
    Certainly, I want you to know that I agree that 
accountability is an important part of the relationship the 
Justice Department has not only to this Committee but to the 
tribes and the trust responsibility we have to them. The 
collection of that data and the ability to ensure it is correct 
and accurate is an important part of that.
    I know that the Justice Department has circulated TLOA II 
and that particular language. We are currently reviewing 
internal feedback on that. It is my understanding that DOJ is 
settling on a formal position on that particular clause within 
TLOA. We would look forward to the opportunity to address that 
in an agency response following this hearing.
    Senator Udall. Do you agree with Mr. Rice's testimony?
    Mr. Shores. Certainly in the regard that it is important 
that we gather the information so that we can understand where 
needs are or as we look at the metrics.
    Senator Udall. He said withholding would hurt the tribes. 
Do you agree with that?
    Mr. Shores. Those discussions are ongoing. I believe the 
Department of the Interior perhaps has, at this point, a better 
idea of how their boots on the ground resources could be 
impacted by that withholding.
    However, the Justice Department's responsibility through a 
various assortment of grants, I would have to consult with my 
colleagues at the Office of Justice Programs. I would expect 
that withholding of funds, common sense would tell me, could be 
detrimental to our ability to fulfill our trust responsibility 
to Indian tribes.
    I would like the opportunity to speak with my colleagues at 
the Justice Department and address that more fully.
    Senator Udall. Thank you very much. We look forward to a 
timely answer from you on this particular issue, okay?
    Mr. Shores. Yes, sir.
    Senator Udall. What suggestions would either of you provide 
to the Committee to increase reporting accountability for 
Federal agencies in a way that does not negatively impact 
tribes, as suggested earlier? What would you suggest?
    Mr. Rice. Mr. Vice Chairman, one of the areas we have been 
talking about is the timing of the reporting. As I stated 
earlier, the two-year funding cycle creates this long gap. We 
all move very quickly now with data in all aspects of our 
lives.
    If we had data that was captured yearly as opposed to two 
years, it would change the baseline we would be operating off 
of and how we relate that to previous years. That might be one 
aspect or one way we could go about actually capturing data 
quickly.
    Ultimately, we would love to have it in real time. We are 
not at that point yet. A quicker cycle would be a better 
option.
    Senator Udall. U.S. Attorney Shores, do you have any 
thoughts on that or do you want to include that in your reply 
to us?
    Mr. Shores. I do not have any additional insight other than 
those provided by my colleague. I would welcome the chance to 
include that in my report once I have spoken with the 
individuals at the Office of Tribal Justice, the Office of 
Justice Programs and also the Executive Office of U.S. 
Attorneys.
    As you mentioned, there was the Native American Issues 
Coordinator position that was included. That individual works 
with the U.S. Attorneys to help collect some of that data. I 
would like to speak with him as well.
    Senator Udall. Thank you very much. Thank you, Mr. 
Chairman.
    The Chairman. Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Mr. Shores, as you know, Montana's Fort Peck tribes utilize 
the Tribal Access Program, TAP, which provides tribes access to 
national crime information for both civil and criminal 
purposes. What benefits has Fort Peck or other tribes gained 
from TAP?
    Mr. Shores. Senator, this is a great question because TAP 
is a program which I think addresses what is the coin of the 
realm these days. That is information and access to 
information.
    There is no reason that tribes should be behind the eight 
ball when it comes to accessing information. The benefits that 
we see on the ground for tribal law enforcement are safety, not 
just public safety for the communities they serve, but safety 
for the tribal law enforcement officer who, for example, pulls 
over a vehicle. They do not know if that individual who they 
are engaging may be a fugitive, a wanted felon or have a 
history of violence. We see it in the ability to track sex 
offenders, to ensure that Indian Country does not become some 
safe haven for sex offenders.
    Senator Daines. Mr. Shores, on integration of data, I want 
to make sure I am clear. If a law enforcement official pulls 
over a vehicle, is he getting that off the license plate match 
or off the driver's license?
    Mr. Shores. I am unsure. I believe the way the TAP Program 
works is it is a multifaceted interface where they could get it 
through fingerprints or, I believe, information on a license.
    Senator Daines. It is a separate issue but it actually does 
relate to allowing law enforcement to have better visibility of 
who is in that vehicle. If you are in hot pursuit and find out 
that the person in that vehicle is a known violent offender, it 
might change the way law enforcement engages the vehicle prior 
to putting that law enforcement official in closer contact. 
Once they get the driver's license, they are twelve inches away 
from the driver.
    Mr. Shores. Absolutely. There is inherent danger for every 
police officer when they approach a vehicle on every traffic 
stop.
    Senator Daines. Although it may seem routine. That was 
something I wanted to follow up separately with you. I did not 
mean to interrupt you but I did. I will let you keep going but 
that is something I would like to follow up with you to see 
what we can do to get law enforcement better information and 
tools before they actually get in close proximity to the 
vehicle.
    Mr. Shores. I can tell you I was speaking with officials 
from the Office of Tribal Justice earlier today and they shared 
with me an anecdote from Fort Peck. Earlier this year when they 
set up the TAP Program, the first individual they put into the 
system actually came back as a registered sex offender. It 
turned out when they entered his information, he had an 
outstanding warrant. He was immediately taken into custody and 
able to be turned over to the probation office. That is 
information that, without TAP, the officials on the ground 
would not have had. Yes, sir, it is very beneficial.
    Senator Daines. I want to shift for a moment to talk about 
the Two Rivers detention facility. Secretary Zinke recently 
received a letter from the Chief Justice of the Crow Tribe, 
Leroy Not Afraid detailing the inhumane conditions and illegal 
overcrowding that Crow and Northern Cheyenne tribal members are 
currently subject to in detention facilities in Montana as well 
as Wyoming.
    The BIA is applying for a contract to reopen the Two Rivers 
Detention Facility in Hardin which is expected to help 
alleviate some of that overcrowding. Mr. Rice, what is the 
status of that lease application?
    Mr. Rice. Senator, thank you for that.
    The Two Rivers facility is very important. It is right 
there in Hardin in the middle of the Crow Reservation in 
Montana. During the interim while the lease is being worked on, 
all of our folks that need bed space are being sent to Lame 
Deer. They are even being sent to other areas. We see it as a 
critical thing that needs to get done.
    The lease is on its last review out of the Bureau to be 
sent to GSA. There was an expectation that will be fast tracked 
and moved through.
    Senator Daines. The question I am getting from all the 
folks back home is when do you think it will reopen?
    Mr. Rice. The target we are shooting for is 90 days.
    Senator Daines. Ninety days from now?
    Mr. Rice. Correct.
    Senator Daines. That would be January 2018?
    Mr. Rice. Correct. We would be happy to quickly follow up 
with you as the process unfolds.
    Senator Daines. Thank you. There are a lot of eyes watching 
us. I appreciate your help on that, especially the folks in Big 
Horn County.
    Mr. Rice. Absolutely.
    Senator Daines. Judge Not Afraid's letter also states ``the 
BIA has continuously failed to deliver Crow inmates to court 
for arraignments, hearings and trials.'' Has BIA confirmed that 
is the case?
    Mr. Rice. We have found in talking with my senior staff 
that we have four instances that happened earlier this year in 
the January, February timeframe. It was all due to icy road 
conditions and poor driving conditions which, as you well know, 
across Montana if you have to get going on the highway and it 
is one of those cold days in the winter, you are going pretty 
slow.
    Senator Daines. I do. Let me just state this. That does 
conflict with what I am hearing from the Crow tribal judge, 
what he has on file. I would like your commitment to work with 
us and the Crow tribal judiciary to reconcile that. Obviously, 
there is another set of information and facts, to find out why 
they were missed, as well as your commitment to provide me with 
your course of action to reschedule any missed dates after you 
have done so. May I have your commitment to do that with us?
    Mr. Rice. Absolutely.
    Senator Daines. Thank you. When would be a reasonable 
amount of time to expect that?
    Mr. Rice. Two weeks.
    Senator Daines. Great. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman.
    U.S. Attorney Shores, in the last 20 years, how many 
reported homicides have there been in Indian Country in the 
United States of America?
    Mr. Shores. I do not have that information in front of me 
today, Senator.
    Senator Heitkamp. Okay. In the last 20 years, how many 
prosecutions have there been of murders and homicides in Indian 
Country?
    Mr. Shores. As a Federal prosecutor who has prosecuted some 
of those, I would say to you countless but I do not have that 
number in front of me today.
    Senator Heitkamp. Do you think the Department of Justice 
could give me that number?
    Mr. Shores. I do not know, Senator, but I certainly would 
follow up and inquire whether our Bureau of Justice Statistics 
has that information.
    Senator Heitkamp. I think it is important to know what your 
clearance rate is. How many of these cases have actually been 
investigated and either determined to have a suspect or have 
some form of prosecution.
    I am not picking on you. I am just saying this is the 
frustration we have. If I asked you how many reports of missing 
women reported either to tribal police or the Department of 
Justice, how many of those reports are currently under 
investigation, I do not think you could give me that number 
either.
    I think if I asked you how many pending investigations are 
there of drug crimes in this Country the FBI is involved in, I 
bet you they could give me that number. I bet you they could 
give me the clearance rate of the drug prosecutions they have 
made globally. You keep these numbers. I have seen these 
numbers. I have been the Attorney General of North Dakota.
    I am not picking on you. I am just trying to make the point 
that this is invisible. It does not seem to be given the level 
of gravitas that it has to. In North Dakota, we just went 
through an initiated measure that enacted something called 
Marsy's Law, something that is happening across the Country, 
giving crime victims even greater rights.
    We also have had many, many jurisdictions implement Amber 
Alerts. I did a meeting on Amber Alerts in North Dakota. Many, 
many tribes from across the region and across the Country came 
and not one had an Amber Alert system, not one.
    They had no way if someone went missing. In fact, my crime 
victim advocates say, we rely on Facebook. We rely on Facebook 
to notify each other on what is happening with these crimes.
    The Department of Justice has a unique obligation in my 
State, unique because major crimes are prosecuted by the FBI. I 
am not picking on you. I have talked to Director Wray about 
this. I browbeat Director Comey for a number of years on this 
issue.
    I can pass all the laws and we can get all the sponsorships 
but if we do not have a commitment from the Department of 
Justice and the Department of the Interior to make this a high 
priority, we are not going to be successful. We are not.
    I am pleading for these crime victims and their families 
that they should know where these cases are. They should know 
that someone is still looking for a loved one. They should know 
that someone is still looking for a perpetrator. They do not 
and there is nowhere to turn.
    This is a situation that would be intolerable if it were 
happening in Bismarck, North Dakota. Yet, we kind of shrug our 
shoulders. We have kind of a joke on this side. We say what 
happens in the Indian Affairs Committee stays in the Indian 
Affairs Committee.
    We all in this Committee understand the challenges and 
understand the statistics but we walk outside the door and it 
seems to evaporate from any kind of consciousness.
    I want to thank you for your hard work. I know how hard it 
is to prosecute these crimes. I know how hard it is to work 
with victims. I want to applaud Senator Hoeven for what he is 
doing to try to bring more victims services.
    You will agree me, won't you, U.S. Attorney Shores, that if 
you have good, solid crime victim advocates and people working 
with crime victims, it will increase your rate of prosecution 
and success in prosecution?
    Mr. Shores. Senator, first, let me say, I thank you for 
your passion on these issues. As a career prosecutor, this is 
near and dear to my heart as someone who has worked in and 
around Indian Country.
    What you said at the end, yes, when we have a 
multidisciplinary team, even a multijurisdictional team. For 
example, in Oklahoma where we have a patchwork jurisdiction 
system, it is important that we have social services, law 
enforcement, State, local and tribal folks at the table.
    If we have those conversations, we can provide a more 
holistic response to a particular need. We can determine 
whether the best place to proceed is in tribal court, Federal 
court or no court at all and look at other alternative 
rehabilitative mechanisms.
    I do want to say, if you leave here with nothing else 
today, I want you to know that the prosecutors who work in the 
Justice Department and prosecute crimes in Indian Country, 
especially the men and women who serve as tribal liaisons, many 
of us who have personal ties to Indian Country, you will find 
no more passionate a group of career prosecutors to pursue 
these issues.
    I commit to you that as a U.S. Attorney in the Northern 
District of Oklahoma, I will strive to have the voice of Indian 
Country heard in the halls of the Department of Justice. I can 
tell you in my relations speaking with the leadership of the 
Justice Department, this is an issue that is important. It is 
consistent with what Attorney General Sessions has mandated 
with regard to U.S. Attorneys taking a leadership role in 
reducing violent crime. That is exactly what Indian Country 
needs, a focus on the reduction of violent crimes.
    Thank you for the opportunity to respond. Thank you for 
bringing attention to this issue.
    Senator Heitkamp. Thank you so much for your comments. I 
look forward to working with you and the Department of Justice 
as we move forward with this bill.
    Mr. Shores. Thank you.
    The Chairman. Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    I really appreciate what you are advancing with the SURVIVE 
Act. As we think about the types of victim assistance, it is 
the financing and resourcing side but also the physical, 
whether it is the domestic violence shelters, the medical care, 
and the services that come with them.
    I just want to paint a picture of what I reckon with, with 
so many of my constituents. In the Yukon Kuskokwim region, the 
largest community there, the hub community, is Bethel. Bethel 
has 4,000-some people.
    They have a shelter there, a women's shelter, in Bethel. 
The Bethel region serves 56 different villages spread out over 
an area of 59,000 square miles. I have one women's shelter 
spread over 59,000 square miles. Emmonak to the north does have 
a very small facility.
    There are no roads. There is not a road in this region for 
these 56 villages. Quinhagak is 70 miles away. Quinhagak is an 
average village in the region that has between 700 and 800 
people. It is a $340 round trip ticket from Quinhagak to get to 
Bethel.
    If a woman is a victim of domestic violence needs to flee 
or get out, there is no other way. There is no shelter. Much of 
the resources that the shelter has do not go for a nice 
facility; it goes for a plane ticket to get that woman from 
Quinhagak to Bethel to get to safety.
    I recognize that we have so much work to do when it comes 
to victim assistance but I just wanted to make sure that on the 
record, we understand. It is not just Alaska. I know in South 
Dakota and Montana, we have big, wide open spaces. You all have 
more roads but it still is difficult to access these resources. 
Knowing these are issues we are going to be working on 
together, I appreciate that.
    Director Rice, I want to raise an issue I have been working 
on for a while. This is the problem with distribution of 
Justice funds to PL-280 States of which Alaska is one. In 2016, 
we were successful in getting $10 million in tribal court 
funding for PL-280 States for the first time. I have been 
fighting for this for years.
    In 2017, the proposal cut the funding. We restored it in 
the fiscal year 2017 omnibus. Once again, the budget proposal 
for 2018 proposes to cut the funding. We are going to work to 
restore that funding. It will stay in there.
    I want your commitment. This is just the right thing to do 
to expand the tribal court funding into the PL-280 States. For 
the well being of Alaska Natives and American Indians, we need 
to do this.
    I want your commitment, first of all, to work with me on 
distributing the fiscal year 2017 funds as quickly as possible 
and also your commitment to work with me as we move forward to 
ensure these funds continue to be made available.
    Mr. Rice. I commit to both, Senator. Thank you.
    Senator Murkowski. Thank you. We need it, as you know.
    I also want to bring up the issue of prevention. As 
important as all of this assistance is when we speak of the 
victims, I think we all want to be in that place where we have 
no more victims, where we do not need the shelters because our 
women and families are safe.
    How we deal with prevention is important. I know these 
bills do address certain aspects of it. We have a program in 
Alaska, the Towhee Program. It is a community-based approach to 
support child welfare, family stability, and strengthening 
tribal communities.
    I think it is a step in the right direction. We have seen 
some positive outcomes here but again, this is one of the 
initiatives that was decreased in the Administration's proposed 
budget. Again, I am working to address that.
    We are also focusing on some other areas, investing in 
substance abuse prevention, mental and behavioral health 
options and, of course, tribal courts. Again, focusing on 
prevention, I think is something I would like to make sure we 
are committed to.
    Quickly, do you, Mr. Rice, have prevention incorporated 
into the programs at BIA? Mr. Boyd, you mentioned in your 
comments the need for prevention on the front end. Can you 
speak to that real quickly?
    Mr. Rice. In terms of prevention, especially in Alaska, I 
think the Bureau of Indian Affairs region has a fairly small 
regional office in terms of actual direct services. We have all 
the compacts and funding agreements to all the tribes and 
villages. Those programs are fairly linear in terms of program 
content, output, and outcome.
    I think the area that would be helpful to work together on 
is looking at all of the other partners in Alaska and how we 
actually work together. As you said, the expensive round trip 
ticket anywhere up and down the Kuskokwim, those dollars could 
be spent better if we can leverage resources across agencies. 
That is where we get the greatest value. I think having the 
conversation around prevention is part of that.
    Senator Murkowski. Mr. Boyd, did you want to add anything 
to the discussion?
    Mr. Boyd. No, basically just to reiterate that with 
prevention, right now it is where it is and I cannot really 
further discuss what possible outcome we can add on to it.
    Senator Murkowski. Thank you all for your testimony.
    Thank you, Mr. Chairman and Mr. Vice Chairman.
    The Chairman. Just a couple questions to finish up and I 
will see if any of the other members have remaining questions 
as well.
    Mr. Shores, talk for a moment about under TLOA we have the 
requirement that DOJ, Interior and HHS develop a coordinated 
plan to address crime on the reservation. Talk about that and 
how you think it can be effective, including tracking data as 
Senator Heitkamp discussed with you, something we are all 
pushing for.
    Mr. Shores. Since I joined the Justice Department in 2003, 
these are issues we have been addressing. The general rule we 
have in the Northern District of Oklahoma is that a 
collaborative approach is a good approach.
    The more opportunity to offer services and be responsive to 
not just the needs of the investigation but, as I said earlier, 
the needs of the victims and the needs of the communities we 
serve is important.
    If you have a multidisciplinary team, that can be for a 
specific case or that can be through a task force-like approach 
so that you are addressing problems on a more holistic level. 
That includes getting out, not just when you are responding to 
a crime, but specifically includes prevention as we have 
discussed, getting out into the communities we serve whether it 
is talking with children or social service providers to give 
them some of the knowledge and tools they need to know when to 
engage Federal agencies that can provide and supplement what 
resources they have. I think that is key.
    With regard to data collection, depending on the type of 
crime, it certainly can be challenging. I have prosecuted a 
number of human trafficking crimes as a Federal prosecutor. By 
its very nature, victims do not come forward. It is challenging 
sometimes to track those numbers where we suspect or we know 
the problem is worse than we are able to calculate. I think 
taking a task force and collaborative approach is a good 
approach.
    The Chairman. Mr. Rice, the BIA is required to complete 
background checks for tribal law enforcement and corrections 
personnel. The timeline for that is 60 days. Why are you not 
able to meet that timeline? What needs to be done to address 
it?
    Mr. Rice. The timeline ends up being part of the movement 
of the information between the Department of the Interior and 
the Office of Personnel Management which is the agency 
responsible for actually carrying out those particular 
background investigations.
    We get our end of the bargain done. It goes over to OPM 
with thousands of government-wide background investigations 
underway and it takes longer than the 60 days to do it. I think 
our discussions have been that we could do it quicker within 
the Department of the Interior, actually using some of the HR 
processes to move those packages along.
    I think there is opportunity to improve that, but as it 
stands, in partnership with OPM, it takes longer than the 60 
days.
    The Chairman. Thank you.
    Chairman Udall.
    Senator Udall. Thank you, Chairman Hoeven.
    Chairman Flute, your tribe is one of the first five tribes 
to exercise the special domestic violence criminal jurisdiction 
restored to tribes by Congress in 2013. I want to commend you, 
Mr. Chairman, for your tribe's leadership in this area.
    Mr. Flute. Thank you.
    Senator Udall. Could you tell us a bit about your tribe's 
experience with implementing the 2013 special jurisdiction?
    Mr. Flute. Is this in regard to VAWA?
    Senator Udall. VAWA, yes, the special jurisdiction.
    Mr. Flute. We did the one gap. That was not having that 
tribal access program. That did fill that gap in being able to 
share that information.
    Senator Udall. Tell me a bit more about that?
    Mr. Flute. About the TAP?
    Senator Udall. Yes, the gap you are talking about.
    Mr. Flute. The gap was when we had people coming into our 
tribal Nation, whether they are being caught on the streets or 
an offender of domestic violence, being able to get access from 
NCIC to see what type of offenses they have had throughout the 
Nation.
    I do want to hit on that with VAWA we need to expand. We 
are able to get the calls and we are going to apprehend 
individuals, but when they are destructive and destroying 
property and other things like child abuse and neglect, we are 
not able to enforce tribal jurisdiction on those non-tribal 
members which VAWA is and does.
    My tribe had seven cases where four have pled guilty; two, 
I believe, are pending; and one absconded. We would like to see 
VAWA expanded to be able to enforce tribal jurisdiction over 
non-tribal members.
    Senator Udall. Mr. Chairman, has your justice system 
encountered any problems with domestic violence offenders 
attacking or assaulting officers during the exercise of this 
special jurisdiction?
    Mr. Flute. We have not heard of any physical violence 
towards those officers; verbal aggression, verbal comments, but 
nothing physical though.
    Senator Udall. To my understanding, that is a gap in terms 
of the special jurisdiction and the way it works. Ms. O'Leary, 
is that correct?
    Ms. O'Leary. Yes, I have heard that from other tribes. The 
tribes need jurisdiction across the board but as far as VAWA 
goes, all of the auxiliary crimes that happen, they absolutely 
have to have that because the only limited scope right now is 
that crime where he hits the partner who is a tribal member.
    There are all kinds of things that go around that too. If 
he damages a car, there is no jurisdiction over that. If he 
assaults the officer arresting him, there is no jurisdiction. 
If he assaults his children, which is over 50 to 60 percent of 
the cases, there is no jurisdiction over that.
    I do not enjoy the privilege of being one of those tribes 
that is starting to make this groundbreaking start to overturn 
Oliphant, but I get to work with several tribes, Sisseton and 
Fort Peck, who are doing that. Three Affiliated is in the 
process too.
    We are looking at all that kind of stuff. I don't know if I 
am getting too far off the subject. One of the other things we 
are going to need to overcome in the future is how to take care 
of the needs of non-offenders such as medical needs. There are 
a lot of things to overcome here but it is an exciting time.
    I worked in a shelter for many years. One of the things we 
so often saw was it is 2:00 a.m., a non-Indian has assaulted 
his partner, we have the county sheriff there, and the tribal 
officers. Nobody can arrest him. That was just a horrible 
place. She can come into the shelter. There is no 
accountability.
    I am very excited to have this happening in my lifetime. I 
see that it could work better.
    Senator Udall. Chairman Flute, we look to work with you and 
learn more about how that has worked. You were a pilot tribe 
under VAWA and the special prosecution.
    I also have a question, if it is okay, Mr. Chairman, to ask 
U.S. Attorney Shores. Another issue I am concerned with is the 
lack of coordination between BIA and DOJ when it comes to 
tribal correction facility construction.
    Chairman Flute, you testified about the negative effects of 
BIA decommissioning your jail without a replacement plan. In my 
home State, the Mescalero Apache are facing a similar issue. 
They have been without a juvenile detention center for more 
than a decade. I know I heard Senator Tester talk about tribal 
correction facility issues in Montana.
    U.S. Attorney Shores, the question for the Department of 
Justice is what is DOJ doing to address the substantial need 
for more detention facilities within tribal communities?
    Mr. Shores. Mr. Vice Chairman, I know one of the primary 
issues is resource-based. As we heard from Chairman Flute, the 
Sisseton-Wahpeton, for example, is having a real challenge 
right now with regard to their detention facility.
    When the Office of Justice Programs and other DOJ agencies 
look at how we can remedy this issue, I think what we often see 
is sometimes brick and mortar money may be available in one 
agency and operational money not available in another agency.
    I know there are internal discussions that can be had. As I 
have learned in my first year of marriage, I can tell you that 
the secret to any good relationship is good communication. I 
think certainly encouraging more communication between the BIA 
and the department on this issue and with this Committee would 
go a long way when you pair that with resources to be able to 
fix that issue.
    Senator Udall. Thank you.
    Mr. Rice, has BIA done an estimate of the extra costs paid 
by the Federal Government and tribes to contract bed space with 
counties and private prisons when BIA facilities are 
decommissioned?
    Mr. Rice. In day eight of stepping into this role, I do not 
have that information but I am happy follow up with you.
    Senator Udall. I hope you will follow up and give us an 
answer for the record. I am wondering also what you are doing 
to ensure tribal inmates housed in contracted facilities have 
access to education and culturally-relevant rehabilitation? You 
probably do not know that either based on the first question.
    Mr. Rice. Similar to the first answer, I would be happy to 
follow up.
    Senator Udall. For the both of you, this is a big issue for 
tribes. As I said, Chairman Flute, I hear this from my members. 
I am sure the chairman hears it from his. What happens when you 
get a decommissioning, then tribes end up paying a lot of money 
to send somebody way off. You have transportation costs and you 
have to pay the other facility. We need to realize when we are 
decommissioning that is the impact we are going to have.
    With that, you have been very generous, Mr. Chairman. With 
the time, I will yield back.
    The Chairman. Again, I want to thank all of our witnesses 
so much for being here and for your good work.
    The hearing record will be open for two weeks.
    With that, we are adjourned. Thank you.
    [Whereupon, at 4:20 p.m., the Committee was adjourned.]

                            A P P E N D I X

  Prepared Statement of Hon. Russell Begaye, President, Navajo Nation
    I would like to thank Chairman Hoeven, Vice-Chairman Udall, Members 
of the Committee, and staff for holding a hearing on three important 
bills concerning public safety Indian Country. Below are my comments 
regarding S. 1870, S. 1953, and S. 1942.
S. 1870 The Securing Urgent Resources Vital to Indian Victim 
        Empowerment (SURVIVE) Act
    The Victims of Crime Act was established in 1984, it set up the 
Office for Victims of Crime and created the Victims of Crime fund, 
which provides funding to the states for victim assistance and 
compensation programs that offer support and services to those affected 
by violent crimes. Unfortunately, tribes were left out of the act, even 
though the United States has had federal jurisdiction over major crimes 
in Indian Country since 1885.
    Indian Country has some of the highest rates of crime of violence, 
and the Navajo Nation is no exception that. Yet, only 0.5 percent of 
the Crime Victims Fund has been expended on Indian Country. The SURVIVE 
Act's 5 percent set aside for Indian Country is long overdue.
    The Navajo Nation's (the Nation) criminal justice system is one of 
the most extensive and well-developed systems in Indian Country, but 
the lack of adequate funding and staffing stymie the effective 
operation of this system.
    The Nation has 7 police districts and employs 239 commissioned law 
enforcement officers, 204 of whom are patrol officers. These officers 
patrol over 27,000 square miles of the Nation (about the size of West 
Virginia), a jurisdiction that extends into Arizona, New Mexico, and 
Utah. The 2010 U.S. Census estimated a population of 174,000 people on 
the Nation and showed a ratio of officers to residents of 12.5 to 
10,000. This is well below the national average of 19 officers to 
10,000 residents.
    Although, the Nation is vigorously recruiting to fill many of its 
vacant positions, our officers do their best with limited staff. Navajo 
patrol officers have the added challenge of patrolling vast geographic 
distances to travel when responding calls. Longer distances also 
provide a delay in response times, which decreases the rate of 
successful arrests, makes it more difficult to sufficiently investigate 
crime scenes and identify witnesses, and reduces the chance of a 
successful prosecution. Additionally, our officers do their best to 
keep victims apprised of their case.
    The SURVIVE Act would appease some of the patrol officers work by 
having the funds to hire victim advocates, provide victim service 
programs, and shelters for victims. Our Navajo people have normalized 
the violence that surrounds them when they should not have to. 
Therefore, I fully support this bill and the 5 percent set aside for 
funding. Thank you Senator Hoeven for introducing this bill and 
empowering the victims on the Navajo Nation.
S. 1953 TLOA Re-Authorization
    The Navajo Nation supports the re-authorization of the Tribal Law 
and Order Act. Although, the Nation has not implemented TLOA, I support 
its provisions with the intention of implementing them in the future.
    Law and order in Indian Country is much needed, especially on the 
Navajo Nation. As mentioned our Navajo Police Department is 
understaffed. We have lost two police officers in the line of duty in 
the past two years. The Nation is working hard to improve the state of 
law enforcement, and as we work towards implementation of TLOA we 
support the following provisions:

  <bullet>  Indian Law Enforcement Reform Act
  <bullet>  Indian Civil Rights Act of 1968
  <bullet>  Integration & Coordination of Programs
  <bullet>  Data Sharing
  <bullet>  Judicial Administration in Indian Country
  <bullet>  Detention Facilities
  <bullet>  Federal Notice
  <bullet>  Tribal Court Training
  <bullet>  Public Defender Tribal Liaisons
  <bullet>  Offenses in Indian Country: Trespass on Indian Land
  <bullet>  Substance Abuse Prevention Tribal Action Plans
  <bullet>  Office of Justice Services Spending Report
  <bullet>  Trafficking Victims Protection
  <bullet>  Reporting of Indian Victims of Trafficking
  <bullet>  Improving Justice for Indian Youth

    I thank you Senator Hoeven for reintroducing this bill and 
understanding the importance of law and order in Indian Country.

S. 1942 A Bill to Direct the Attorney General to Review Revise and 
        Develop Protocols on Missing and Murdered Indians a.k.a. 
        Savanna's Act
    The Navajo Nation supports this bill as it provides awareness and 
priority for cases involving missing and exploited Native women. I 
support the requirement for the Department of Justice and Department of 
Interior to coordinate efforts to establish protocols to investigate 
missing and murdered American Indians and Alaskan Natives. It is time 
that the issue of missing and murdered Native American women get the 
awareness it deserves.
Conclusion
    Thank you again Chairman Hoeven and Vice Chairman Udall for holding 
a legislative hearing on three important bills concerning public safety 
in Indian Country.
                                 ______
                                 
 Prepared Statement of the National Congress of American Indians (NCAI)
    NCAI is the oldest and largest national organization representing 
American Indian and Alaska Native tribal governments in the United 
States. We are steadfastly dedicated to protecting the rights of tribal 
governments to achieve self-determination and self-sufficiency, and to 
the safety and security of all persons who reside or visit within 
Indian Country.
    Ten years ago, the National Congress of American Indians passed a 
resolution at its Midyear conference in Anchorage, Alaska, and provided 
testimony to this Committee calling for Congress to redirect the law 
enforcement priorities of the Department of Justice on Indian 
reservations, and to empower tribal government law enforcement. This 
was followed by several years of hearings and legislative drafting in 
the Senate Committee on Indian Affairs. From that resolution, as well 
as a great deal of effort from many tribes and the leadership of this 
Committee, Congress enacted the Tribal Law and Order Act of 2010 (TLOA) 
and set the stage for expanded tribal jurisdiction under the Violence 
Against Women Act Reauthorization of 2013 (VAWA 2013). We recognize the 
Committee's ongoing commitment to these issues, and greatly appreciate 
your continuing efforts to build on those laws and improve public 
safety in tribal communities.
S. 1953, Tribal Law and Order Act Reauthorization
    We extend great appreciation to Senator Hoeven for his leadership 
in introducing the reauthorization of the TLOA. Since 2010, NCAI has 
been deeply involved in the implementation of this critically important 
law. The TLOA is a comprehensive law designed to improve numerous 
facets of the public safety system in Indian Country. However, even 
when we began working on the law in 2007, tribal leaders knew that it 
wouldn't resolve every issue. This is why we so greatly appreciate a 
reauthorization that continues to address the problems and concerns 
regarding public safety on tribal lands. The introduced legislation 
includes a number of important provisions, and serves as a strong 
foundation for continued work with tribal governments.
    All authorized funding under the TLOA expired in 2015 and it is 
important that Congress reauthorize this funding. Tribal justice 
systems also have more than six years of experience with implementing 
the law, and that implementation has led to proposals to continue to 
improve the law. In the following two sections we include comments on 
the introduced bill, as well as additional suggestions.
Section 101: Bureau of Indian Affairs Law Enforcement
    Under this section, if the Director of the BIA Office of Justice 
Services fails to submit two reports required by the original Act in 
2010, administrative funds would be withheld so long as the withholding 
does not adversely impact the capacity to provide law enforcement 
services in Indian Communities. The two reports are (1) annual reports 
to the appropriations committees on unmet tribal law enforcement needs, 
and (2) annual reports summarizing technical assistance and training 
provided to tribal law enforcement and corrections agencies that 
operate pursuant to self-determination contracts or self-governance 
compacts.
    NCAI strongly supports the effort for completion of these vital 
reports. In particular, the annual report on unmet law enforcement 
needs, which was submitted for the first time in 2016, is important to 
help quantify the extent of the need for increases in tribal public 
safety funding. (What does this report say? Can we quickly summarize?) 
We urge that the Committee continue communication with the Secretary of 
Interior so that these important annual reports continue in 2017 and 
into the future.
Section 102: Integration and Coordination of Programs
    We appreciate the proposal to require agency consultation with 
tribes regarding the integration of diverse funding for law 
enforcement, public safety, and substance abuse and mental health 
programs. We encourage the Committee, however, to move forward with its 
own consultation on legislation to accomplish this goal of funding 
integration and coordination. At the end of this testimony we attach a 
proposal for legislative language that is designed to accomplish this 
goal, and we encourage the Committee to consult directly with tribal 
governments about it.
    Currently, base funding for law enforcement is provided through the 
BIA and is entirely inadequate. Additional funding is provided through 
the Departments of Justice and Health and Human Services under a series 
of grant programs that have the typical problems of competitive grant 
programs. Within the DOJ these funds are further divided into dozens of 
competitive grants for specific purposes. Moreover funding for 
prevention, rehabilitation, and treatment programs, which are key 
components of any community's approach to reducing crime, are located 
at IHS, SAMHSA, and elsewhere within the DHHS. In order to obtain this 
funding, tribes often must compete against each other under the 
priorities and guidelines set by the administering agency. These 
proposals are then peer reviewed by individuals who may or may not have 
experience with Indian tribes and tribal justice systems. In the end, 
the tribes that have the financial and human resources to employ 
experienced grant writers end up receiving funding, while the under-
resourced tribes may be left without. Moreover, tribes cannot count on 
funding continuing beyond the current grant period, and Indian Country 
has countless stories of successful programs disappearing at the end of 
a two- or three-year grant cycle.
    This system requires a costly, sophisticated grant writing 
capability and a good bit of creativity in order to access the funds. 
Millions could easily be spent providing the technical assistance 
tribes need just to navigate this overly complex system. Under this ad 
hoc system, tribal law enforcement will receive vehicles, but no 
maintenance. They will get a detention facility, but no staff. They 
will receive radios, but no central dispatch. The system does not make 
sense. NCAI believes that tribal public safety funding should be 
increased overall and tribes should have the option of streamlining it 
into a single funding vehicle that would be negotiated on an annual 
basis and made more flexible to meet local needs. A proposal for 
statutory text that could be the basis for a discussion among tribal 
stakeholders and Congress is included as an appendix.
Section 103: Data Sharing with Indian Tribes
    We strongly support these provisions to improve criminal database 
information sharing with tribal governments. In addition, we urge that 
the legislation address a specific problem with access to background 
checks for non-law enforcement purposes.
    28 USC 534(d) authorizes release of criminal history information to 
tribal law enforcement agencies, but doesn't allow release of criminal 
information to other tribal agencies for important purposes, like child 
welfare background checks on foster parents, or teachers or childcare 
workers. The DOJ interprets the appropriations rider language from P.L. 
92-544 as a permanent statute that prevents sharing this information 
with tribal governments. In their view, criminal history for licensing 
of foster parents can only be shared `` if authorized by State statute 
and approved by the Attorney General, to officials of State and local 
governments for purposes of employment and licensing,'' We suggest to 
add a subsection to 534(d): ``If authorized by tribal law and approved 
by the Attorney General, the Attorney General shall also permit access 
to officials of tribal governments for non-criminal justice, non-law 
enforcement employment and licensing purposes.''
Section 104: Judicial Administration in Indian Country
    This section extends the Bureau of Prisons Tribal Prisoner Program 
for seven years. This pilot project has already been successful as a 
temporary program, and then abruptly shut down. We urge the Committee 
to go further, and permanently authorize the program.
    Permanently extending the TLOA Federal Bureau of Prisons Pilot 
Program is an essential part of overcoming the many challenges facing 
tribal criminal justice agencies. The Pilot Program, which expired on 
November 24, 2014, gave tribes the option to send highly violent 
offenders to federal corrections facilities. Many tribes do not have 
the resources or personnel to adequately and safely house these types 
of offenders. The federal system also offers greater access to 
treatment, rehabilitation, and reentry programs. The Bureau of Prisons 
also strongly supports extending the program.
    When the BOP Pilot Project was authorized under the TLOA, NCAI 
believed that the program would be used sparingly for only the most 
violent offenders. However, some in Congress were concerned about 
costs, and imposed the limitations of only four years and up to 100 
detainees. But in that short time the program had only begun to work. 
Tribal governments must develop new criminal codes and procedures and 
train staff to use the program, and generally take a steady approach to 
implementing change. Two tribes transferred a total of four prisoners 
to federal prisons, so it is clear that the floodgates are not a 
problem. At the same time, it is the small number of very violent 
offenders that create serious difficulties for tribal justice systems, 
because our detention programs are not set up or funded for long term 
detention of violent offenders.
    We urge that the program is made permanent and tribes continue to 
have the opportunity to exercise this option. Tribal governments are 
increasingly seeking to enhance their sentencing authority under the 
TLOA. Providing tribes this flexibility to house violent offenders will 
allow tribal governments to concentrate their resources on other 
pressing criminal justice and public safety needs. The Federal Bureau 
of Prisons has echoed all of these recommendations in its report to 
Congress required by the TLOA.
    NCAI also supports the provision to require the Director of BIA, 
Director of Bureau of Prisons, Director of IHS, and the Administrator 
of the Substance Abuse and Mental Health Services Administration to 
consult with Indian Tribes regarding juvenile justice and 
incarceration. For decades tribal leaders have encouraged a more 
proactive and humane approach to juvenile justice that is focused on 
prevention and mentoring and rehabilitation rather than 
criminalization. Tribal leaders strongly believe that we owe it to our 
youth and future generations to focus resources on our young people 
right at the beginning, rather than waiting for them to go astray and 
then begin the cycle of institutionalization and incarceration that has 
proven to be so ineffective.
Section 105: Federal Notice
    This section requires the Office of the United States Attorney's 
that convict any enrolled member of a federally recognized tribe to 
provide notice of that conviction to the appropriate tribe. NCAI 
supports this provision, but also far more strongly encourages that the 
Bureau of Prisons be required to provide notice when any tribal member 
is released from federal prison Prisoner reentry is the Achilles heel 
of the federal criminal justice system. All too often, Native inmates 
are released into urban environments that provide services but no 
family or social support, or into reservation environments that provide 
no services. The critical time period is the release from federal 
prison when monitoring and services are critically needed. This is the 
time when the community most needs to be aware, and services provided 
to released inmates.
Section 106: Detention Facilities
    Under these provisions, a tribe may request to use any available 
detention funding from a contract or compact for appropriate 
alternatives to detention. NCAI supports this provision but urges 
removal of the requirement that the tribe, Secretary, and Director of 
the Office Justice Services mutually agree. The requirement of 
agreement will add significant costs and delay and will undermine the 
intention. Tribal governments must be trusted to implement programs for 
alternatives to incarceration, just as tribal courts are trusted to 
make decisions regarding guilt or innocence.
Section 108: Amendments to the Indian Civil Rights Act
    The right to a jury trial would be amended to include only those 
crimes where there is a possibility of imprisonment of 180 days or 
more. This would match the federal and state constitutional 
requirements, and relieve tribal courts of the obligation to provide a 
jury trial for misdemeanors. Tribal courts suffer from a significant 
lack of resources. On some reservations, defendants have learned to act 
collectively and request a jury trial for every misdemeanor, and have 
succeeded in forcing the dismissal of many cases because the tribal 
court cannot afford the time or money for a jury trial for every petty 
crime. This provision would bring the Indian Civil Rights Act jury 
requirements into line with the federal constitutional rule.
Section 109: Special Assistant Public Defender Liaisons
    NCAI supports the purpose of this section to provide greater 
coordination on indigent defense in Indian Country. However, the truly 
great need is for funding for indigent defense services. As background, 
the Indian Civil Rights Act of 1968 requires that defendants in tribal 
courts have the right to counsel, but at their own expense. Our 
testimony suggests a mechanism for Congress to finally provide funding 
for indigent defense in Indian Country, which would come at no 
additional costs to the federal budget.
    First, tribes have strongly supported the provision of counsel to 
indigent defendants in tribal courts for many years, but have generally 
lacked adequate funding. Some tribes with greater resources provide 
indigent defense from their own funds, and have done so for many years. 
Tribes sought the provision in the Indian Tribal Justice Act that seeks 
to enhance tribal courts' capacity to provide indigent defense counsel. 
25 U.S.C.  3613(b). Tribes have also repeatedly urged Congress to 
appropriate the funds necessary to support indigent defense throughout 
Indian Country, as one component of support for tribal justice systems. 
See, NCAI Resolution #ABQ-10-116, and NCAI Resolution SD-02-015.
    Second, under the TLOA and VAWA 2013, tribes can exercise greater 
criminal authority and better protect their communities with extended 
sentencing authority and jurisdiction over non-Indian domestic violence 
offenders, but only if they provide indigent defense. Thus, the lack of 
resources for indigent defense is a barrier to greater public safety on 
tribal lands.
    We suggest the authorization of a set-aside of 3 percent of 
Defender Services program in the Financial Services and General 
Government (FSGG) Appropriations bill. This account funds the 
operations of the federal public defender and community defender 
organizations, and compensation, reimbursements, and expenses of 
private practice panel attorneys appointed by federal courts to serve 
as defense counsel to indigent individuals.
Section 110: Criminal Trespass on Indian Land
    Under Section 1165 of Title 18, the misdemeanor offense of hunting, 
trapping, or fishing would be expanded to include felony offenses for 
violations of a tribal exclusion order. NCAI greatly appreciates this 
section as it would address a great source of harm on tribal lands. 
Indian reservations are experiencing increasing problems with serious 
criminal trespass and a lack of deterrence. Tribes are unable to 
address problems with sexual assault and stalking offenders who 
continue to return to the reservation to harass victims. Drug dealers 
are a perennial problem. Violating a tribal protection order or 
exclusionary order should be subject to more serious federal penalties. 
Tribes also have difficulties with former lease tenants who overstay 
agricultural and residential leases for many years and refuse to leave 
or pay rent. Tribes are also experiencing problems with timber theft, 
repeated poaching, illegal mining and illegal marijuana operations, 
serious crimes that are infrequently enforced because there is no 
relevant criminal statute. There are also repeat offenders who dump 
hazardous waste and serious property crimes and are warned again and 
again but refuse to respect tribal property rights.
    Because of this, we would urge two amendments to this section to 
set an appropriate scale of criminal penalties for increasingly severe 
criminal trespass crimes. First, we suggest that an offense should be 
added for persons who commit serious property crimes on tribal lands 
with fines and penalties of up to $15,000 and three years imprisonment 
or both. We suggest consultation with the U.S. Attorneys to determine 
an appropriate range of penalties that will create deterrence for those 
who cause serious threats to persons or damage to property.
    Secondly, we urge that the provision should include violation of 
tribal protection orders as well as exclusionary orders. Protection 
orders are often issued against persons who commit crimes of domestic 
violence, sexual assault or stalking. There is an existing crime at 18 
U.S. Code  2262--Interstate violation of protection order. However, 
this crime is rarely enforced because it requires proof beyond a 
reasonable doubt of intent: that the person traveled into Indian 
country for the specific purpose of violating a protection order. This 
is very difficult to prove, so even if a perpetrator traveled into 
Indian country and beat up his former girlfriend in violation of a 
protection order, it is difficult to show that he had this specific 
intent when he set out on his journey. Instead, we propose that the 
provisions for exclusionary orders would also include protection 
orders. We also suggest consultation with the U.S. Attorneys to 
determine an appropriate range of penalties that will create 
deterrence. The following is a proposal for statutory text:

    18 U.S. Code  1165--Hunting, trapping, or fishing on Indian land 
(to be retitled ``Criminal Trespass on Indian Lands,'' the first 
section retained, and renumbered subsection (a) with additional 
subsections for escalating penalties for severe offenses).

        b)  Repeated trespassing offenses and persons who commit crimes 
        against persons or property on tribal lands shall be subject to 
        fines and penalties of up to $15,000 and three years 
        imprisonment or both.
        c) VIOLATION OF TRIBAL PROTECTION ORDER OR TRIBAL EXCLUSION 
        ORDER--

           (1) IN GENERAL.--It shall be unlawful for any person to 
        knowingly violate the terms of a tribal protection order or 
        exclusion order that was issued by a court or other tribunal of 
        an Indian tribe in accordance with the requirements of 
        paragraph (4).
           (2) PENALTY.--Any person who violates paragraph (1) shall be 
        guilty of a crime and fined up to $10,000, imprisoned for up to 
        5 years, or both.
           (3) DEFINED TERMS.--For the purposes of this subsection, the 
        term--
           (A) ``protection order'' includes any order which
             (i) satisfies the definitions set forth in 18 USC 2266(5);
             (ii) satisfies the jurisdiction and notice provisions set 
        forth in 18 USC 2265(b); and
           (B)``exclusion order'' means an order issued in a proceeding 
        by a court or other tribunal of an Indian tribe which 
        temporarily or permanently excludes a person from tribal land 
        for violation of the criminal laws of the tribal government.
           (4) REQUIREMENTS FOR ORDERS.--
           (A) PROTECTION ORDERS --A violation of a protection order 
        shall constitute an offense under paragraph (1) if the order 
        includes a statement that violation of the order will result in 
        criminal prosecution under Federal law and the imposition of a 
        fine, imprisonment, or both; and
           (B) EXCLUSION ORDERS --A violation of an exclusion order 
        shall constitute an offense under paragraph (1) if the 
        respondent was served with or had actual notice of--

             (i) a complaint setting forth a plain statement of facts 
        which, if true, would provide the basis for the issuance of an 
        exclusion order against the respondent;
             (ii) the date, time and place for a hearing on the 
        complaint; and
             (iii) a statement informing the respondent that if he or 
        she fails to appear at the hearing a order may issue, the 
        violation of which may result in criminal prosecution under 
        Federal law and the imposition of a fine, imprisonment, or 
        both;
             (iv) a hearing on the complaint was held on the record at 
        which the respondent was provided an opportunity to be heard 
        and present testimony of witnesses and other evidence as to why 
        the order should not issue;
             (v) the order temporarily or permanently excludes the 
        respondent from Indian land under the jurisdiction of that 
        Indian tribe;
             (viii) the order includes a statement that a violation of 
        the order may result in criminal prosecution under Federal law 
        and the imposition of a fine, imprisonment, or both; and
             (ix) the respondent was served with or had actual notice 
        of the order.

           (5) NO LIMITATION ON TRIBAL AUTHORITY; EFFECT OF 
        SUBSECTION.--Nothing in this subsection limits or otherwise 
        affects the application of the Violence Against Women Act, (18 
        U.S.C. 2261-2266).
Section 201: Federal Jurisdiction Over Indian Juveniles
    The words ``Indian Tribe'' and ``tribal'' are added to Section 5032 
of Title 18 of the U.S. Code, so that federal offenses could be 
referred to tribal court. NCAI supports this provision, but also 
recognizes that there are a relatively small number of serious felonies 
committed by youth that could result in referral for federal 
prosecution.
Section 203: Assistance for Indian Tribes Relating to Juvenile Crime
    NCAI continues to urge Congress to improve justice for Indian youth 
under the Juvenile Justice and Delinquency Prevention Act (JJDPA) by 
requiring notice to tribes when a member youth enters a state or local 
justice system, requiring tribal participation on advisory groups, 
coordinating services for tribal youth, and including tribal 
traditional or cultural programs that reduce recidivism as authorized 
activities for federal funding.
    In particular, NCAI strongly supports notice to tribes when a youth 
enters state or local justice system. In many cases, Indian tribes have 
developed programs and services for Native youth that are more 
culturally appropriate, and will be welcomed by county court judges as 
alternatives to incarceration. However, these programs and remedies 
cannot work unless the tribal government has notice and is able to 
communicate with the local court system.
    Although NCAI remains committed to accomplishing the vital reforms 
to JJDPA set forth in the Tribal Law and Order Reauthorization and 
Amendments Act of 2016 (S. 2920 during the 114th Congress), NCAI is 
supportive of the technical assistance, consultation, development of 
processes, and other provisions included in Section 203 of S. 1953 that 
are intended eventually to produce substantive reform. Time is of the 
essence for tribal youth in federal, state, local, and tribal justice 
systems. Congress must make progress to ensure better outcomes for 
tribal youth.
Additional Provisions
    Although the above amendments and additions to the Reauthorization 
of TLOA set a strong foundation towards improving public safety in 
Indian Country, we would still like to request consideration that the 
following provisions be added to the reauthorization.
    1)  Annual declination reporting. The TLOA was passed by Congress 
against a backdrop of criticism that far too many Indian Country crimes 
were never adequately investigated, and prosecution was too frequently 
declined. For many years, tribal leaders had raised the concern that 
the U.S. Attorneys did not consider Indian Country crimes a priority 
and declined to prosecute an extraordinary percentage of cases. A 
Denver Post investigative reporting series from November of 2007 raised 
these concerns:

  <bullet>  Between 1997 and 2006, federal prosecutors rejected nearly 
        two-thirds of the reservation cases brought to them by FBI and 
        Bureau of Indian Affairs investigators, more than twice the 
        rejection rate for all federally prosecuted crime.

  <bullet>  Investigative resources spread so thin that federal agents 
        are forced to focus only on the highest-priority felonies while 
        letting the investigation of some serious crime languish for 
        years. Long delays in investigations without arrest leave 
        sexual assault victims vulnerable and suspects free to commit 
        other crimes.

  <bullet>  Many low-priority felonies never make it to federal 
        prosecutors in the first place. Of the nearly 5,900 aggravated 
        assaults reported on reservations in fiscal year 2006, only 558 
        were referred to federal prosecutors, who declined to prosecute 
        320 of them. Of more than 1,000 arson complaints reported last 
        year on Indian reservations, 24 were referred to U.S. 
        Attorneys, who declined to prosecute 18 of them.

  <bullet>  From top to bottom, the Department of Justice's commitment 
        to crime in Indian Country was questionable. Former United 
        States Attorney for the Western District of Michigan Margaret 
        Chiara was quoted saying, ``I've had (assistant U.S. attorneys) 
        look right at me and say, 'I did not sign up for this'. . .They 
        want to do big drug cases, white-collar crime and conspiracy.'' 
        Comments from former United States Attorney for Arizona, Paul 
        Charlton indicate that this attitude came from the top. 
        Charlton has related a story where a high-level Department of 
        Justice official asked him why he was prosecuting a double-
        murder in Indian Country in the first place. \1\
---------------------------------------------------------------------------
    \1\ Mike Riley, Principles and Politics Collide: Some U.S. 
Attorneys who emphasize fighting crime on Indian lands have seen 
themselves fall out of favor in D.C., DENVER POST, Nov. 14, 2007.

    This dire and long-term institutional dysfunction required a 
response. Therefore a key feature of the TLOA requires both the FBI and 
the U.S. Attorneys to submit annual reports to Congress compiling 
information regarding decisions not to refer investigated cases, and 
all declinations to prosecute in Indian Country, including the types of 
crimes alleged and the reasons for declination. The law also requires 
coordination with tribal law enforcement if a federal law enforcement 
official terminates an investigation or declines to prosecute an 
alleged violation of Federal criminal law in Indian country. The annual 
reports to Congress are to be organized in the aggregate; and for the 
FBI, by Field Division; and for U.S. Attorneys, by judicial district; 
and including any relevant explanatory statements.
    In general, we believe that the annual reports have led to an 
increased awareness of responding to Indian Country crime within the 
DOJ. However, there are a number of aspects of the reporting system 
that should be improved. The first is straightforward. The TLOA 
requires annual declination reporting on a calendar year, but the 
existing reporting system at the DOJ is on a fiscal year basis. Our 
understanding is that this creates unnecessary difficulty. We recommend 
consultation with the U.S. Attorneys and the EOUSA and resolve this 
difference to improve reporting.
    Secondly, and more importantly, we recommend additional 
consultation with tribal leaders and prosecutors regarding specific 
improvements to the declination reporting system. For example, tribal 
prosecutors routinely request more case-specific and tribe-specific 
sharing of information between federal and tribal prosecutors so that 
they can use the data to allocate resources and prosecution efforts. In 
addition, the annual reports showed prosecution being declined in 50 to 
60 percent of reported crimes due to ``insufficient evidence.'' 
Although Congress has required the ``reasons'' for a declination, 
``insufficient evidence'' is so broad as to provide little analytic 
value. Tribal leaders frequently describe cases with little or no 
investigation, or that occur many months after the crime. It is 
impossible to tell from the declination reports whether more robust 
investigations would have resulted in additional prosecutions.
    Another example is that many referred crimes are declined because 
they ``are not a federal crime.'' It is impossible to tell from the 
declination reports how often this designation is used for crimes such 
as theft, destruction of property; domestic violence and low-level gang 
activity that commonly involves both Indian and non-Indian defendants. 
We have also heard reports that many of these crimes are never compiled 
into the reports. In fact, these are federal crimes in Indian country 
under the Assimilative Crimes Act, 18 U.S.C.  13, which makes state 
laws applicable to conduct occurring in federal territory. Despite 
this, the ``no federal offense evident'' category is used in a 
discretionary and informal manner. However, the absence of tribal 
jurisdiction to deal effectively with non-Indians in these cases 
creates a perception that the likelihood of being caught and punished 
is low, and encourages a disregard for tribal law enforcement.
    Third, we urge greater engagement with the Federal Bureau of 
Investigations on its role in investigating Indian Country crimes. On 
May 30, 2013 the first report of statistics gathered under the Act was 
released by the DOJ. It covered 2011 and 2012 and showed a 54 percent 
increase in prosecutions in 2012 as compared to 2008. However 
substantial problems remained with prosecution being declined in 60 
percent of reported crimes due to ``insufficient evidence,'' which 
tribal leaders attribute, at least in substantial part, to inadequate 
and slow investigations.
    Prior to the 1980's, the Bureau of Indian Affairs law enforcement 
had a significant budget for investigations, and they had their own 
investigators. In the late 1980's responsibility for investigations in 
Indian country was transferred to the FBI, as well as the financial 
appropriations for that responsibility. Approximately 90 million was 
transferred out of the Interior appropriations and into the FBI 
appropriations. At that time promises were made that the FBI would do 
far more professional work with investigations and it would result in 
greater public safety on Indian reservations.
    However, over time the FBI leadership has lost sight of this 
commitment, diminishing its Indian country responsibilities and 
staffing, while keeping all the funding. In 1993, the FBI entered a 
Memorandum of Understanding with the BIA, stating that investigations 
were a ``shared'' responsibility, and that ``determining which law 
enforcement agency, federal or tribal, has primary responsibility for 
investigation of a particular crime may depend on the nature of the 
crime committed and any applicable local guidelines, which vary across 
jurisdictions.'' A significant amount of resources were reprogrammed 
after 9/11, and smaller numbers of FBI agents have trickled away from 
Indian country on a continuous basis in almost every year. In May of 
2008, FBI Director Mueller testified at a hearing of the House 
Judiciary Committee. In response to a question regarding the FBI's role 
in and commitment to fighting crime in Indian Country, he stated his 
hope was that other agencies would grow to fill that need and that the 
FBI would no longer have to provide services in Indian country.
    More recently, in the FY2011 budget, 20 million was transferred 
from the BIA law enforcement budget to the FBI to improve resources for 
investigations. Meanwhile the declination data shows most federal 
declinations to prosecute are from insufficient evidence. While FBI 
agents are in short supply in Indian Country, the funds reprogrammed 
out of the BIA remain steadily in the FBI budget.
    2)  Access to Firearms for Tribal Police--NCAI Resolution ABQ-10-
029--NCAI supports legislation to amend the National Firearms Act of 
1934 and the Gun Control Act of 1968 so that Tribal Police Departments 
are recognized as governmental entities similar to agencies of the 
United States government, or of a state government, or a political 
subdivision thereof without the requirement of special law enforcement 
commissions so that Tribal Police Departments are exempt from payment 
of the transfer tax for NFA firearms, are eligible to receive firearms 
interstate, and can possess a machine gun manufactured after May 18, 
1986.
    3)  Alaska Native Villages--The legislation in its current form 
does not address the unique law enforcement issues in Alaska Native 
communities. Alaskan tribal lands are not considered ``Indian country'' 
after the Supreme Court's decision in Alaska v. Native Village of 
Venetie. Tribal communities in Alaska experience high rates of domestic 
violence and sexual assault and significant problems with substance 
abuse. Most of the Alaska Native communities are only accessible by 
plane or boat, and are completely dependent on state law enforcement. 
The Village Public Safety Officer program has had its budget slashed by 
the state, and many tribal communities in Alaska are terribly 
underserved by state police and other services. We know that the 
Committee is aware of these problems and would urge the Committee to 
reach out to Alaska tribal leaders to develop ways to improve law 
enforcement in Alaska. Our primary recommendations are that the Federal 
Government provide direct funding for rural law enforcement in Alaska, 
to strengthen victims services, to support the land to trust process in 
Alaska, to strengthen tribal courts, and that tribal communities in 
Alaska be given greater control over alcohol and substance abuse 
policies.
    4)  Eliminate Requirement of ``Indian'' Status for Purpose of Major 
Crimes Act--In cases such as U.S. v. Zepeda, defendants have repeatedly 
challenged their status as an ``Indian'' under the Major Crimes Act. 
However, given that 1152 covers non-Indian crimes, and 1153 covers 
Indian crimes, the provisions could be amended in a manner so that 
Indian status would be irrelevant for most crimes. Major crimes on 
tribal land are subject to essentially identical federal criminal 
prohibitions no matter the status of the defendant. The endless 
litigation over these common law definitions of Indian also pose a 
continuing threat to the political status of tribal citizens and 
threaten precedent such as Morton v. Mancari and U.S. v. Antelope. The 
following is an initial proposal for replacement language for 1153 that 
would eliminate the requirement of Indian status.

         18 U.S. Code  1153--Major offenses committed within Indian 
        country
         (a) Any person who commits against the person or property of 
        another person any of the following offenses, namely, murder, 
        manslaughter, kidnapping, maiming, a felony under chapter 109A, 
        incest, a felony assault under section 113, an assault against 
        an individual who has not attained the age of 16 years, felony 
        child abuse or neglect, arson, burglary, robbery, and a felony 
        under section 661 of this title within the Indian country, 
        shall be subject to federal law and penalties within the 
        jurisdiction of the United States.
         (b) Any offense referred to in subsection (a) of this section 
        that is not defined and punished by Federal law in force within 
        the exclusive jurisdiction of the United States shall be 
        defined and punished in accordance with the laws of the State 
        in which such offense was committed as are in force at the time 
        of such offense.
Conclusion
    NCAI greatly appreciates the work of the Senators and the Committee 
on this important legislation. This is the stage in the process where 
we must listen to tribal leaders and other public safety professionals 
and take advantage of the insights they can provide. In particular, we 
have found that the best information often comes from people who work 
in the criminal justice system--tribal police officers, tribal 
prosecutors, tribal judges and the like. NCAI encourages the Committee 
to continue reaching out for their views on how the legislation can be 
strengthened. We urge continuing dialogue with tribal leaders on the 
proposals in this testimony, and those received from all tribal 
governments.

S. 1870, the SURVIVE Act
    NCAI has long advocated for amendments to the Victims of Crime Act 
(VOCA), like those included in S. 1870, that would remedy the 
unconscionable exclusion of tribal governments from the Crime Victims 
Fund. NCAI strongly supports passage of S. 1870 and applauds the 
Committee for prioritizing this issue.
    American Indians and Alaska Natives experience the highest crime 
victimization rates in the country. Complex jurisdictional issues, 
along with the cultural diversity of tribes and the basic reality of 
geography, pose significant challenges for crime victims in Indian 
Country. Tribal governments, like other governments, are responsible 
for meeting the needs of victims in their communities for mental health 
counseling, appropriate medical care, support during criminal justice 
proceedings, and emergency financial and housing assistance. 
Unfortunately, tribal governments often have few or no resources 
available to provide services to victims.
    Unlike state and territorial governments, Indian tribal governments 
do not receive an annual allocation from the Crime Victims Fund to help 
crime victims in their communities. As a result, crime victims on 
tribal lands still struggle to have even their most basic needs 
addressed. The BIA describes the situation this way:

         Native American victim assistance programs currently resemble 
        the mainstream victim assistance programs of the 1970's: little 
        money, few staff, no resources and a huge number of victims. 
        Due to a lack of victim service programs in Indian Country, 
        there often is little or no response to family members of 
        homicide victims, sexual assault victims, child abuse victims, 
        and others. \2\
---------------------------------------------------------------------------
    \2\ http://www.bia.gov/WhoWeAre/BIA/OJS/VictimServices/index.htm

    The Office for Victims of Crime at the Department of Justice has 
also recognized the disproportionate, urgent need for increasing victim 
services in tribal communities. Its Vision 21 report singled out tribal 
communities and called for increasing resources in order to ``ensure 
that victims in Indian Country are no longer a footnote to this 
country's response to crime victims.'' \3\ The President's budget 
request for FY 2018 includes a 5 percent allocation for tribal 
governments from overall outlays from the Crime Victims Fund.
---------------------------------------------------------------------------
    \3\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014).
---------------------------------------------------------------------------
Need for Victims Services
    American Indians and Alaska Natives experience the full range of 
criminal victimization that occurs nationally from drunk driving, to 
child sex abuse, to identity theft. \4\ Compared with the general 
population, however, Native people are particularly at risk for violent 
victimization, including homicide, assault, child abuse, sex 
trafficking, and drunk driving. Tribal members are also more likely to 
be poly-victimized and suffer the effects of historical and 
intergenerational trauma. While there are gaps in our knowledge of the 
incidence and prevalence of criminal victimization of Native Americans, 
we know that we represent the most victimized population in the nation. 
\5\ The U.S. Department of Justice (DOJ) has reported that the crime 
rates experienced by American Indians and Alaska Natives are 2.5 times 
higher than that of the general U.S. population. \6\ The Bureau of 
Justice Statistics has estimated that 1 out of 10 American Indians aged 
12 and older become victims of violent crime annually. \7\
---------------------------------------------------------------------------
    \4\ Generally, available data on fraud victimizations do not 
disaggregate data for American Indian and Alaska Native populations. 
Available data on identity theft, however, suggests that American 
Indians and Alaska Natives experience identity theft at rates similar 
to other groups. See, BJS, ``Identity Theft Reported by Households: 
2005-2010,'' (2011), available at http://www.bjs.gov/content/pub/pdf/
itrh0510.pdf.
    \5\ Vision 21.
    \6\ Neelum Arya and Addie Rolnick, A Tangled Web of Justice: 
American Indian and Alaska Native Youth in Federal, State, and Tribal 
Justice Systems n6 (5 Campaign for Youth Justice Policy Brief 2008).
    \7\ 2004 report, American Indians and Crime, A BJS Statistical 
Profile, 1992-2002.
---------------------------------------------------------------------------
    Domestic violence and sexual assault are particularly prevalent. 
Approximately 56 percent of Native women are will experience sexual 
violence within their lifetime, with 1 in 7 experiencing it in the past 
year. \8\ When Native women are raped, they are more likely to 
experience other physical violence during the attack, their attacker is 
more likely to have a weapon, and they are more likely to have injuries 
requiring medical attention. \9\ Victims of sexual assault need access 
to trained emergency responders as well as ongoing, long-term trauma 
counseling. They may also need assistance with legal and financial 
issues that result from their victimization. Because jurisdiction for 
the assault may be shared between tribal, state, and federal actors, 
the victim will also need assistance navigating a particularly 
complicated, and perhaps geographically-distant, justice system. 
Domestic violence victims have a similar experience. Nearly 61 percent 
of Native women are assaulted during their lifetime. A recent NIJ study 
found that 1 in 12 Native women report experiencing physical violence 
perpetrated by their intimate partner in the past year. \10\ On some 
reservations, the murder rate of Native women is 10 times the national 
average. \11\ Victims of domestic violence on tribal lands need the 
same safety, legal, financial, health, and counseling services as other 
DV victims. They may have a particularly difficult time accessing safe 
shelter in their communities. They also may need assistance determining 
the appropriate jurisdiction to issue a protection order and how to 
ensure that the protection order is recognized by other jurisdictions.
---------------------------------------------------------------------------
    \8\ The National Intimate Partner and Sexual Violence Survey 
(NISVS): 2010 summary report. Atlanta, GA: National Center for Injury 
Prevention and Control, Centers for Disease Control and Prevention 
(2011).
    \9\ R. Bachman, et al, ``Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known,'' 
(2008), p. 36, available at https://www.ncjrs.gov/pdffiles1/nij/grants/
223691.pdf.
    \10\ A. Rosay, ``VIOLENCE AGAINST AMERICAN INDIAN AND ALASKA NATIVE 
WOMEN AND MEN,'' (2016) available at https://www.ncjrs.gov/pdffiles1/
nij/249822.pdf
    \11\ R. Bachman, et al, ``Violence Against American Indian and 
Alaska Native Women and the Criminal Justice Response: What is Known,'' 
(2008), available at https://www.ncjrs.gov/pdffiles1/nij/grants/
223691.pdf.
---------------------------------------------------------------------------
    Native children also experience exceptionally high victimization 
rates. AI/AN children are 50 percent more likely to experience child 
abuse and sexual abuse than white children. \12\ Rates of child 
maltreatment in certain states are even more alarming. According to 
data from the Department of Health & Human Services, Native children in 
Alaska experience maltreatment at a rate more than six and a half times 
the rate for white children. \13\ In North Dakota, the rate of 
maltreatment for Native children is more than three times the rate for 
white children. Native children also experience extremely high rates of 
secondary victimization and exposure to violence. In 2013, Attorney 
General Holder appointed an Advisory Committee on American Indian and 
Alaska Native Children Exposed to Violence that held field hearings 
across the nation. In their final report the Committee concluded that 
service providers and policy makers should assume that all Native 
children have been exposed to violence and the immediate and long term 
effects of this exposure to violence includes increased rates of 
altered neurological development, poor physical and mental health, poor 
school performance, substance abuse, and overrepresentation in the 
juvenile justice system. This chronic exposure to violence often leads 
to toxic stress reactions and severe trauma; which is compounded by 
historical trauma. \14\
---------------------------------------------------------------------------
    \12\ Children's Bureau, U.S. Department of Health and Human 
Services, Child Maltreatment 2011, 28 (2012).
    \13\ http://www.acf.hhs.gov/sites/default/files/cb/cm2012.pdf, pg. 
37.
    \14\ Attorney General's Advisory Committee on American Indian/
Alaska Native Children Exposed to Violence: Ending Violence so Children 
Can Thrive (2014), pg. 6.
---------------------------------------------------------------------------
    Children who experience abuse and neglect are at higher risk for 
depression, suicidal thoughts, and suicide attempts. Sadly, Indian 
youth have the highest rate of suicide among all ethnic groups in the 
U.S., and suicide is the second-leading cause of death (after 
accidental injury) for Native youth aged 15-24. \15\ Due to exposure to 
violence, Native children experience post-traumatic stress disorder at 
a rate of 22 percent--the same levels as Iraq and Afghanistan war 
veterans and triple the rate of the rest of the population. \16\ There 
is a significant need for trauma-informed mental health counseling for 
Native children.
---------------------------------------------------------------------------
    \15\ SAMHSA, National Survey on Drug Use and Health, 2003.
    \16\ AG Advisory Committee, supra, note 12, at 38.
---------------------------------------------------------------------------
    American Indians and Alaska Natives also have a relatively high 
prevalence of alcohol-impaired driving and the highest alcohol-related 
motor vehicle mortality rates among racial/ethnic populations. Among 
fatal crashes involving American Indians and Alaska Natives in 2012, an 
estimated 42 percent were alcohol-related. Nationally, during this same 
time period, 31 percent of total crashes were alcohol-related. \17\
---------------------------------------------------------------------------
    \17\ See, CDC, ``Tribal Road Safety: Get the Facts,'' available at 
http://www.cdc.gov/motorvehiclesafety/native/factsheet.html.
---------------------------------------------------------------------------
    Compounding these high rates of multiple exposures to violence is 
historical trauma and the ongoing effects of decades of violent and 
abusive federal policies. \18\ Many Native people today suffer from the 
lasting effects of generations of forced removal, relocation, and 
forced assimilation at federally-run or sanctioned boarding schools 
where horrific physical and sexual abuse of Native children was wide 
spread. Historical trauma severely impacts an individual's psyche, 
spiritual/emotional core, and well-being. \19\ Understanding historical 
trauma and the role the federal government played in perpetrating 
violence again Native people for generations helps inform why 
statistics relating to American Indian and Alaska Native well-being are 
so dismal, and how services to crime victims must provide healing for 
both the immediate victimization and also the intergenerational trauma 
experienced by the survivor. The victimization of entire communities 
over long periods of time is difficult to address in the contemporary 
justice and victim services systems.
---------------------------------------------------------------------------
    \18\ BigFoot, Dolores Subia, et al., ``Trauma Exposure in American 
Indian/Alaska Native Children,'' Indian Country Child Trauma Center 1-4 
(2008).
    \19\ Written Testimony of Deborah Painte, Hearing of the Task Force 
on AI/AN Children Exposed to Violence, Bismarck, ND, December 9, 2013 
at 2.
---------------------------------------------------------------------------
Jurisdictional Complexities
    The complexities of criminal jurisdiction in tribal communities can 
further compound the challenges of providing services to victims. A 
victim's experience with the criminal justice system will vary 
considerably depending on whether the crime occurs on or off tribal 
lands, and whether the particular crime falls under the purview of 
federal, state, or tribal authorities. Which jurisdiction has the 
authority to investigate or prosecute the case may determine whether 
the victim reports the crime in the first instance and what type of 
support the victim needs to navigate the criminal justice system. A 
crime committed in Indian Country can be investigated by tribal or 
Bureau of Indian Affairs (BIA) law enforcement; state law enforcement, 
such as a country sheriff or city police, or state troopers; and/or the 
Federal Bureau of Investigation (FBI). Once a case has been 
investigated, it may be subject to prosecution in federal, state and/or 
tribal jurisdiction. A number of factors determine who has jurisdiction 
to investigate and prosecute a case including: where the crime took 
place; whether the victim and/or the perpetrator is Indian or non-
Indian; the type of crime; and laws specifically granting jurisdiction 
to particular states.
    The sobering reality in many tribal communities presents 
substantial challenges for victim services programs. Like all crime 
victims, AI/AN victims need access to comprehensive services that meet 
their medical, mental health, financial, legal, spiritual and other 
needs in a culturally-appropriate manner. In addition, many Native 
victims seek the assistance of traditional healers and participate in 
traditional cultural practices. \20\ They also are more likely to 
participate in restorative justice and peacemaking practices that hold 
victims accountable in a victim-centered way. There are 372,000 
indigenous language speakers in the U.S., and practitioners report that 
crime victims are generally more comfortable discussing their 
victimization in their Native language. \21\ Whether a victim lives 
within the tribal community or outside, they need access to culturally-
appropriate services and service providers who understand the unique 
historic and legal situation of tribes and tribal members.
---------------------------------------------------------------------------
    \20\ Office of Justice Programs, U.S. Department of Justice, Vision 
21: Transforming Victim Services Final Report, (Washington, DC: OVC, 
2014), pg. 19.
    \21\ U.S. Census Bureau, Native North American Languages Spoken at 
Home in the United States and Puerto Rico: 2006-2010. (December 2011).
---------------------------------------------------------------------------
    While there is tremendous diversity among all tribes, it is worth 
noting that many of the 229 tribes in Alaska experience extreme 
conditions that differ significantly from tribes outside Alaska. Many 
of the Alaska Native villages are located in remote areas that are 
often inaccessible by road and have no local law enforcement. Victims 
live in small, close-knit communities where access to basic criminal 
justice services is virtually non-existent and health care is often 
provided remotely through telemedicine technology. Providing 
comprehensive services to victims in these circumstances presents 
unique challenges. In many of these communities community members 
provide services in informal ways. Domestic violence victims, for 
example, may be offered shelter in a home that is a known ``safe 
house'' in the village.
    Despite having the highest crime victimization rates in the nation, 
the historic lack of funding for tribal victims services programs, 
discussed below, means that the infrastructure for providing victims 
services in tribal communities is woefully underdeveloped. The services 
that are available are provided by a complicated and fragmented system 
that includes federal, state, tribal, and private actors. Programs 
struggle to find stable sources of funding and often close when grant 
funds run out. There is no comprehensive compilation of the services 
that are available in Indian Country, nor a comprehensive analysis of 
the gaps. The information that is available, however, makes clear that 
many of the most vulnerable Native victims do not have access to the 
services they need.
    Children's Advocacy Centers (CACs), for example, are a recognized 
best practice for providing a child-focused, multidisciplinary response 
to child abuse, especially child sexual abuse. Children who receive 
services at CACs are twice as likely to receive specialized medical 
exams and significantly more likely to receive referrals for 
specialized mental health treatment. \22\ Despite the increased 
victimization risk for Native American children, very few CACs exist on 
tribal lands. While some tribal communities may be served by CACs off 
the reservation, the average driving distance to a CAC from tribal 
lands is 62 miles. For more than 100 tribal communities, the driving 
distance is between 100 and 300 miles. \23\ For example, a child abuse 
victim on the Rosebud Reservation in South Dakota must travel two and a 
half hours across the state (or more in bad weather) to reach a CAC. 
\24\ Even where tribal CACs exist, tribes struggle to find stable 
funding to maintain the programs. For example, the Eastern Shoshone 
Tribe opened a CAC on the Wind River Reservation in 2013 after an 
existing CAC operated by the Northern Arapaho Tribe ran out of funding 
and closed. \25\ The new CAC is dependent on a three-year federal grant 
with no guarantee that funding will be renewed after the grant period 
ends.
---------------------------------------------------------------------------
    \22\ Randall Cooper, ``Children's Advocacy Centers and Indian 
Country,'' Update: National Center for Prosecution of Child Abuse, vol. 
24, no 2 (2014), available at http://www.ndaa.org/pdf/
Update%20Vol24_No2.pdf.
    \23\ Randall Cooper, ``Children's Advocacy Centers and Indian 
Country,'' Update: National Center for Prosecution of Child Abuse, vol. 
24, no 2 (2014), available at http://www.ndaa.org/pdf/
Update%20Vol24_No2.pdf
    \24\ Id.
    \25\ Rebecca Martinez, ``Child Advocacy Center Opens on Wind River 
Reservation,'' Wyoming Public Media, January 24, 2013, available at 
http://wyomingpublicmedia.org/post/child-advocacy-center-opens-wind-
river-reservation.
---------------------------------------------------------------------------
    Domestic violence victims face similar challenges. Shelters provide 
essential services to victims of domestic violence. In addition to 
emergency housing for a woman and her children fleeing abuse, they 
often provide counseling, advocacy, legal services, and referrals to 
other services. There are currently fewer than 40 tribal domestic 
violence shelters in operation. Those programs that do exist struggle 
to find sufficient funding to maintain their operations. The domestic 
violence shelter on the Pine Ridge reservation, for example, closed 8 
years ago. Advocates report that in order to access shelter, they must 
transfer victims--and often their children--at least 100 miles one way 
to a shelter in Rapid City. When shelter space is not available in 
Rapid City, advocates drive victims 700 miles to Sioux Falls. \26\
---------------------------------------------------------------------------
    \26\ Conversation with advocates from the Pine Ridge reservation on 
June 2, 2015 at the Women Are Sacred conference.
---------------------------------------------------------------------------
    The Emmonak Women's Shelter, the only domestic violence shelter 
located in an Alaska Native village, has faced similar challenges. Like 
so many victim services programs in Indian Country, the shelter is 
reliant on short-term, discretionary funding from the Federal 
Government in order to remain operational. This two-bedroom shelter 
serves 500 women a year from 13 surrounding Native communities. Given 
the geographic isolation of the region, it is generally the only option 
for local women seeking to escape abuse. In operation since 1978, the 
shelter was forced to temporarily close in 2005 after the state of 
Alaska eliminated funding for this and a number of other rural services 
for Alaska Natives. Even while closed, battered women sought refuge 
there. Met with locked doors, women climbed surrounding trees and even 
hid in trash cans to escape their abusers. The shelter was able to 
reopen months later after securing funding from a tribal non-profit, 
and months after that, it received its first federal grant. \27\ The 
shelter temporarily closed again in 2012 after running out of its DOJ 
funding due to high fuel costs during an especially brutal winter. The 
shelter was able to reopen after obtaining $30,000 in private donations 
and a $50,000 emergency grant from the Bureau of Indian Affairs. Staff 
took pay cuts and rationed fuel in order to conserve the little funding 
they had. \28\
---------------------------------------------------------------------------
    \27\ Timothy Williams, In Remote Alaska, Financing Puts a Rare 
Refuge at Risk, N.Y. TIMES, May 23, 2012, at A3.
    \28\ Timothy Williams, With Grant, an Alaska Women's Shelter, N.Y. 
TIMES, July 6, 2012, at A15.
---------------------------------------------------------------------------
    Access to services for sexual assault survivors is similarly 
limited. Sexual Assault Examiner (SAE) and Sexual Assault Response Team 
(SART) programs have been shown to improve both the care of survivors 
of sexual assault and criminal justice outcomes in sexual assault 
cases. \29\ SAEs and SARTs are instrumental in facilitating immediate 
access to appropriate health care and other services for victims and 
for minimizing re-victimization by the justice system. A 2014 study 
used GIS mapping to evaluate proximity of trained forensic examiners to 
650 census-identified Native American lands. The study found that more 
than two-thirds of Native American lands are more than 60 minutes away 
from the nearest sexual assault forensic examiner. \30\

    \29\ Jennifer Giroux, Ashley Juraska, Eric Wood & Lindsey Wood, 
Sexual Assault Services coverage on Native American Land, 10 Journal of 
Forensic Nursing, 92, 92 (2014).
    \30\ Id.
---------------------------------------------------------------------------
Crime Victims Fund
    Since its creation in 1984 through VOCA, the Crime Victims Fund 
(CVF) has been the federal government's primary funding source for 
supporting crime victim compensation and assistance. Each year 
millions--and in recent years billions--of dollars are deposited into 
the fund from the penalties assessed against convicted criminals. The 
VOCA statute allocates funds made available from the CVF for a host of 
purposes, including a small discretionary tribal grant program through 
the Children's Justice Act to improve the investigation and prosecution 
of child abuse cases in tribal communities. There is generally about 
$2.7 million available for 566 Indian tribes each year in this program. 
The bulk of CVF funds are distributed to state and territorial 
governments as a formula grant, which they then sub-grant to victim 
assistance programs in their jurisdiction. Tribal governments, however, 
do not receive a similar formula distribution from the CVF. Other than 
the tribal CJA program, Indian tribes are able to access CVF funds for 
victim services only via sub-grants from the states, or by competing 
for very limited resources that the Department of Justice chooses to 
make available from its discretionary allocation. Both of these 
mechanisms have failed to provide adequate funding for tribal victim 
services programs, which has had devastating consequences for victims 
on tribal lands and their communities.
    In early 2015, NCAI submitted a request to the Office for Victims 
of Crime (OVC) under the Freedom of Information Act asking for 
information about sub-grants made by states to programs serving 
American Indian and Alaska Native victims over the past five years. 
NCAI received the attached spreadsheets in response, which show that 
pass-through funding has proven wholly unsuccessful in distributing 
funds to tribal victim service providers. According to data from OVC, 
from 2010-2014, the states passed through 0.5 percent of available 
funds to programs serving tribal victims, less than $2.5 million 
annually. New Mexico, where American Indians make up 10.7 percent of 
the population, sub-granted less than 1 percent of total available 
funds to programs serving Indian victims during that time period. 
Oklahoma, a state that is frequently held up as a place where the VOCA 
sub-grant process is working and where the Indian population is 12.9 
percent, has never sub-granted more than 5.5 percent of its funds to 
programs serving Indians victims. And in Alaska, where Alaska Natives 
make up 19.4 percent of the population, the state of Alaska reports 
that from 2010-2013 it sub-granted between 0 and 3.9 percent of funds 
received through VOCA to programs serving Native victims. The vast 
majority of existing tribal victim service programs we have spoken to 
report that they are not able to access these funds at all.
    Given that pass-through funding is not reaching tribal victims, 
tribal governments must largely rely upon the discretionary grant 
funding made available by OVC. OVC originally established a Victim 
Assistance in Indian Country (VAIC) discretionary grant program in 1989 
in response to revelations about wide spread sexual abuse perpetrated 
by Bureau of Indian Affairs teachers in several reservation 
communities. \31\ On the Hopi Reservation, the federal government 
ignored reports of abuse and allowed a teacher to abuse more than 140 
Indian children over a 9-year period. In attempting to identify 
services for the child victims, OVC realized that ``funding to on 
reservation victim assistance programs was virtually non-existent.'' 
\32\ VAIC funding was awarded for a three year period to state 
applicants who had partnered with tribal programs. OVC hoped that 
structuring the grant program to require state-tribal collaboration 
would help integrate tribal programs into the state VOCA programs and 
that the states would continue to fund the tribal programs after the 
federal grant ended. The states did not continue funding tribal 
programs at the conclusion of the three-year grant, however, and in 
1998 OVC discontinued its failed efforts to encourage pass-through 
funding and began funding tribal programs directly. \33\ Today this 
program is known as the Comprehensive Tribal Victim Assistance Program 
(TVAP).
---------------------------------------------------------------------------
    \31\ CCAN, ``History of Federal Victim Assistance Services and 
Programs in Indian Country,'' Upon the Back of a Turtle, (1998), 
available at http://www.icctc.org/B-Ch%204%20victim%20asst%20svcs.pdf
    \32\ Id.
    \33\ Id.
---------------------------------------------------------------------------
    While the TVAP is an improvement over the pass-through model used 
previously, its success is hampered by the low level of funding 
available and the short-term discretionary nature of the grants. Tribes 
must compete against one another to access these funds, and, until 
2015, 8 tribes generally received these grants each year for a three-
year term, with no guarantee that this funding will be renewed. After 
the significant increase in disbursements from the Crime Victims Fund 
for FY 2015, OVC increased its discretionary commitment to the TVAP and 
provided funding to 24 tribal programs for FY 2015. We commend OVC for 
its ongoing commitment to victims on tribal lands, but point out that 
they are only able to fund 24 of the 567 federally-recognized Indian 
tribes. Too often when a grant ends, tribal programs must completely 
shut down. As the Committee considers this critical issue, our foremost 
request is that tribal victims' services are not set up as another 
short-term grant program. Tribal governments need sustainable funding 
to meet the needs of victims into the foreseeable future, not a short-
term program at risk of disappearing soon after it is fully 
established. We also urge you to amend the legislation to remove the 
sunset provision that will terminate the program after 10 years. As we 
have seen in so many other areas, the sunset provision will have the 
likely result of leaving Indian tribes fighting a difficult and time-
consuming battle to save an important program when authorization 
expires. None of the other programs funded by the Crime Victims Fund 
sunset or expire, and we do not see a reason why this program should be 
any different.
    In recent years, annual disbursements from the CVF have been about 
$700 million. Collections, however, reached as high as $2.8 billion in 
2013, leaving a balance in the fund of more than $13 billion. There has 
been significant pressure on Congress to make this money available for 
crime victims, and Congress significantly increased the disbursements 
from the CVF for FY 2016 and 2017 to approximately $3 billion. Despite 
the fact that outlays have quadrupled, Congress has not directed any of 
this money to Indian tribal governments. Without additional action by 
Congress, Indian tribal governments will continue to have no direct 
access to critical CVF funds, and victims in Indian Country will 
continue to be left behind. S. 1870 would remedy this and ensure that 
Indian tribal governments have access to these life-saving funds and 
are able to develop the victim services and compensation infrastructure 
that is taken for granted in much of the rest of the country.
    S. 1870 has the potential to transform the crime victim services 
landscape in tribal communities and is a significant step toward 
finally ensuring that Native American crime victims have equitable 
access to the life-saving services funded by the Victims of Crime Act. 
NCAI looks forward to working with the Committee to ensure that the 
SURVIVE Act is enacted into law, and we will continue to work with your 
staff on our specific recommendations.
S. 1942, Savanna's Act
    We thank Senator Heitkamp for her leadership in introducing 
Savanna's Act, which is aimed at improving the response to missing 
persons and murder cases involving Native victims. Last year, NCAI 
adopted a resolution, PHX-16-077, Addressing the Crisis of Missing and 
Murdered Native Women, that called for increased coordination across 
agencies; the review and revision of protocols for responding to the 
disappearance of Native women; and access to services for victims and 
their families. Savanna's Act would increase accountability for federal 
and state officials and we strongly support its passage.
Proposal to Integrate and Coordinate Public Safety and Justice System 
        Funding
Intended for the purpose of providing concepts for consultation with 
        tribal governments

    Section 1. DEFINITIONS.

    The following definitions apply:
     (1) Indian tribe. The terms ``Indian tribe'' and ``tribe'' shall 
have the meaning given the term ``Indian tribe'' in section 4(e) of the 
Indian Self-Determination and Education Assistance Act.
     (2) Indian. The term ``Indian'' shall have the meaning given such 
term in section 4(d) of the Indian Self-Determination and Education 
Assistance Act.
     (3) Secretary. Except where otherwise provided, the term 
``Secretary'' means the Secretary of the Interior.

    Section 2. INTEGRATION OF SERVICES AUTHORIZED.

    The Secretary of the Interior, in cooperation with the Attorney 
General and the Secretary of Health and Human Services shall, upon the 
receipt of a plan acceptable to the Secretary of the Interior submitted 
by an Indian tribal government, authorize the tribal government to 
coordinate, in accordance with such plan, its federally funded law 
enforcement, public safety, justice systems, and substance abuse and 
mental health programs in a manner that integrates the program services 
involved into a single, coordinated, comprehensive program and reduces 
administrative costs by consolidating administrative functions.

    Section 3. PROGRAMS AFFECTED.

    The programs that may be integrated in a demonstration project 
under any such plan shall include any program under which an Indian 
tribe is eligible for receipt of funds under a statutory or 
administrative formula for the purposes of funded law enforcement, 
public safety, justice systems and substance abuse and mental health 
programs.

    Section 4. PLAN REQUIREMENTS.

    For a plan to be acceptable pursuant to section 4, it shall--
     (1) identify the programs to be integrated;
     (2) be consistent with the purposes of this Act authorizing the 
services to be integrated in a demonstration project;
     (3) describe a comprehensive strategy which identifies the full 
range of law enforcement, public safety, justice systems and substance 
abuse and mental health program needs;
     (4) describe the way in which services are to be integrated and 
delivered and the results expected from the plan;
     (5) identify the projected expenditures under the plan in a single 
budget;
     (6) identify the agency or agencies of the tribal government to be 
involved in the delivery of the services integrated under the plan;
     (7) identify any statutory provisions, regulations, policies, or 
procedures that the tribal government believes need to be waived in 
order to implement its plan; and
     (8) be approved by the governing body of the affected tribe.

    Section 5. PLAN REVIEW.

    Upon receipt of the plan from a tribal government, the Secretary of 
the Interior shall consult with the Secretary of each Federal 
department providing funds to be used to implement the plan, and with 
the tribal government submitting the plan. The parties so consulting 
shall identify any waivers of statutory requirements or of Federal 
departmental regulations, policies, or procedures necessary to enable 
the tribal government to implement its plan. Notwithstanding any other 
provision of law, the Secretary of the affected department shall have 
the authority to waive any regulation, policy, or procedure promulgated 
by that department that has been so identified by such tribal 
government or department, unless the Secretary of the affected 
department determines that such a waiver is inconsistent with the 
purposes of this Act or those provisions of the statute from which the 
program involved derives its authority which are specifically 
applicable to Indian programs.

    SEC. 6. PLAN APPROVAL.

    Within 90 days after the receipt of a tribal government's plan by 
the Secretary, the Secretary shall inform the tribal government, in 
writing, of the Secretary's approval or disapproval of the plan. If the 
plan is disapproved, the tribal government shall be informed, in 
writing, of the reasons for the disapproval and shall be given an 
opportunity to amend its plan or to petition the Secretary to 
reconsider such disapproval.

    SEC. 7. FEDERAL RESPONSIBILITIES.

     (a) Responsibilities of the Department of the Interior. Within 180 
days following the date of enactment of this Act, the Secretary of the 
Interior, Attorney General, and the Secretary of Health and Human 
Services and the Secretary of Education shall enter into an 
interdepartmental memorandum of agreement providing for the 
implementation of the demonstration projects authorized under this Act. 
The lead agency for a demonstration program under this Act shall be the 
Bureau of Indian Affairs, Department of the Interior. The 
responsibilities of the lead agency shall include--
     (1) the use of a single report format related to the plan for the 
individual project which shall be used by a tribal government to report 
on the activities undertaken under the project;
     (2) the use of a single report format related to the projected 
expenditures for the individual project which shall be used by a tribal 
government to report on all project expenditures;
     (3) the development of a single system of Federal oversight for 
the project, which shall be implemented by the lead agency; and
     (4) the provision of technical assistance to a tribal government 
appropriate to the project, except that a tribal government shall have 
the authority to accept or reject the plan for providing such technical 
assistance and the technical assistance provider.
     (b) Report Requirements. The single report format shall be 
developed by the Secretary, consistent with the requirements of this 
Act. Such report format, together with records maintained on the 
consolidated program at the tribal level shall contain such information 
as will allow a determination that the tribe has complied with the 
requirements incorporated in its approved plan and will provide 
assurances to each Secretary that the tribe has complied with all 
directly applicable statutory requirements and with those directly 
applicable regulatory requirements which have not been waived.

    SEC. 8. NO REDUCTION IN AMOUNTS.

    In no case shall the amount of Federal funds available to a tribal 
government involved in any demonstration project be reduced as a result 
of the enactment of this Act.

    SEC. 9. INTERAGENCY FUND TRANSFERS AUTHORIZED.

    The Secretary of the Interior, Attorney General, and Secretary of 
Health and Human Services, as appropriate, are authorized to take such 
action as may be necessary to provide for an interagency transfer of 
funds otherwise available to a tribal government in order to further 
the purposes of this Act.

    SEC. 10. ADMINISTRATION OF FUNDS AND OVERAGE.

    (a) Administration of Funds.--
     (1) In general. Program funds shall be administered in such a 
manner as to allow for a determination that funds from specific 
programs (or an amount equal to the amount attracted from each program) 
are spent on allowable activities authorized under such program.
     (2) Separate records not required. Nothing in this section shall 
be construed as requiring thetribe to maintain separate records tracing 
any services or activities conducted under its approved plan to the 
individual programs under which funds were authorized, nor shall the 
tribe be required to allocate expenditures among such individual 
programs.
     (b) Overage. All administrative costs may be commingled and 
participating Indian tribes shall be entitled to the full amount of 
such costs (under each program or department's regulations), and no 
overage shall be counted for Federal audit purposes, provided that the 
overage is used for the purposes provided for under this Act.

    SEC. 11. FISCAL ACCOUNTABILITY.

    Nothing in this Act shall be construed so as to interfere with the 
ability of the Secretary or the lead agency to fulfill the 
responsibilities for the safeguarding of Federal funds pursuant to the 
Single Audit Act of 1984.

    SEC. 12. REPORT ON STATUTORY OBSTACLES TO PROGRAM INTEGRATION.

     (a) Preliminary Report. Not later than two years after the date of 
the enactment of this Act, the Secretary shall submit a preliminary 
report to the Select Committee on Indian Affairs of the Senate and the 
Committee on Interior and Insular Affairs of the House of 
Representatives on the status of the implementation of the 
demonstration program authorized under this Act.
     (b) Final Report. Not later than five years after the date of the 
enactment of this Act, the Secretary shall submit a report to the 
Committee on Indian Affairs of the Senate and the Committee on Natural 
Resources on the results of the implementation of the demonstration 
program authorized under this Act. Such report shall identify statutory 
barriers to the ability of tribal governments to integrate more 
effectively their services in a manner consistent with the purposes of 
this Act.
                                 ______
                                 
   Prepared Statement of United South and Eastern Tribes Sovereignty 
                       Protection Fund (USET SPF)
    The United South and Eastern Tribes Sovereignty Protection Fund 
(USET SPF) is pleased to provide the Senate Committee on Indian Affairs 
(SCIA) with the following testimony for the record of its October 25th 
legislative hearing to receive testimony on S. 1870, the Securing 
Urgent Resources Vital to Indian Victim Empowerment (SURVIVE) Act of 
2017, S. 1953, the Reauthorization of the Tribal and Law Order Act 
(TLOA) of 2010, and S. 1942, Savanna's Act. These bills, if enacted, 
would provide Tribal Nations with critical resources, financial and 
otherwise, to aid in the fight against crime and the preservation of 
public safety in Indian Country. Below, we offer our support for the 
intent of each bill, as well as some suggested changes with a goal of 
ensuring all Tribal Nations have access to their provisions.
    USET SPF is a non-profit, inter-Tribal organization representing 27 
federally recognized Tribal Nations from Texas across to Florida and up 
to Maine. USET SPF is dedicated to enhancing the development of Tribal 
Nations, to improving the capabilities of Tribal governments, and 
assisting the USET SPF Member Tribal Nations in dealing effectively 
with public policy issues and in serving the broad needs of Indian 
people.
S. 1870, the Securing Urgent Resources Vital to Indian Victim 
        Empowerment (SURVIVE) Act
    As you are well aware, Indian Country currently faces an epidemic 
of crime, with Tribal citizens 2.5 times more likely to become victims 
of violent crime and Native women, in particular, subject to higher 
rates of domestic violence and abuse. And yet, Tribal Nations do not 
have direct access to funding that would allow them provide victim 
services. Currently, Tribal Nations must access Crime Victims Fund 
(CVF) dollars via state pass-through or by competing for modest 
Department of Justice grants. To meet the needs of crime victims on 
Tribal lands, Tribal governments need a stable source of funding to 
build the crime victim services and compensation infrastructure that is 
taken for granted in much of the rest of the country. Only then can 
Tribal citizens truly begin to access critically needed services and 
healing. As sovereign governments, Tribal Nations must have direct 
access to this funding--just like states and territories.
    The SURVIVE Act ensures that 5 percent of annual disbursements from 
the CVF are directed to Tribal governments through a competitive grant 
process. While USET SPF is strongly supportive of a statutorily 
mandated Tribal set aside, it is the long-standing position of this 
organization that the federal fiduciary trust responsibility is not 
fulfilled under a competitive grant model. Not only is it an abrogation 
of the federal trust responsibility to force Tribal Nations to compete 
for federal dollars, the competitive grant process often precludes some 
Tribal Nations from having access to those dollars at all. We urge SCIA 
to consider a more equitable method of distribution for this funding, 
including the opportunity to receive dollars through existing contracts 
and compacts.
S. 1953, the Reauthorization of the Tribal and Law Order Act of 2010
    Passage of TLOA in 2010 was a major victory for Tribal 
jurisdiction, self-determination, and the fight against crime in Indian 
Country. This law provides critical opportunities for Tribal Nations to 
assume new authorities and responsibilities for protecting their 
homelands. However, seven years later, there remain barriers for many 
Tribal Nations, including USET SPF member Tribal Nations, to the 
assumption of these new authorities.
Sentencing Authority
    Many USET SPF Tribal Nations have an interest in implementing 
enhanced sentencing authority under TLOA, as an increase in Tribal 
sentencing is more likely to deter crime, which continues to rise on 
our reservations. However, with the exception of one or two Tribal 
Nations, no USET SPF member Tribal Nation is currently exercising this 
authority. Our region is not unique in this regard. Nationally, only a 
handful of Tribal Nations have implemented or are in the process of 
implementing this provision.
    A primary barrier to the implementation of enhanced sentencing in 
the USET SPF area and beyond is the lack of federal funding to support 
Tribal Court systems. For Tribal Nations to fully exercise new 
authorities, their courts need to comply with costly requirements. 
Currently, many Tribes do not have adequate funding to abide by these 
requirements and will not be able to assume new authorities. Through 
USET SPF's participation on the Tribal Interior Budget Committee 
(TIBC), USET SPF member Tribal Nations have consistently identified 
Tribal Courts as a top priority for line item funding increases within 
the Bureau of Indian Affairs' budget. With an average funding level of 
around $75,000, Tribal Nations can barely afford the work of a part-
time judge, let alone institute the other types of judicial 
infrastructure required by TLOA. For Fiscal Year (FY) 2018, the 
President's Budget Request contains a nearly 22 percent cut to Tribal 
Courts. Though this cut is restored in the House Interior 
Appropriations bill, it is critical that any reauthorization of TLOA 
address gaps in existing judicial infrastructure. We urge this 
Committee to support increased funding for Tribal Courts in pursuit of 
this goal.
    Compounding and in addition to insufficient funding are the unique 
circumstances faced by some USET SPF member Tribal Nations in which 
land claim settlement acts with their respective states are being 
severely misinterpreted. These land claim settlement acts were 
primarily intended to provide certainty to landowners concerning 
disputed title to claimed lands. Unfortunately, top officials in some 
of these states assert that these settlement acts prevent the execution 
of any federal law passed afterward for the benefit of Tribal Nations 
unless Nations with restrictive settlement acts are explicitly 
identified in statute. That is, these Tribal Nations are currently 
restricted from accessing any legislative gains made in recent years 
for Indian Country, including the benefits of TLOA. Some USET SPF 
member Tribal Nations report being threatened with lawsuits, should 
they attempt to implement TLOA's enhanced sentencing provisions. USET 
SPF asserts that Congress did not intend these land claim settlements 
to forever prevent a handful of Tribal Nations from taking advantage of 
beneficial laws meant to improve the health, general welfare, and 
safety of Tribal citizens. We would like to further explore a long-term 
solution to this problem with the Committee. In the short-term, we urge 
this Committee to include language in the upcoming TLOA reauthorization 
that ensures the law applies to all federally-recognized Tribal 
Nations.
Drug Enforcement
    S. 1953 seeks to address and prevent drug trafficking in Tribal 
communities. Yet, this objective remains elusive throughout much of 
Indian Country, including within the USET SPF region. USET SPF member 
Tribal Nations are in desperate need of adequate law enforcement 
resources, especially those for drug enforcement. Drug abuse and 
trafficking, particularly opioids, is a persistent and growing problem 
in Indian Country, including within the USET SPF Area. However, in our 
BIA Drug Enforcement Region (from ME to FL to NM to the central US), 
there are only 7 drug enforcement agents assigned to serve over 100 
Tribal Nations.
    USET SPF continues to advocate for increased funding for law 
enforcement, including drug enforcement. Though our Tribal patrol 
officers perform a vital role in addressing drug issues within a 
communities, drug investigations are conducted primarily by specialized 
units or task forces on departmental, statewide and federal levels. 
These units involve enhanced intelligence gathering, information 
sharing, controlled buys, surveillances and other factors. Our BIA Drug 
Enforcement Region needs much more than 7 personnel available for this 
purpose.
State-Tribal-Federal Collaboration
    Much of the implementation of TLOA depends on collaboration between 
Tribal, state, and federal governments, including issues related to 
jurisdiction, cross-deputization, cooperative agreements, and 
information sharing. While USET SPF member Tribal Nations continue to 
have meaningful and productive collaboration with federal partners, 
many Nations report difficultly in achieving similar relationships with 
states. While USET SPF recognizes that many of these difficulties are 
deep-seeded, we request that this Committee and our partners within 
federal government seek methods of ensuring states engage in meaningful 
consultation with Tribal Nations we they collaborate on the 
implementation of TLOA. As it considers the reauthorization of TLOA, 
USET SPF encourages SCIA to include provisions requiring states to 
meaningfully consult with Tribal Nations.
Tribal Law Enforcement Employee Retention
    As the Committee works toward reauthorizing TLOA, USET SPF asks 
that it consider addressing issues related to the retention of Tribal 
law enforcement personnel. Because of the deep disparity in resources 
between Tribal law enforcement agencies and those at the local, state, 
and federal level, it is often difficult to retain Tribal law 
enforcement personnel. As Penobscot Police Chief, Bob Bryant, noted in 
his 2015 testimony to the President's 21st Century Task Force on 
Policing:

         Tribal law enforcement agencies remain underfunded and 
        understaffed, creating a paradigm of officer ``burn out,'' low 
        morale, stress related illnesses, and lack of stress management 
        resources. The result puts the safety and life of each police 
        officer in jeopardy every time they put on their badge and walk 
        out the door to serve their community. . .. As with any 
        community, law enforcement agencies are asked to engage and 
        partner with the communities and citizens that they serve. Such 
        engagement and partnership promotes problem solving and 
        solutions to the issues that hamper the progress and well-being 
        of our communities. This becomes difficult, if not impossible, 
        with high officer turnover. Nowhere is the turnover rate higher 
        than in Tribal law enforcement. This turnover is the direct 
        result of the many issues I have outlined in my testimony 
        today.

    USET SPF supports and recommends the inclusion of provisions that 
would increase funding for Tribal law enforcement personnel, encourage 
mutual aid compacts with other units of government, increase access to 
counseling for officers who have experienced on-the-job trauma, and 
create access to federal retirement and other benefits for officers.
Tribal Access to Crime Information
    USET SPF supports language in the bill designed to increase Tribal 
access to the U.S. Department of Justice Tribal Access Program (TAP) to 
allow Tribal Nations to more effectively serve and protect their 
citizens and communities. The U.S. Department of Justice launched the 
TAP in August 2015 to provide Tribal Nations with access to information 
systems for both civil and criminal purposes. TAP allows Tribal 
criminal justice agencies to strengthen public safety, solve crimes, 
conduct background checks, and offer greater protection for law 
enforcement by ensuring the exchange of critical data across the 
Criminal Justice Information Services systems.
    In Fiscal Year (FY) 2017, with $2 million of unexpended FY 2016 
funds allocated by the USDOJ SMART Office and COPS Office, the 
Department was only able to deploy workstations and training to 11 
Tribal governments, while more than 50 Tribal Nations, including 
several USET SPF member Tribal Nations, had submitted letters of 
interest to take part in TAP. Without a secure and robust funding 
stream, rollout to the remaining 300+ eligible Tribal Nations will be a 
long process, unnecessarily delaying Tribal access to this critical 
criminal justice data, hampering law enforcement coordination, and 
further compounding gaps in Tribal resources. Since the program began, 
only 19 Tribal Nations have benefited from this technology and 
training. Additional funding is needed to meet demand and a dedicated 
funding stream would ensure the long term viability of this program. We 
urge the Committee to authorize additional funding for TAP, in addition 
to providing for enhanced technical assistance.
S. 1942, Savanna's Act
    As this Committee well knows, American Indian/Alaska Native (AI/AN) 
women suffer from violent crime at a rate three-and-a-half times 
greater than the national average. Nearly 84 percent of all AI/AN women 
will experience domestic violence and one in three AI/AN women will be 
sexually assaulted in their lifetimes. We must do more to address this 
crisis. This includes ensuring Tribal Nations are able access to more 
tools to prevent these tragedies.
    Savanna's Act is a critical step in this fight. The bill would 
provide Tribal Nations will improved access to federal crime databases, 
require Tribal consultation on database access at all levels of 
government, standardize the response to missing and murdered AI/AN, and 
require reporting on statistics related to missing and murdered AI/ANs. 
USET SPF supports each of these provisions, as an opportunity to begin 
to close the deep divide in protection from violence, sexual assault, 
trafficking, and other crimes between AI/AN women and those in the rest 
of the United States.
Conclusion
    There is still much work to done to ensure that all Tribal Nations 
across the United States have the ability to provide for the public 
safety of their citizens, protect from and address crime victimization, 
and end the epidemics of violence and drug trafficking in Tribal 
communities. We are hopeful that with additional funding, improved 
infrastructure, and clarifying language, many more Tribal Nations will 
be able to exercise the types of authorities vital to these goals. We 
appreciate SCIA's attention to our comments and look forward to further 
opportunities to discuss improved public safety in Indian Country.
                                 ______
                                 
Prepared Statement of Addie C. Rolnick, Associate Professor, William S. 
                Boyd School of Law, University of Nevada
    Thank you Chairman Hoeven, Vice Chairman Udall, and members of the 
Committee for allowing me to provide written testimony on S. 1953. The 
bill, which is intended to improve the delivery of criminal justice 
services to Indian people and to strengthen tribal justice systems, 
includes Title II--Improving Justice for Indian Youth. My comments will 
be directed primary at this title.
    I am a law professor at the University of Nevada, Las Vegas. I have 
been engaged in research, advocacy, and institution building to improve 
juvenile justice in Indian country, and for Native youth elsewhere, for 
over a decade. My publications include: Untangling the Web: Juvenile 
Justice in Indian Country, 19 N.Y.U. J. of L. & Pub. Pol'y 49 (2016); 
Locked Up: Fear, Racism, Prison Economics, and the Incarceration of 
Native Youth, 40 Amer. Indian Culture & Res. J. 55 (2016); A Tangled 
Web of Justice: American Indian and Alaska Native Youth in Federal, 
State, and Tribal Juvenile Justice Systems, Campaign for Youth Justice 
(2008) (with Neelum Arya); Native Youth and Juvenile Injustice in South 
Dakota, __S.D. L. Rev. __(forthcoming 2017); and a policy paper 
entitled Resisting Invisibility: Native Girls in the Justice System to 
be published in 2017-2018.
    My research focuses on the need to improve the administration of 
juvenile justice in Indian country. Native youth who commit acts of 
juvenile delinquency may find themselves in tribal, state, or federal 
court, depending upon location, offense type, and identity of the 
victim. In many cases, two governments have jurisdiction, a situation 
that can result in duplicative prosecutions and in federal or state 
authorities undermining a tribe's ability to set delinquency policy. 
Across all systems, available data indicates that Native youth tend to 
be arrested for low-level offenses, yet are more likely to be detained, 
removed from home, and incarcerated than other youth. S. 1953 includes 
several positive proposals. The bill's inclusion of juvenile justice is 
important because advocates have had difficulty adding Indian country-
specific provisions to bills addressing juvenile delinquency generally, 
such as the Juvenile Justice and Delinquency Prevention Act.
    While I support all the proposed changes, I believe some could be 
strengthened. Specifically, I suggest that Congress add a deadline and 
required outcome for the Departments' consideration of the issues 
described in Section 203 and include the Secretary of Health and Human 
Services in the coordination process. I also recommend amending Public 
Law 280 to require that states exercising delinquency jurisdiction 
pursuant to it are required to give tribes notice and an opportunity to 
exercise tribal jurisdiction in all juvenile cases arising in Indian 
country. My hope is that the Departments' planning process will result 
in a requirement that all states notify a child's tribe when a tribal 
child comes into their systems, but this notification is essential in 
Public Law 280 states, where tribes have concurrent jurisdiction, and 
should be added as an amendment to existing law, not simply a topic for 
consideration. I discuss each section in more detail below.
    Section 201 of the bill would amend the Federal Juvenile 
Delinquency Act (``FJDA'') to require the Attorney General to certify, 
for juveniles in Indian country, that the tribe with jurisdiction 
refuses to assume jurisdiction or does not have available programs and 
services adequate to meet the juvenile's needs. Current law requires 
that, before proceedings against a juvenile in federal court for any 
offense, the U.S. Attorney must certify that ``(1) the juvenile court 
or other appropriate court of a State does not have jurisdiction or 
refuses to assume jurisdiction over said juvenile with respect to such 
alleged act of juvenile delinquency, (2) the State does not have 
available programs and services adequate for the needs of juveniles,'' 
or (3) that the crime is a violent felony or listed federal drug or gun 
offense and ``there is a substantial Federal interest in the case to 
warrant the exercise of Federal jurisdiction.'' \1\ Certification is a 
prerequisite to federal court jurisdiction. \2\
---------------------------------------------------------------------------
    \1\ 18 U.S.C.  5032.
    \2\ United States v. Chambers, 944 F. 2d 1253, 1259 (6th Cir. 
1991), cert. denied, 502 U.S. 1112, 112 S. Ct. 1217, 117 L. Ed. 2d 455 
(1992); United States v. Juvenile Male, 923 F. 2d 614, 618 (8th Cir. 
1991); United States v. Brian N., 900 F. 2d 218, 222-23 & n.8 (10th 
Cir. 1990) see also U.S. Dep't of Justice, U.S.A.M., C.R.M.  120.
---------------------------------------------------------------------------
    For non-Indian country youth, this provision ensures that federal 
juvenile proceedings are limited to certain federal offenses and to 
cases in which the state cannot or does not wish to handle the case. It 
embodies a presumption in favor of state jurisdiction for all but the 
few cases implicating a significant federal interest. \3\ It also helps 
guard against duplicative proceedings by providing that the federal 
government will defer to state jurisdiction except in rare cases. This 
is true even though the Act only applies to juveniles who have 
committed federal law offenses. The FJDA defines state to include 
states, ``the District of Columbia, and any commonwealth, territory, or 
possession.'' \4\ The preference for local jurisdiction thus extends to 
every area of the United States except for Indian tribes.
---------------------------------------------------------------------------
    \3\ United States v. Juvenile Male, 864 F. 2d 641, 644 (9th Cir. 
1988) (discussing legislative history); Charles Doyle, Cong. Research 
Serv., Rl30822, Juvenile Delinquents and Federal Criminal Law: The 
Federal Juvenile Delinquency Act and Related Matters 1 (2004); U.S. 
Dep't of Justice, U.S.A.M., C.R.M.  116 (recognizing that the intent 
of the FJDA is to ``help ensure that state and local authorities would 
deal with juvenile offenders whenever possible''). For further 
discussion of the history of the federal juvenile delinquency system, 
see Addie C. Rolnick, Untangling the Web: Juvenile Justice in Indian 
Country, 19 N.Y.U. J. L. & Pub. Pol'y 49, 122-125 (2016) and David S. 
Tanenhaus, The Elusive Juvenile Court: Its Origins, Practices, and Re-
Inventions, in THE OXFORD HANDBOOK ON JUVENILE CRIME AND JUSTICE 419, 
427-28 (Barry C. Feld & Donna M. Bishop eds., 2012).
    \4\ 18 U.S.C.  5032.
---------------------------------------------------------------------------
    Indian country criminal laws extend federal jurisdiction over 
offenses that would be handled locally if they took place under state 
jurisdiction, so Indian country juveniles may end up in federal court 
for traditionally local offenses. Indeed, approximately half of the 
juveniles under federal jurisdiction are Native juveniles. The 
certification requirement is met in these cases if the state lacks 
jurisdiction over the offense because it occurred in Indian country. No 
consultation with, or surrender to, a tribal government is contemplated 
by the Act.
    The proposed change would remedy this ensuring that tribes are 
treated the same as other local jurisdictions. It would allow tribes to 
take the lead in juvenile delinquency matters whenever possible, as 
states do, and would facilitate communication between tribal and 
federal prosecuting authorities. The change would not eliminate federal 
jurisdiction over Indian country juveniles. It would allow tribes to 
continue to refer some or all serious juvenile offenders to federal 
court if desired. It would, however, prevent a juvenile from going to 
federal court when the tribe has the resources and desire to handle the 
matter in tribal court. This change is a simple way for Congress to 
ease the heavy hand of federal criminal jurisdiction in Indian country, 
and help to strengthen tribal juvenile systems, without altering the 
status quo in any drastic way. For these reasons, the Indian Law and 
Order Commission recommended in 2013 that Congress amend the FJDA. \5\ 
I am pleased that the bill includes this important provision, and I 
strongly urge the Committee to support and protect it.
---------------------------------------------------------------------------
    \5\ INDIAN LAW & ORDER COMM'N, A ROADMAP FOR MAKING NATIVE AMERICA 
SAFER 159-61, 171-73 (2013).
---------------------------------------------------------------------------
    Section 203 requires the Attorney General, the Administrator of the 
Office of Juvenile Justice and Delinquency Prevention, and the 
Secretary of the Interior to coordinate to address a range of issues 
related to juvenile delinquency. As part of their coordinated efforts, 
the Departments must conduct regular tribal consultations on juvenile 
delinquency issues. Section 203 also requires the OJJDP to develop and 
implement a tribal consultation policy and requires the Departments to 
report on their consultation policy and activities.
    This proposal is well-intentioned, and it reflects the important 
reality that problems in the administration of juvenile justice are 
best resolved through a coordinated effort among tribes and the various 
agencies involved. Given the prevalence of trauma in the histories of 
Native juvenile delinquents, it is essential that health care services 
and funding sources be part of the equation for Native youth. To that 
end, I suggest that the Committee include the Secretary of Health and 
Human Services in the coordination required by Section 203.
    Furthermore, while I support the ideas in Section 203, I believe it 
does not go far enough. While the Departments are required to 
coordinate regarding solutions to important problems, the bill does not 
impose a time limit, require a report on any activities beyond the 
tribal consultation sessions, or even mandate that the Departments 
arrive at a solution to any of the listed issues.
    One goal of the proposed coordination is ``developing a means for 
collecting data on the number of offenses committed by Indian youth in 
Federal, State, and tribal jurisdiction, including information 
regarding tribal affiliation or membership of the youth.'' Improving 
and standardizing data collection on Native youth in the juvenile 
justice system is an essential step to finding out what is happening to 
young people, determining which programs work, and learning about 
practices that may be harming them. As someone who works closely with 
existing data on Native youth and juvenile justice, I can assure you 
that the data in this area is sparse compared to the data that exists 
for other youth. I urge the Committee to consider amending the bill to 
require that the Departments develop and implement an improved data 
collection process by a specified time. I also urge the Committee to 
expand the scope of the required data collection. Data should include 
offenses, charge and case outcomes, whether the young person was held 
in pre-adjudication detention, and disposition. In particular, it is 
important that this data include information on whether juveniles are 
removed from home, and for which offenses, and whether they are at any 
point placed in secure confinement.
    Another goal is ``to develop a process for informing Indian tribal 
government when a juvenile member of an Indian tribe comes into contact 
with the juvenile justice system of the Federal, State, or other unit 
of local government, and for facilitating intervention'' by the tribe. 
Under current law, neither federal, nor state, nor local governments 
are required to notify the tribe (even where the tribe has concurrent 
jurisdiction over the juvenile's offense). Section 201 would help 
ensure that federal officials notify and coordinate with tribes, but it 
is equally important that state and local jurisdictions do so.
    Where states and tribes exercise concurrent jurisdiction over a 
juvenile, tribal notice and the opportunity to intervene and/or 
transfer jurisdiction is essential. In my view, such a process should 
include a preference for tribal jurisdiction unless the tribe requests 
that another government proceed against the juvenile. This can easily 
be addressed by amending Public Law 280 to impose a requirement similar 
to that imposed on the Attorney General by Section 201 of this bill. I 
urge the Committee to consider adding an amendment to require Public 
Law 280 states to notify and coordinate with tribes exercising 
concurrent jurisdiction.
    I agree with the bill's premise that notification and tribal 
involvement should not be limited to cases in which the tribe has 
jurisdiction over the juvenile's offense. Notification and tribal 
involvement are so important that I urge the Committee to strengthen 
this requirement by adding a deadline and requiring a proposal, 
including proposed legislative language should changes to the law be 
required.
    There is one area in which existing law requires states to notify 
and involve tribes under, and that is status offenses. When a child 
faces removal from the home for commission of an act that would not be 
criminal if the committed by an adult (e.g., underage drinking, curfew 
violation, or running away), the Indian Child Welfare Act (ICWA) 
requires that the state notify the tribe. There is evidence that this 
does not always occur, and that Native youth are disproportionately 
removed from home and even incarcerated as a result of status offenses. 
\6\ I urge the Committee to include a review of outcomes for Native 
status offenders, including an assessment of the degree to which states 
are following the ICWA.
---------------------------------------------------------------------------
    \6\ John Litt & Heather Valdez Singleton, American Indian/Alaska 
Native Youth & Status Offense Disparities: A Call for Tribal 
Initiatives, Coordination & Federal Funding (2015).
---------------------------------------------------------------------------
    I also urge the Committee to consider expanding the research areas 
listed in subsection (a)(7). For example, there is little to no 
research on the structure of tribal juvenile systems, the 
characteristics and outcomes of youth in those systems. Understanding 
the needs and experiences of youth in tribal systems is a critical 
piece of juvenile justice reform, and may reveal the need for further 
legislative or policy change. There is also very little research on the 
successes and failures of tribal juvenile justice programs.
    Section 204 would bring Native issues into the center of federal 
juvenile justice policy by adding the Secretary of the Interior as a 
member of the Coordinating Council on Juvenile Justice and Delinquency 
Prevention and adding tribal coordination to the description of the 
Council's functions. Other sections of bill would reauthorize several 
important juvenile justice programs, ensuring that tribes have access 
to needed funding. I support the funding reauthorizations and the 
proposed change to the Coordinating Council.
    I have limited my comments to the juvenile justice provisions of 
the bill. Although it is included elsewhere, Section 106 also has 
important implications for juveniles. My research indicates that 
incarceration plays on outsized role in tribal juvenile justice 
systems. \7\ Often, incarceration is emphasized at the expense of other 
options. This can lead to a sad cycle in which children who should not 
be incarcerated are placed in secure confinement simply because there 
is nowhere else for them to go. Over-reliance on incarceration is not 
unique to tribes, but it stands in tension with the expressed goals of 
many tribal governments regarding juvenile justice. It is traceable in 
large part to the availability of federal funding for detention 
facility construction and operation, and the comparative scarcity of 
funding for alternatives. Part of this structure has been the Bureau's 
limitations on tribes' ability to reprogram funding from detention to 
alternatives. Section 106 would correct this problem, and I strongly 
support it.
---------------------------------------------------------------------------
    \7\ See Locked Up: Fear, Racism, Prison Economics, and the 
Incarceration of Native Youth, 40 Amer. Indian Culture & Res. J. 55 
(2016).
---------------------------------------------------------------------------
    Thank you for introducing this important bill and for allowing me 
to provide testimony. I stand ready to answer any additional questions 
Members of the Committee may have.
                                 ______
                                 
 Prepared Statement of Taylor Sheridan, Bosque Ranch Productions, Inc.
    Mr. Chairman, Mr. Vice Chairman and Members of the Senate Committee 
on Indian Affairs, my name is Taylor Sheridan. Thank you for the 
opportunity to submit written testimony in support of H.R. 4485, 
Savanna's Act. I am the writer and director of the film Wind River, 
which is rooted in my travels and time spent living in Indian Country. 
It is the third movie in a trilogy that explores the modern American 
West.
    During my late 20s, I was welcomed into the Oglala Sioux Tribal 
community on the Pine Ridge Indian Reservation. While there, community 
members shared with me the story about a young Oglala Lakota woman, who 
I will refer to as ``Natalie''. Natalie was a basketball star with 
exceptional athletic ability and a student leader with an impressive 
academic record that would make her the first in her family to attend 
college. By all accounts, Natalie's path in life pointed towards her 
escaping the cycle of poverty endemic to Indian reservations, and the 
possibility of becoming a future leader in her community and elsewhere. 
In a tragic turn of events, after missing for days, Natalie's body was 
found in a remote part of the reservation. Very little is known about 
the circumstances surrounding Natalie's death, but stories like hers 
have become commonplace.
    Natalie's story--and countless others like hers--was the 
inspiration for Wind River, which tells the story of a young woman's 
rape and murder on the Wind River Indian Reservation, as well as the 
heartache and difficulties endured in bringing her perpetrators to 
justice. I hired a legal team to research statistics on the number of 
women who have gone missing on Indian reservations. My intention was to 
have a post script at the end of the film that highlighted the number 
of missing and murdered women on Indian reservations. Since no single 
government agency tracks information regarding missing and murdered 
Indigenous women, my team had to individually contact the Bureau of 
Indian Affairs, the Department of Justice, the Federal Bureau of 
Investigation, the Department of Health and Human Services, the Indian 
Health Service, the Substance Abuse and Mental Health Services 
Administration, the Administration for Family and Children, the Census 
Bureau, the Government Accounting Office, and the State Department 
seeking data. After three months of reviewing academic studies, 
government reports and talking to every possible agency with 
jurisdiction over this matter, we determined that there were no 
reliable statistics on missing and murdered Indigenous women. My team 
and I were justifiably stunned by this realization. Ultimately, I 
concluded the film with the following statement: ``While missing person 
statistics are compiled for every other demographic, none exists for 
Native American women. No one knows how many are missing''.
    The appalling pervasiveness of missing and murdered Indigenous 
women is not unique to the Great Plains, nor is the Hollywood community 
immune. In 2014, the Blackfeet actress Misty Upham's body was found in 
a ravine outside of Auburn, Washington, a border town just outside of 
the Muckleshoot Indian Reservation. As with all missing and murdered 
Indigenous women, the circumstances are suspect. According to press 
reports, the conduct of the City of Auburn's law enforcement is equally 
disturbing in that police personnel appeared to have casually dismissed 
the family's concerns and failed to cooperate with the tribal 
community. I urge the Committee to read The Guardian's story on Misty's 
death--which can be found at the following link: https://
www.theguardian.com/global/2015/jun/30/misty-upham-native-american-
actress-tragic-death-inspiring-life. It is yet another classic case-
study that demonstrates law enforcement's failure to bring justice for 
missing and murdered Indigenous women.
    I recently met with Lailani Upham, a close relative of Misty and a 
respected journalist. She shared with me the story of her maternal 
grandmother who was raped and killed in the winter of 1953 on the Fort 
Belknap Indian Reservation. Her grandmother's rape and murder have 
never been investigated. Lailani recounted several other stories that 
were told to her about missing and murdered Indigenous women. In our 
conversation, I was heartened to learn that Wind River's portrayal of 
this terrible truth provided Indian people with an avenue to continue 
healing their communities.
    I would like to thank ``Natalie'' and the Northern Arapaho and 
Eastern Shoshone Tribes of the Wind River Indian Reservation for 
trusting me to tell their story. The Wind River tribal leaders have 
expressed that my film Wind River is not just their story, but all 
Indian Country's story--which in itself is a tragedy. To be frank, it 
is a tragedy I had to make this movie in the first place.
    While Savanna's Act addresses the data collection issue and serves 
to establish reporting protocols, there is a lack of jurisdictional 
clarity and cooperation between law enforcement agencies in Indian 
County, which further exacerbates the problem. Such conflicts undermine 
obtaining any real justice for missing and murdered Indigenous women.
    In recent conversations with the Crow and Standing Rock tribal 
leadership, they pointed out that while Congress may attempt to address 
these jurisdictional issues, they are not doing so fast enough. Tribes 
must be able to exercise their sovereign authority to protect their 
people, because one more missing woman is one too many. With every 
woman who goes missing, the Native community loses another future 
leader, future doctor, future teacher, another resource for which this 
community can lean against and look up to is gone. No problem can be 
solved until it is understood. Tribal governments need data to 
understand the problem, freedom from bureaucracy to investigate the 
problem, and the autonomy to combat the problem. I urge Congress to 
move quickly in order to rectify the data collection gaps and provide 
tribal leadership and local law enforcement with the resources needed 
to protect Indigenous women, and bring justice to those who have 
perpetuated violence upon them. It is impossible to move with enough 
haste--for as this testimony is being read, another Indigenous woman 
just disappeared.
    At a recent event in Helena, Montana, I met Theda New Breast and 
Lucy Simpson. Theda has been active in national Indigenous women's 
issues for over 30 years and Lucy is the Executive Director of the 
National Indigenous Women's Resource Center (NIWRC). Theda recounted 
Savanna's Greywind's story to me, which felt heart-wrenchingly familiar 
and underscored the need for resources for nonprofit organizations like 
the NIWRC. The NIWRC is among a very small network of not-for-profit 
organizations leading the effort to bring awareness to the issue of 
missing and murdered Indigenous women. Lucy provided me with a detailed 
briefing on the vital work that the NIWRC does in Indian Country to end 
all forms of gender-based violence against Indigenous peoples. I urge 
the Committee and Congress to continue supporting organizations like 
the NIWRC and the important work that they are doing by enacting and 
funding legislation such as the Victims of Crime Act.
    Finally, last year Congress passed Senate Resolution 60, a measure 
introduced by Senator Steve Daines (R-MT) and Jon Tester (D-MT), 
designating May 5, 2017 as the ``National Day of Awareness for Missing 
and Murdered Native Women and Girls.'' It is time for Congress to take 
the next step by passing and enacting Savanna's Act. With the passage 
of Savanna's Act, the lives and voices of Savanna Greywind, Misty Upham 
and ``Natalie'' will not be silenced.
    Of all responsibilities our government assumes, none is more 
urgent, more dire, and more necessary than the protection of the most 
vulnerable of our society. I am testifying on behalf of a segment of 
our society that could not be in more desperate need of that 
protection. And that protection begins by being accounted for--it 
begins by simply knowing how many Native American woman and girls have 
been murdered and never found. I urge you--no, I beg you--pass 
Savanna's Act.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 
                     Sacred Spirits First Nations Coalition
                                           Mahnomen, MN, 10/25/2017
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.

Dear Senator Heitkamp,

    Sacred Spirits First Nations Coalition is a non-profit that has 
been addressing violence against Native American and Alaska Native 
Women for the last 17 years.
    We applaud your leadership within the U.S. Federal government in 
creating legislation to address the epidemic levels of missing and 
murdered Native American and Alaska Native women with Savanna's Act.
    The horrific murder of Savanna LaFontaine-Greywind and the womb 
kidnapping of her unborn daughter Haisley Jo is yet another historical 
mark to the grave level of injustice Native American and Alaska Native 
face in the U.S. The level of violence committed against Native 
American and Alaska Native women and the barriers created within Indian 
Country, Alaska Native Villages and Urban Cities through federal and 
state laws and policy is a continuum of human rights violations.
    Savanna's Act is critical to begin to address the issues that have 
been long standing in the U.S. with the missing and murdered Native 
women. The U.S. government has a federal trust responsibility and legal 
obligation to safeguard not only the Treaties, but to ensure all 
citizens of the United States have equal access to justice and the 
right to live a life free from violence.
    Further, we stand and support Lisa Brunner, Policy Consultant for 
Sacred Spirits First Nations Coalition recommendations made yesterday 
on your podcast, that a National Inquiry into the MMIW is a necessary 
fundamental response to truly understand the gravity of the extensive 
issues faced for Native women in the country.
    These listening sessions/field hearings truly require visiting the 
complex jurisdictional mapping of tribal communities both on and off 
reservations. Tribal nations located within Non-Public Law 280 such as 
those in your home state of North Dakota that is strictly under the 
federal jurisdiction, tribal nations located Public Law 280 states such 
as Minnesota and California which are under state jurisdiction, Alaska 
Native villages located in Alaska, Oklahoma with the checkerboard 
jurisdiction and urban cities as 80 percent of the Native American and 
Alaska Native population live off reservations.
    These areas outlined are necessary to understand not only the 
complexities of the jurisdictions, but the depth of the issues of law 
enforcement and judicial responses that affect the lives and safety of 
Native women every day. This insight can only bring about positive 
changes among all agencies responsible for the life and safety of their 
citizens, specifically that of Native women who are targets of violence 
far greater than all other women in the United States as a whole.
    In conclusion, Sacred Spirits First Nations Coalition support you 
Senator Heitkamp and Savanna's Act.
        Sincerely,
                                         Clinton Alexander,
                                        Interim Executive Director.
                                 ______
                                 
           Indigenous Women's Human Rights Collective, Inc.
                                           Mahnomen, MN, 10/24/2017
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.

Dear Senator Heitkamp,

    Indigenous Women's Human Rights Collective, Inc., is a non-profit 
whose collective work of staff and board represents over 65 years of 
work experience addressing domestic violence, stalking, sexual assault, 
sex trafficking and missing and murdered Native American and Alaska 
Native women.
    We applaud your leadership within the U.S. Federal government in 
creating legislation to address the epidemic levels of missing and 
murdered Native American and Alaska Native women with Savanna's Act.
    The horrific murder of Savanna LaFontaine-Greywind and the womb 
kidnapping of her unborn daughter Haisley Jo is yet another historical 
mark to the grave level of injustice Native American and Alaska Native 
face in the U.S. The level of violence committed against Native 
American and Alaska Native women and the barriers created within Indian 
Country, Alaska Native Villages and Urban Cities through federal and 
state laws and policy is a continuum of human rights violations.
    Savanna's Act is critical to begin to address the issues that have 
been long standing in the U.S. with the missing and murdered Native 
women. The U.S. government has a federal trust responsibility and legal 
obligation to safeguard not only the Treaties, but to ensure all 
citizens of the United States have equal access to justice and the 
right to live a life free from violence.
    Further, I stand by my recommendation that a National Inquiry into 
the MMIW is a necessary fundamental response to truly understand the 
gravity of the extensive issues faced for Native women in the country. 
These listening sessions/field hearings truly require visiting the 
complex jurisdictional mapping of tribal communities both on and off 
reservations. Tribal nations located within Non-Public Law 280 such as 
those in your home state of North Dakota that is strictly under the 
federal jurisdiction, tribal nations located Public Law 280 states such 
as Minnesota and California which are under state jurisdiction, Alaska 
Native villages located in Alaska, Oklahoma with the checkerboard 
jurisdiction and urban cities as 80 percent of the Native American and 
Alaska Native population live off reservations.
    These areas outlined are necessary to understand not only the 
complexities of the jurisdictions, but the depth of the issues of law 
enforcement and judicial responses that affect the lives and safety of 
Native women every day. This insight can only bring about positive 
changes among all agencies responsible for the life and safety of their 
citizens, specifically that of Native women who are targets of violence 
far greater than all other women in the United States as a whole.
    In conclusion, Indigenous Women's Human Rights Collective, Inc., 
support you Senator Heitkamp and Savanna's Act.
        Sincerely,
                                Lisa Brunner and Peggy Bird
                                                      Co-Directors.
                                 ______
                                 
                                          CAWS North Dakota
                                           Bismarck, ND, 10/24/2017
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.

Senator Heitkamp,

    On behalf of CAWS North Dakota I am pleased to write this letter of 
support for, and commitment to, supporting Savanna's Act, in order to 
address and improve the Federal Government's response to the crisis of 
missing and murdered indigenous women nationwide.
    CAWS North Dakota is a dual coalition approaching its 40th 
anniversary, growing from a loose network of five organizations to a 
membership of twenty (20) direct service providers. The rich history of 
the organization includes not only the nurturing and subsequent growth 
of a direct service provider network but also a consistent presence 
working to help shape public policies and systems that are responsive 
to the needs and experiences of victims of domestic and sexual 
violence. The Coalition has been active in this role since early 1979.
    In 2016, our 20 crisis centers provided services to 5,218 victims 
of domestic violence and 1,041 victims of sexual assault. Twenty nine 
(29) percent of domestic violence victims and 21 percent of sexual 
assault victims identified as American Indian or Alaska Native. Our 
work as a coalition has focused on building a strong network of service 
providers that are dedicated to working alongside our tribal coalition 
(First Nations Women's Alliance) to ensure Native American woman living 
on and off the reservation have access to culturally relevant and safe 
services.
    We believe the provisions outlined in Savanna's Act including 
improving access to federal crime databases and creating standardized 
protocols for responding to cases of missing and murdered Native 
American women with guidance on interjurisdictional cooperation will 
enhance and sustain the work of our sister coalitions and crisis 
centers across the country to ensure justice for Native American 
victims and survivors.
    It's without hesitation that CAWS North Dakota supports the 
introduction of Savanna's Act and urg passage of the legislation.
        Sincerely,
                                              Janelle Moos,
                                                Executive Director.
                                 ______
                                 
                  Friends Committee on National Legislation
                                         Washington, DC, 10/27/2017
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.

Dear Senator Heitkamp,

    On behalf of the Friends Committee on National Legislation, we want 
to thank you for your focused efforts to bring an end to human 
trafficking and violence against women and children in Indian Country. 
The FCNL supports Savanna's Act (S. 1942) and look forward to working 
with you for its passage.
    The Friends Committee on National Legislation is Quaker lobby in 
the public interest. We have lobbied on Native American concerns, 
hopefully as a faithful ally to tribes, since the 1950s. We also lead 
an interfaith coalition that examines and tries to improve the historic 
relationship between tribes and faith groups, and speaks out on current 
concerns.
    Savanna's Act addresses two of the most perplexing conundrums 
afflicting tribal criminal justice--access to data, and coordination 
among jurisdictions and agencies. The two other bills considered in the 
Senate Committee on Indian Affairs on October 25 can work hand in hand 
with Savanna's Act to make significant progress in this area. The 
SURVIVE Act would provide a reliable funding stream to help tribal and 
local law enforcement and social services to collaborate in their 
responses to violence on Indian lands. As witnesses noted, the presence 
and involvement of victim advocates and victim service providers is 
essential not only for the victims themselves, but sometimes make 
prosecutions possible.
    An effective response can also be enhanced by potential changes in 
the Tribal Law and Order Act and the 2013 VAWA amendments to open up 
some of the narrow restrictions on tribal jurisdiction. The tribe 
cannot keep its citizens safe if it does not have the resources and the 
recognized authority to do so.
    We raise one caution about the intent of some of the provisions of 
the Tribal Law and Order Reauthorization Act: the support offered for 
new prisons. From our historic and current work on criminal justice and 
prisons, we at FCNL know that building more prisons does not reduce 
crime. We were heartened to hear from at least two of the witnesses 
yesterday that they seek to replace and upgrade overcrowded and 
substandard prisons on reservation lands, but not necessarily to expand 
prison capacity overall.
    Indeed, tribal justice systems are leading the way in addressing 
crimes at the community level. Processes like the ``Peacemaker 
Circles'' described by one witness seek permanent and comprehensive 
solutions to crimes and community offenses, by involving offenders, 
direct victims, tribal elders, and the whole community in the decisions 
about how to respond to a particular crime or situation. We will watch 
closely for language in the Tribal Law and Order Act Reauthorization, 
to ensure that tribes continue to retain their sovereign rights to 
judge in these cases whether prison is or is not part of a 
comprehensive solution to a community offense.
    As you said yourself, Senator, in the September 27 hearing on the 
GAO's report about the need for more data, we cannot solve this problem 
by prosecution alone. ``Everything that we do to build resilience 
within Indian Country is an anti-trafficking move.'' We look forward to 
supporting your efforts to address human trafficking and its root 
causes in a comprehensive framework.
        In hope for justice,
                                               Ruth Flower,
                                Consultant--Native American Policy.
                                 ______
                                 
                              United Tribes of North Dakota
                                                         10/22/2017
Senator John Hoeven,
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.
     RE: Support for S. 1942, ``Savanna's Act,'' a bill to 
direct the AG to review, revise and develop law enforcement 
  and justice protocols appropriate to address missing and 
        murdered Indians; and S. 1870, the Securing Urgent 
      Resources Vital to Indian Victim Empowerment Act 2017

Dear Senators,

    We write to thank you for your direct response to our letter of 
September 8, 2017 calling for direct action in response to the tragic 
loss of Savanna LaFontaine-Greywind and all Murdered and Missing 
Indigenous Women. The United Tribes of North Dakota and our citizens 
stand in solidarity with Savanna's family, and all the families of 
missing and murdered Native American women. In our September 8, 2017 
letter, we urged you to consider the following recommendations:

        1.  Create a federal-local law enforcement task force regarding 
        Greywind's murder to ensure justice, and to ensure appropriate 
        crime victim resources are provided to her child and family;

        2.  Direct the DOJ to commission a cross-jurisdictional law 
        enforcement task force to re-open the cold files on the 
        hundreds of missing and murdered Native American women. Direct 
        this task force to create national protocols on missing Native 
        women and to coordinate the multiple jurisdictions;

        3.  Require the DOJ to collect and provide statistics on an 
        annual basis and provide recommendations on data collection for 
        missing and murdered Native American women. Native women are 
        one of the only populations without this data;

        4.  Support the Violence Against Women Act, and the continued 
        strengthening of tribal criminal jurisdiction, so that the 
        murder of a Native woman on an Indian reservation will finally 
        receive the same swift justice and law enforcement resources as 
        off reservation;

        5.  Ensure all United States Attorneys for North Dakota fully 
        appreciate their unique treaty obligations in Indian Country;

        6.  End the unconscionable exclusion of tribal governments from 
        the federal Crime Victims Fund so that we can provide victim 
        services to our families with missing and murdered Native 
        women;

        7.  Guarantee that Tribal law enforcement agencies are given 
        equal access to National the Crime Information Center (NCIC) 
        and the Tribal Access Program for National Crime Information 
        (TAP);

        8.  Provide tribal law enforcement and courts additional 
        funding to develop protocols on missing persons; Ensure federal 
        law enforcement receive appropriations to protect our women, 
        consistent with their federal treaty obligation;

        9.  Appreciate that mascots, utilization of racial slurs, and 
        other caricaturizations of Native Americans contribute to the 
        unconscious dehumanization and objectification of Native 
        American women, that contributes to the ease in which violence 
        is directed towards them;

        10.  Commission a Congressional task force to undertake a study 
        similar to one conducted in Canada, in partnership with tribes 
        and Native women's advocacy groups.

    We also passed Resolution #17-09-08-01 on September 8, 2017, titled 
``Support for a Permanent Dedicated Tribal Set-Aside in the Victims of 
Crime Act (VOCA) Fund to Assist Tribal Victims of Crime, Including 
Related to Cases of Missing and Murdered Indigenous Women.''
    We asked for specific action, and you have responded, each 
introducing a bill that specifically addresses some of the actions we 
requested.

  <bullet>  ``S. 1942, a bill to direct the AG to review, revise and 
        develop law enforcement and justice protocols appropriate to 
        address missing and murdered Indians'', known as ``Savanna's 
        Act,'' responds to our requests for statistics on MMIW, data 
        access, and increased coordination. (Senator Heitkamp)

  <bullet>  ``S. 1870, the Securing Urgent Resources Vital to Indian 
        Victim Empowerment Act 2017'' responds to the UTND resolution 
        #17-09-08-01. (Senator Hoeven)

    We thank you for your quick response to our call to action, and for 
your sincere and continued attention to the epidemic of Missing and 
Murdered Ingenious Women. We look forward to supporting these bills, 
and to working together on this issue of national importance.
        Sincerely,
                                                Dave Flute,
Chairman, Sisseton Wahpeton Oyate and United Tribes of North Dakota
                                 ______
                                 
                National Indigenous Women's Resource Center
                                                     Lame Deer, MT.
Sen. Heidi Heitkamp,
Hart Senate Office Building,
Washington, DC.

Dear Senator Heitkamp,

    We, the National Indigenous Women's Resource Center, write to 
express the urgent need to address the national crisis of missing and 
murdered as stated in the Findings of S. 1942; the Savanna's Act. The 
recent murder of Savanna LaFontaine-Greywind and the horrific ongoing 
violence committed against Native women and girls, particularly the 
reports of those missing and murdered, are a glaring confirmation of 
this reality in our everyday lives.
    According to the Centers for Disease Control and Prevention, 
homicide is the third leading cause of death among American Indian and 
Alaska Native women between 10 and 24 years of age and the fifth 
leading cause of death for American Indian and Alaska Native women 
between 25 and 34 years of age. In some tribal communities, American 
Indian women face murder rates that are more than 10 times the national 
average.
    This year, the Senate passed a resolution declaring May 5th, 2017 
as a National Day of Awareness for Missing and Murdered Native Women 
and Girls. As demonstrated on May 5th by the response of Indian tribes, 
advocates, and most important the families of Native women who are 
missing and/or tragically murdered, much remains to be done to address 
this crisis. We extend our gratitude for your support for the National 
Day of Awareness. Furthermore, we are pleased to inform you that the 
National Day of Awareness reached millions of people across the United 
States and the world through social media platforms, community actions, 
and heartfelt prayers at vigils across tribal communities. This public 
response continues to demonstrate that increased awareness is badly 
needed and indicative of the extent of the reality that Native women go 
missing on a daily basis often without any response by law enforcement.
    The National Indigenous Women's Resource Center calls for prayer 
and healing in response to the violence committed against American 
Indian and Alaska Native Women across the United States. As a country, 
we must acknowledge this crisis and the systemic changes that are 
urgently needed to save lives. To respond to this reality, we can begin 
the process of removing barriers to the safety of Native women and 
strengthen the ability of Indian nations to protect women. We thank 
you, Senator Heitkamp for your dedication and that of the Senate 
Committee on Indian Affairs and call on all justice-loving people to 
stand strong and continue the important work addressed by Savanna's Act 
and the work we have before us to end all forms of violence in our 
communities.
                                              Lucy Simpson,
                                                Executive Director.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                             Hon. Joel Boyd
Federal Administrative Assistance to Tribes
    Question 1. In order for Congress to exercise its oversight 
authority, it needs timely reporting of information on Indian programs 
from federal agencies. S. 1953 seeks to incentivize timely reporting by 
withholding administrative funding from agencies within the Department 
of Justice and the Department of the Interior that fail to submit 
required reports by the legislative deadline. Do you believe that 
withholding administrative funds would impact your tribe's ability to 
get timely responses from the Bureau of Indian Affairs and the 
Department of Justice on public safety and victim service related 
issues?
    Answer. It would depend on the particular functions or accounts 
that the funds are withheld from, but as drafted, we do not believe so. 
The Office of Justice Services is a separate account from the Assistant 
Secretary--Indian Affairs and we believe that the prospect of 
withholding funds from the policy making side of Indian Affairs for 
noncompliance is a positive move.
Prisoner Rights
    Question 2. S. 1953 seeks to address a number of issues related to 
public safety in Indian Country, but fails to address the protection of 
Native inmates' rights, including their religious freedoms (e.g., hair 
length and wearing sacred objects). According to a study by the Navajo 
Nation Corrections Project, recidivism among American Indians is 
dramatically reduced by participation in traditional religious 
ceremonies. \1\ However, many Native American inmates have been denied 
the ability to participate in regular religious practice or keep 
articles of religious devotion. \2\ Last year, the Supreme Court 
rejected an appeal from several Native American inmates incarcerated in 
an Alabama state prison to review a decision by the Eleventh Circuit 
that said the state's restrictions on prisoner hair length did not 
violate federal law by infringing on the prisoners' religious beliefs. 
\3\ Native youth are disproportionately represented in federal prisons 
due to the unique jurisdictional landscape of Indian Country; \4\ thus, 
their cultural rights and needs are often not respected. Do you believe 
it is important for the Department of Justice and the Bureau of Indian 
Affairs to work more closely with tribes to address their policies 
regarding Native cultural expression and practices?
---------------------------------------------------------------------------
    \1\ See ``Navajo Nation Corrections Project,'' Harvard Kennedy 
School of Government, at https://www.innovations.harvard.edu/navajo-
nation-corrections-project.
    \2\ See, e.g., Stephanie Beran, ``Native Americans in Prison: The 
Struggle for Religious Freedom,'' Nebraska Anthropologist, 2005.
    \3\ Knight v. Thompson, 796 F.3d 1289 (11th Cir. 2015), cert. 
denied, 136 U.S. 1824 (2016).
    \4\ See, e.g., ``Juvenile Justice: Failing the Next Generation,'' A 
Roadmap for Making Native America Safer, Tribal Law and Order 
Commission, 157, at https://www.aisc.ucla.edu/iloc/report/files/
Chapter_6_Juvenile_Justice.pdf.
---------------------------------------------------------------------------
    Answer. Yes. Both the BIA and DOJ should have personnel dedicated 
as points of contact for these issues. The BIA's Office of Justice 
Services and DOJ's Office of Tribal Justice have such a large portfolio 
of issues and demands on their resources that specific individuals 
should be designated.

    Question 3. Several years ago, news reports began to surface that 
Native youth in BIA-funded detention facilities were not provided with 
any educational or vocational opportunities. \5\ Additionally, Native 
youth represent as much as 60 percent of juveniles in federal custody. 
\6\ However, the federal corrections system contains no juvenile 
division--meaning these youth have limited to no access to age-
appropriate educational or rehabilitation opportunities. \7\ S.1953 
fails to adequately address the educational-access rights of Native 
youth in tribal, BIA, and federal detention facilities. What sort of 
accountability for incarcerated Native youth education would you 
recommend the Committee consider for the Bureau of Indian Affairs and 
the Department of Justice?
---------------------------------------------------------------------------
    \5\ See, e.g., Tate, Julie, ``From Broken Homes to a Broken 
System,'' The Washington Post, (Nov. 28, 2014), at http://
www.washingtonpost.com/sf/national/2014/11/28/from-broken-homes-to-a-
broken-system/?utm_term=.22fbca8e05d3.
    \6\ See ``Juvenile Justice: Failing the Next Generation,'' supra 
note 4, at 157.
    \7\ Id. at 155.
---------------------------------------------------------------------------
    Answer. The absence of services for juvenile offenders is a severe 
problem for the Colville Tribes. The Colville Tribes operates an adult 
detention facility that it operates under a 638 contract. That 
facility, however, does not house any juvenile offenders. The Colville 
Tribes would like to operate a juvenile detention wing, but the minimum 
staff needed to operate a juvenile facility dwarfs the federal funding 
that would be available to the Tribe under its 638 contract. That 
available amount is approximately $200,000. The Colville Tribes would 
need to supplement this amount with tribal dollars several times over 
to staff a juvenile wing with the minimum required staff, which 
unfortunately is not a feasible option for the Tribe. That only 
addresses the costs of minimum staff; it would not include any therapy 
or rehabilitation services for juvenile offenders.
    Currently, the Colville Tribes' juvenile offenders are housed in 
county facilities under contractual arrangements. Depending the 
facility, services provided for juvenile offenders vary considerably.
    As for accountability for BIA and DOJ for incarcerated Native 
youth, the Colville Tribes believes that separate funding resources 
must be available for these purposes. Many tribes have tribal member 
youth that have been arrested at a young age for sex offenses. 
Statistics show that intervention and treatment in these cases at a 
young age is much more effective that when the offenders become adults. 
This Committee can direct that the BIA and/or DOJ affirmatively provide 
these therapy and rehabilitation services-or make funding available to 
Tribes-for tribal youth offenders.
Tribal Public Safety Resources
    Question 4. S.1870 (SURVIVE Act) amends the Victims of Crime Act 
(VOCA) to authorize a 10-year 5 percent tribal set-aside within the 
Crime Victims Fund to support a new tribal grant program. Do you 
believe the VOCA tribal grant program should be made permanent?
    Answer. Yes.

    Question 4a. How would making it permanent benefit tribes and 
victim service programs? Please be specific.
    Answer. The Colville Tribes currently provides limited victim 
services through a combination of tribal programs. The Tribes received 
a modest grant through the VOCA program through the State of Washington 
in 2016, but has not received funding since. Making the VOCA tribal 
grant program permanent would allow Tribes to develop and maintain 
victims' services programs without having to support these programs 
exclusively through Tribal funds. The Colville Tribes is interested in 
establishing permanent services similar those funded by the VOCA 
Compensation Formula Grant Program--i.e., financial assistance and 
reimbursement to victims for crime-related out-of-pocket expenses--but 
has been constrained by tribal budgets. Having a permanent source of 
funds would allow the Tribes to move forward.

    Question 4b. Do you believe 5 percent is sufficient?
    Answer. The largest number that is politically feasible, the 
better.

    Question 4c. Would there be a benefit to modifying the bill 
language to turn the 5 percent set-aside into a funding minimum?
    Answer. If feasible, yes.

    Question 5. S.1953 mandates a feasibility study of creating a block 
grant program similar to CTAS, the 477 tribal workforce program, and 
NAHASDA by pooling tribal public safety funds from the Department of 
the Interior, the Department of Health and Human Services, and the 
Department of Justice. If enacted, how would you recommend the grant 
funds authorized under this legislation be distributed?
    Answer. The funds should be distributed based on a combination of 
criteria similar to how the Office of Justice Services currently 
allocates increases for law enforcement. These criteria include the (1) 
size of the Tribe's reservation/tribal land base; (2) number of 
enrolled tribal members; (3) rate of violent crime on the Tribe's 
reservation; and (4) the number of additional law enforcement officers 
needed (if any).

    Question 6. S.1870 creates a grant program to administer a 5 
percent Victim of Crime Act set-aside for tribal victim services but 
does not specify whether these grants will be competitive or formula-
based. Do you think that creating a public safety block grant such as 
this would benefit your tribe?
    Answer. Yes. Currently, funding for tribal victim services at the 
Colville Tribes are a combination of programs from tribal and federal 
grant sources. A formula-based block grant would provide a reliable 
source of funding to ensure that there is no interruption of services 
in these programs.

    Question 6a. If enacted, how would you like to see the funds 
distributed?
    Answer. The funds should not be distributed on a competitive grant 
basis. Rather, the funds should be distributed based on a formula using 
the criteria similar to the criteria described in the answer to 
question 2, above, but with the rate of violent crime perhaps being 
more heavily weighed.

    Question 6b. Are there any lessons learned from CTAS, NAHASDA and 
the 477 program that should be incorporated into a potential block 
grant under S. 1953?
    Answer. The 477 program is instructive because it reduces 
administrative overhead in administering programs by requiring a single 
reporting requirement. Tribes should be able to receive VCA set aside 
funds through a 477 plan or a 477-like arrangement.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                             Hon. Joel Boyd
    Question 1. Given the legislation and issues we are discussing here 
today--and the FBI's critical role in investigating major crimes and 
being the top law enforcement agency on the beat in Indian Country. 
What is your view of the FBI's presence and responsiveness to crime on 
your reservations? Is it adequate? If not, what more should be done to 
increase their presence and responsiveness to criminal activity and 
crime on your reservation?
    Answer. Currently, a supervisory FBI agent in Spokane, Washington, 
provides monthly reports to the Colville Business Council on the status 
of investigations, declinations, etc. The Colville Tribes' law 
enforcement currently has seven active cases that interacts with the 
FBI on. Prior to the current monthly report arrangement, however, the 
Colville Tribes had difficulty getting reliable information from the 
FBI.
    Even with the monthly reports, the Colville Tribes is still not 
formally notified of declinations of prosecutions. The Colville Tribes 
also has been frustrated at the reluctance, in some cases, for the U.S. 
Attorney's Office's apparent unwillingness to pursue cases unless they 
are ``open and shut'' cases.

    Question 2. In Mr. Rice's testimony, he discussed the TLOA's Indian 
Law and Order Commission and its promotion of intergovernmental 
cooperation--this is something I know a lot about from my time as 
Attorney General in North Dakota as I worked constantly to secure 
cross-deputization agreements or memorandums of understanding between 
tribes and state/local/county law enforcement. This is a very 
challenging exercise and one that will only ever work when there is a 
very high-level of trust on both sides of the agreement. Now, Mr. 
Rice's testimony talks about BIA and presumably the DOJ encouraging 
tribes and state and local law enforcement to engage in more of these 
types of agreements. How has BIA and/or DOJ worked with your tribe to 
help facilitate these conversations or provide you with the resources 
necessary to reach agreement with state and local law enforcement? Has 
BIA and/or DOJ led a consultation with your tribe or tribes in your 
state or region on this issue recently? If so, what was the outcome of 
that consultation?
    Answer. As noted in the answer below, Washington state is somewhat 
of an anomaly because since 2011 it has authorized tribal police to 
enforce state laws without requiring an agreement with local 
jurisdictions. BIA and DOJ work with the Colville Tribes on a variety 
of issues, though not this issue since 2011.
    One issue of concern of the Colville Tribes with the BIA and DOJ is 
the process for securing Special Law Enforcement Commissions (SLECs) to 
enable tribal officers to enforce federal laws. Despite provisions in 
the 2010 Tribal Law and Order Act intended to facilitate SLECs, we have 
continued to find the SLEC process cumbersome and slow.

    Question 3. Do you have current MOU's or cross-deputization 
agreements in place with state and local law enforcement? If not, why? 
What more do you need in terms of resources, information, guarantees--
to encourage further discussion and actual agreements being reached 
with state and local law enforcement? And have you discussed your 
challenges in reaching cross-deputization agreements and memorandums of 
understanding with BIA and/or DOJ? If so, what was their response?
    Answer. The Colville Reservation straddles both Okanogan and Ferry 
Counties in the north central and north eastern part of Washington 
State. The Colville Tribes has a cross-deputization agreement in effect 
with the Okanogan County Sherriff's Department, but not with the Ferry 
County Sherriff. The CCT similarly does not have cross deputization 
agreements with police departments for the cities of Omak and Coulee 
Dam, two of the largest population centers on the Colville Reservation. 
In 2011, the Washington State Legislature enacted a law that authorizes 
tribal police officers to act as general authority Washington state 
peace officers. Most Indian tribes that have been unable to secure 
cross-deputization agreements have been able to obtain the same 
authority under this law, so Washington State is probably an exception.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               Bryan Rice
Prisoner Rights
    Question 1. As tribes move to exercise the enhanced sentencing 
restored under TLOA and the special jurisdiction restored under VAWA, 
they report issues with providing medical care to longer-term inmates. 
According to data produced by the BIA, nearly 60 percent of BIA and 
tribal jails are without any on-site healthcare services Tribal and BIA 
jails typically depend on the Indian Health Service to care for 
inmates, but under VAWA, non-IHS eligible inmates are now housed in 
these facilities for the first time. S. 1953 fails to address the issue 
of healthcare access for inmates in BIA-fundedcorrection facilities. 
How is BIA working to ensure that all inmates have access to adequate 
health care?
    Answer. The BIA Office of Justice Services (OJS) works diligently 
to ensure that all inmates have access to health care for all detention 
facilities on tribal lands. The health and safety of inmates and staff 
is of primary concern. BIA Policy requires Detention Facilities to 
provide access to available health care to all inmates. The BIA works 
directly with the Indian Health Services (IHS), and persons in BIA or 
tribal custody are eligible for services on the same basis as other 
beneficiaries of the IHS. In instances where IHS services are not 
available, BIA would procure local medical services for inmates.
    The Tribal Detention Programs under the P.L. 93-638 Contracts or 
Self Governance Compacts require the jail administrator and health 
authority to develop a written plan for the provision of general 
medical, emergency medical, dental and mental health care. The minimum 
requirements for this plan between the tribe and the medical provider 
are outlined within the BIA Detention Guidelines, which are attached.
    Due to the lack of bed space in some areas, BIA OJS also manages 
commercial contracts. The Contractor addresses emergency, routine non-
emergency medical, psychological, and dental needs of arrestees or 
inmates with an established medical professional assessment. The 
Contractor is required to defer to the Indian Health Service or a 
tribal health care facility/provider when possible and appropriate for 
arrestees or inmates who are enrolled members of a federally-recognized 
tribe.

    Question 1a. Are there any statutory or regulatory barriers that 
would prevent BIA-funded corrections facilities from working with 
federal health systems, like IHS, to address this issue?
    Answer. As noted in the previous response, the IHS, as well as 
Tribal Health programs provide services for Native American inmates. 
These programs have their own legal requirements regarding who 
qualifies for the services. BIA does coordinate with IHS on what 
services they have available in the locations where we operate 
detention facilities. Generally, Native American inmates are eligible 
for direct services; however, inmates have limited eligibility for 
Purchased or Referred Care, which would otherwise cover emergency 
medical care and specialized treatment not available directly from IHS 
at particular locations. Accordingly, we are not aware of any express 
statutory or regulatory barriers that bar BIA from working with federal 
health systems, such as IHS. BIA defers to IHS regarding whether its 
statutory or regulatory requirements prevent it from working with BIA 
to address this issue.

    Question 2. S. 1953 attempts to address a number of issues related 
to public safety in Indian Country but fails to address the protection 
of Native inmates' rights, including their religious freedoms (e.g. 
hair length and wearing sacred objects). According to a study by the 
Navajo Nation Corrections Project, recidivism among American Indians is 
dramatically reduced by participation in traditional religious 
ceremonies. \1\ However, many Native American inmates have been denied 
the ability to participate in regular religious practice or keep 
articles of religious devotion. \2\ Last year, the Supreme Court 
rejected an appeal from several Native American inmates incarcerated in 
an Alabama state prison to review a decision by the Eleventh Circuit 
that said the state's restrictions on prisoner hair length did not 
violate federal law by infringing on the prisoners' religious beliefs. 
\3\ Native youth are disproportionately represented in federal prisons 
due to the unique jurisdictional landscape of Indian Country; \4\ thus, 
their cultural rights and needs are often not respected. How is your 
Department making sure that culturally-appropriate programming and 
policies are in place for incarcerated Native youth?
---------------------------------------------------------------------------
    \1\ See ``Navajo Nation Corrections Project,'' Harvard Kennedy 
School of Government, at https://www.innovations.harvard.edu/navajo-
nation-corrections-project.
    \2\ See, e.g., Stephanie Beran, ``Native Americans in Prison: The 
Struggle for Religious Freedom,'' Nebraska Anthropologist, 2005.
    \3\ Knight v. Thompson, 796 F.3d 1289 (11th Cir. 2015), cert. 
denied, 136 U.S. 1824 (2016).
    \4\ See, e.g., ``Juvenile Justice: Failing the Next Generation,'' A 
Roadmap for Making Native America Safer, Tribal Law and Order 
Commission, 157, at https://www.aisc.ucla.edu/iloc/report/files/
Chapter_6_Juvenile_Justice.pdf.
---------------------------------------------------------------------------
    Answer. The BIA OJS Detention Facilities are located within the 
geographical boundaries of a Reservation. Detention Centers have 
policies and procedures that support culturally relevant programming to 
include counseling, treatment, medical, youth activities, domestic 
violence and spirituality.

    Question 3. Several years ago, news reports began to surface that 
Native youth in BIA-funded detention facilities were not provided with 
any educational or vocational opportunities. \5\ Additionally. Native 
youth represent as much as 60 percent of juveniles in federal custody. 
\6\ However, the federal corrections system contains no juvenile 
division--meaning these youth have limited to no access to age-
appropriate educational or rehabilitation opportunities. \7\ S. 1953 
fails to adequately address the educational-access rights of Native 
youth in tribaL, BIA, and federal detention facilities. What efforts is 
the Office of Justice Services undertaking to ensure all Native youth 
in their detention facilities have access to educational opportunities?
---------------------------------------------------------------------------
    \5\ See, e.g., Tate, Julie, ``From Broken Homes to a Broken 
System,'' The Washington Post, (Nov. 28, 2014), at http://
www.washingtonpost.com/sf/national/2014/11/28/from-broken-homes-to-a-
broken-system/?utm_term=.22fbca8e05d3.
    \6\ See ``Juvenile Justice: Failing the Next Generation,'' supra 
note 4, at 157.
    \7\ Id. at 155.
---------------------------------------------------------------------------
    Answer. BIA OJS has employed a contractor to develop and implement 
an educational program tailored for BIA Juvenile Detention Centers 
(JDC). The program provides quality educational and support services, 
benefiting male and female Native American juveniles.
    The BIA education contractor teaches reading, language arts, math, 
science, and study skills to serve most JDC facilities. A special 
emphasis was placed on teaching remediation skills in reading and math 
to address the academic needs of the juveniles.
    The BIA and Tribal programs develop and implement academic 
educational program tailored for Native youth in their Detention 
Centers, and provide quality educational and support services 
benefitting both male and female juveniles.
Tribal Public Safety Resources
    Question 4. In FY14, the Department of Justice imposed a unilateral 
moratorium on tribal public safety and justice construction. Since that 
time, the BIA has decommissioned several tribal corrections facilities, 
leaving some communities without corrections facilities. Sisseton 
Wahpeton's Chairman testified that his tribe has to ``catch and 
release'' domestic violence offenders and drunk drivers, decreasing the 
effectiveness of officers' attempts to deescalate or contain offenders. 
\8\ In addition to exacerbating public safety issues, DOJ's moratorium 
means BIA must divert funding to pay to house offenders in county and 
private prisons. Has BIA done an estimate oft he extra costs paid by 
the federal government and tribes to contract bed space with counties 
and private prisons when BIA facilities are decommissioned?
---------------------------------------------------------------------------
    \8\ Statement of David Flute, Chairman of the Sisseton Wahpeton 
Sioux Tribe, before the Senate Committee on Indian Affairs (Oct. 25, 
2017)
---------------------------------------------------------------------------
    Answer. The chart below displays an analysis of three recently 
closed detention facilities. Detention facility closures have occurred 
for multiple reasons to include; severe equipment failures, repair 
costs exceeding available appropriations, safety violations and the 
most serious being based off the facility condition impacting life, 
health and safety of inmates. To date, BIA has not experienced a cost 
savings from these facility closures because resources were shifted 
into a short-term hold and prisoner transport program for each 
facility. This occurred primarily because the vast majority of program 
costs (74 percent to 78 percent) reside in personnel and travel, which 
are costs that continue despite the facility closure.
    Due to existing staff shortages at other BIA-run facilities, any 
displaced employees not used for short-term hold/transports are 
redirected to fill staffing gaps at other locations. As a result, there 
have been no savings related to facility closures to offset against our 
additional contract bed costs with counties and private prisons. The 
median inmate costs at BIA operated facilities is approximately $120 a 
day versus approximately $65-$150 a day at a contract bed facility, in 
addition to an increase in transportation costs to transport inmates to 
contract facilities outside the local area. These additional costs to 
the Federal .government and tribes are shown in the far right column.

----------------------------------------------------------------------------------------------------------------
                                                                Average Annual                      Additional
             Decommissioned Bed                 Bed Capacity     Program Cost    Actual Program    Contract Bed
                                                                  2013-2016       Cost in 2017    Cost (Annual)
----------------------------------------------------------------------------------------------------------------
Hopi                                                       68       $2,382,785       $2,651,846         $912,503
Crow                                                       32       $1,225,802       $1,248,082       $1,140,750
Sisseton (Tribal)*                                         20         $210,711         $213,066         $149,879
----------------------------------------------------------------------------------------------------------------
*Tribal program resources necessarily shift in a manner similar to our Federal operations upon facility closure.
  As a result, no cost savings are assumed for the Sisseton program.


    Question 4a. Additionally, what is BIA doing to ensure that tribal 
inmates housed in contracted facilities have .access to education and 
culturally relevant rehabilitation?
    Answer. Each contracted facility has a contracting officer 
representative (COR) who is a BIA Correctional Specialist. Through the 
COR, the BIA has input on each contract and the services that would be 
provided by contracted facilities. Each county, private company, or 
state facility has their own array of programs and services. BIA makes 
efforts to seek out contracts that properly place inmates where the 
services are needed and have bed space available. The services would 
include educational opportunities and cultural programming.
    These contracts are monitored annually and site visits are 
conducted throughout the year.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                               Bryan Rice
    Question 1. In April, the OOJ Office of Tribal Justice created the 
Indian Country Federal Law Enforcement Coordination Group, consisting 
of 12 federal taw enforcement components, that aims to increase 
collaboration and coordination to enhance the response to violent crime 
in Indian country. The Bureau of Indian Affairs Office of Justice 
Services is co-leading this effort. Can you provide an update on the 
Group's discussions and if anything has come out of them yet?
    Answer. BIA, the Executive Office of United States Attorneys 
(EOUSA), and the Office ofTribal Justice continue to collaborate on the 
Attorney General's Violent Crime Reduction Coordinating Committee and 
have been critically important in developing relationships between 
federal agencies. The Indian Country Federal Law Enforcement 
Coordination Group (ICFLECG) also provides a forum for law enforcement 
to discuss new issues facing Indian Country. The Coordination Group has 
identified the prosecution of violent crime and opioid abuse in Indian 
Country as a priority. As part of the collaboration through ICFLECG, 
BIA and EOUSA have collaborated on a curriculum to train tribal 
prosecutors and Special Assistant United States Attorneys (SAUSAs) in 
trial advocacy skills. This curriculum focuses on skill sets needed to 
properly prosecute opioid and violent crime cases. This training will 
be held at the DOJ National Advocacy Center the week of March 19, 2018 
and 42 tribal prosecutors plan to attend. The training facts are 
derived from a recent case at Pascua Yaqui which involved violence and 
use and sale of illegal narcotics. Thereafter, DOJ and BIA will select 
9 advanced tribal prosecutors from the March 19 training, and work to 
create 9 additional training sessions in each OJS District to take 
place within the next 2 years. These relationships have resulted in 
joint investigations between BIA and other agencies in the area of drug 
enforcement, and training regarding the dangers of Fentanyl and 
Fentanyl derivatives. The group has also worked together to coordinate 
an increased presence in Indian Country during the National Drug Take 
Back Initiative. Through this federal agency collaboration with the 
Drug Enforcement Administration and other DOJ components, BIA increased 
the number of take back locations to 115 throughout Indian Country. 
These Indian Country locations removed just over 1,500 pounds of 
illegal substances from tribal communities.

    Question 2. There continues to be a huge gap in the training of BlA 
officers versus FBI agents when it comes to investigating crimes like 
human trafficking and homicide. Given the fact that in many cases BIA 
officers wiJI be the first on the scene or to speak with a victim, how 
do we ensure that our BIA officers have the proper training and 
knowledge to make sure that the investigation is not compromised and 
that the FBI and US Attorney's offices are able to prosecute the 
perpetrators?
    Answer. The duties of a BIA Uniformed Officer are much different 
than an FBI or BIA Special Agent. Typical duties for a uniformed 
officer include responding to emergency and non-emergency calls, 
patrolling assigned areas, conducting traffic stops, and issuing 
citations. The Federal Law Enforcement Training Center (FLETC) basic 
police training programs address common knowledge, skills, and 
abilities that are expected of all federal uniformed officers. This 
includes, but is not limited to skills such as how to preserve a crime 
scene, identify and collect evidence, interview witnesses and prepare 
written incident reports that record all aspects of a criminal or non-
criminal incident.
    The BIA also employs Special Agents that are highly experienced and 
trained to take the lead on complex federal criminal investigations or 
lead a team of investigators on major crime scenes. These agents also 
work alongside the FBI, DEA and other federal agencies to conduct joint 
federal criminal investigations within Indian Country. Over the past 
decade, BIA has focused on enhancing the investigative abilities of 
their special agents to meet or exceed those of other federal agencies. 
Since BIA agents normally work closely with the BIA uniformed police 
programs, the uniformed officers are able to learn additional 
investigative techniques and hone their investigative skills through 
mentoring and hands-on experiences with seasoned agents.

    Question 3. What additional training and/or requirements do you 
think we need so that we begin to move towards parity in the 
investigation and presentation of a case to the US Attorney's office 
regardless of who is the lead investigating agency or first on the 
scene?
    Answer. The BIA and Tribal investigators complete criminal 
investigator training programs offered by the Federal Law Enforcement 
Training Center (12 weeks) or the Department of the Interior's 
Investigator Training Program (6 weeks). Additional criminal 
investigation training specific to the investigation of violent crime 
in Indian Country is provided to BIA, tribal, and FBI special agents in 
the Indian Country Criminal Investigation Training Program (2 weeks) 
that includes courses in Criminal Jurisdiction in Indian Country; US 
Attorney's Office Communication and Collaboration; Trial Preparation, 
and Defense Strategies.
    The BIA has assessed additional training and resources which 
includes the capacity to conduct criminal investigation to address 
Archeological Resources Protection Act (ARPA) and Drug Investigation 
and Awareness--specifically, opioids. BIA training is carried out at 
the Federal Law Enforcement Training Center (FLETC) in Artesia, New 
Mexico, which provides facilities for partner organizations but 
currently has no forensic crime scene facility to support important 
training initiatives for Indian Country.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                            Hon. Dave Flute
Federal Administrative Assistance to Tribes
    Question 1. Will withholding administrative funds impact your 
tribe's ability to get timely response from the BIA and DOJ on public 
safety and victim services related issues?
    Answer. Withholding funds from the BIA for failing to file timely 
public safety reports will only penalize Indian country for the lack of 
funding and resources in Indian law enforcement. A better approach 
would be to withhold funding from the leadership offices at the 
Department level. For example, withhold funding from the Office of the 
Secretary or the Deputy Secretary of the Department of the Interior and 
the Office of the Attorney General or the Deputy Attorney General and 
you will get immediate results and focus attention on the need for 
adequate funding for Indian country law enforcement.
Prinsoner Rights
    Question 2. Do you believe it is important for the Department of 
Justice and the Bureau of Indian Affairs to work more closely with 
tribes to address their policies regarding Native cultural expression 
and practices?
    Answer. Yes. Native American prisoners should be allowed Freedom of 
Religion in Federal Prisons. For example, for many Native Americans, it 
is traditional to wear long hair and engage in sweat lodge ceremonies. 
Native Americans should have freedom of expression in the exercise of 
these religious customs. Given the Federal Trust and Treaty 
Responsibilities to Indian nations, the U.S. Department of Justice and 
the Bureua of Prisons should consult closely with Indian nations on the 
treatment of Native American prisoners because their incarceration at 
the Federalleveli is largely due to the Federal Government's unique 
Indian country public safety and law enforcement responsibilities.

    Question 3. What sort of accountability for incarcerated Native 
youth education would you recommend for the Brureau of ldnain Affairs 
and the DOJ?
    Answer. Recently, the Sisseton-Wahpeton Sioux Tribe sent a law 
enforcement delegation to visit the San Carlos Apache Tribe. The San 
Carlos Apache Tribe has an outstanding BIE funded juvenile detention 
education curriculum that is conducted by two award winning teachers. 
These teachers are able to help the youth in custody to catch up on 
their studies, graduate high school or earn General Equivalency 
Degrees, and upon release, get jobs or go to college. The record of 
achievement is impressive. The BIA and Department of Justice should be 
required to work with the BIE to provide appropriate education for 
youth in custody because quality instruction can result in positive 
outcomes for our youth and our communities in the long-run.
The Violence Against Women Reauthorization Act of 2013--Tribal Public 
        Safety Resources
    Question 4. Do you believe the VOCA tribal grant programs should be 
made permanent?
    Answer. Yes, the VOCA tribal grant programs should be made 
permanent. The SURVIVE Act should be enacted into law. The United 
States, through the Departments of the Interior and Justice, have 
special Federal treaty, trust and statutory responsibilities for public 
safety and law enforcement in Indian country. Unlike the rest of the 
United States, the U.S. Attorneys serve as our District Attorneys'' for 
felony crime, violent crime, drug crime, domestic violence, and sexual 
assault. Accordingly, the VOCA crime victim funding is essential to 
providing remedial, counseling, therapeutic services to crime victims 
in Indian country. Men, women and children who suffer such crimes often 
suffer Post Traumatic Stress Disorder, and are in great need of mental, 
behavioral, and physical health assistance, housing, and special 
victims services. The VOCA and SURVIVE Act provisions are greatly 
needed.

    Question 4a. How would making it permanent benefit tribes and 
victims of crime. Please be specific.
    Answer. One of the very serious problems that Indian tribes face, 
especially on large rural reservations, is a lack of base funding for 
public safety and law enforcement. Typically, the Office of Justice 
Programs has served as the vehicle for competitive grants across 
America, yet Indian tribes need more basic, ongoing funding so that we 
can provide basic public safety and law enforcement on a continuing 
basis to serve those in need of Victims Services. We know that the 
violence and drug crime are ongoing, and we need to provide ongoing 
services for the victims of crime.

    Question 4b. Do you believe that 5 percent is sufficient?
    Answer. The proposed 5 percent set aside is a good starting point 
because, at present, we are only receiving \1/2\ of 1 percent in Indian 
country from the Crime Victims Fund. The 5 percent should be a minimum 
funding level and in future years, the Justice Department should be 
authorized to raise that funding level to 7 percent, just as Congress 
has authorized for the DOJ Office of Justice Programs. In the future, 
even that 7 percent should be increased to 10 percent to reflect the 
depth of the law enforcement needs in Indian country and the United 
States special responsibilities to Indian country, Indian nations, and 
Indian homelands.

    Question 4c. Would there be a benefit to modifying the bill 
language to turn the So/o set aside into a funding minimum?
    Yes, the SURVIVE Act should establish a 5 percent minimum for 
funding.

    Question 5. If enacted, how would you recommend the grant funds 
authorized under this legislation be distributed?
    Answer. If enacted, the funds under the Crime Victims Fund should 
be distributed through tribal block grants in accordance with a formula 
based on several factors, the population of Indian nations, the size of 
reservations, incidence of crime, victimization levels, Federal and 
tribal jurisdiction authority and the needs of public safety and tribal 
law enforcement. The model that should be used is the Public Law 102-4 
77 Program, so that these programs can be part of a Master Tribal Law 
Enforcement Contract with the Justice Department and the Interior 
Department in coordination with Public Law 93-638 Contracts from the 
Bureau of Indian Affairs.

    Question 6. Do you think that creating a public safety block grant 
would benefit your tribe?
    Answer. Yes, Federal funding for law enforcement should move 
forward under master tribal government plans for law enforcement and 
block grants to fund those plans. See above. The Federal funding has to 
flow to those areas most in need of public safety and law enforcement, 
and Indian tribes should be able to count on year-over-year funding 
based upon a sensible block grant formula based upon these factors.

    Question 6a. If enacted, how would you like to see the funds 
distributed?
    Answer. As noted above, the funds should be distributed through 
tribal block grants based upon Indian country demographics, geography 
and law enforcement need. Funding should be consistent year-over-year 
so Indian nations can establish master plans for supporting tribal 
victims of crime, providing for public safety and enhancing tribal law 
enforcement.

    Question 6b. Are there any lessons learned from CTAS, NAHASDA and 
the 477 grant program that should be incorporated into a potential 
block grant under S. 1953?
    Answer. Pilot projects should be established for our Indian nations 
in the Great Plains Region based upon Indian nation demographics, 
Indian country geography, the need for public safety, and the 
requirements of tribal law enforcement. The projects should be 
initiated immediately based on the type of formula outlined above.
    We need to address real law enforcement need, the public served, 
offenders stopped, arrested, prosecuted and convicted, the level of 
drug crime, violent crime, violence against women, domestic violence, 
and juvenile offenses, and the population and area of Indian country 
served.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Heidi Heitkamp to 
                            Hon. Dave Flute
    Question 1. What is your view of the FBI presence and 
responsiveness to crime on your reservation? Is it adequate? If not, 
what more should be done to increase their presence and responsiveness 
to criminal activity and crime on your reservation?
    Answer. There should be increased funding for FBI in Indian country 
and a greater number of agents available to help us fight crime. We are 
working hard on intergovernmental arrangements with the U.S. Attorney, 
FBI, State's Attorney, State Attorney General, and state and local 
police. Yet, we still have an urgent problem with drug crime, violent 
crime, violence against women, domestic violence, and juvenile 
offenders. In addition, missing and murdered Indian persons is an 
ongoing issue. The FBI should not just respond to crime, but should be 
proactive and continue to help us break-up drug cartels, gangs, and 
violent offenders who continue to victimize our Native people because 
of gaps in law enforcement facilities, presence, funding and 
jurisdiction.

    Question 2. How has the BIA andjor DOJ worked with your tribe to 
help facilitate conversations or provide you with the resources 
necessary to reach agreement with state or local law enforcement? Has 
BIA and/or DOJ led a consultation with your tribe tribes in your state 
and your region on this issue recently? If so, what was the outcome of 
that consultation?
    Answer. The Sisseton Wahpeton Sioux Tribe have worked for several 
years on cooperative prosecutorial diversion programs at the probation 
level. As a Tribe, we have sought to convene intergovernmental meetings 
with the U.S. Attorney, FBt State's attorney, state and local police, 
BIA and tribal police to address the growing problem of drug crime and 
violent crime in our area. We have engaged on intergovernmental drug 
task forces, spent our own tribal resources on drug dogs, and 
participation in such intergovernmental efforts. So, we have worked 
very actively on such intergovernmental efforts. There is very little 
funding for cross-jurisdictional efforts, so we need more funding for 
these programs. The Governors of North and South Dakota have commended 
us for our tribal law enforcement efforts. Recently, the State Attorney 
General requested a joint powers agreement, so that our tribal criminal 
investigator can investigate crimes by non-Indians on our checkerboard 
fee lands with our homeland, the Lake Traverse Reservation.

    Question 3. What do we need in terms of increased law enforcement 
and public safety?
    Answer. First and foremost, we need a new state-of-the-art Justice 
Center. We have been frustrated by the BIA process of reviewing and 
closing older tribal and BIA jails--with no plan for repair or 
replacement For over 10 years, we have sought Federal funds to assist 
us with a new jail--we have received DOJ planning funds and our 
estimated cost of the Sisseton Wahpeton Justice Center, which 
incorporates Adult and Juvenile Detention, Tribal Court, Police Intake, 
Alcohol and Substance Abuse Detox, Counseling and Treatment, and 
Transitional Housing is $32 Million. In December 2016, the BIA closed 
our Sisseton Wahpeton Jail with no plan for re-opening or replacing the 
jail, and the doors were off, plumbing salvaged, and beds removed 
within 2 weeks. This--despite the fact that we had met with the BIA 
Leadership and sought replacement of our outmoded Jail for several 
years prior to its closure. This has left us with a a catch and 
release'' system of tribal law enforcement, and it is a breach of the 
Federal trust responsibility, treaty rights, and tribal self-
government.
    The BIA approach to closing jail facilities with no plan for 
replacement is not sound law enforcement, it undermines public safety 
and destroys tribal government infrastructure. The BIA system for 
closing jails should be stopped and replaced with an adequate system 
for facility building, operation, staffing and maintenance, law 
enforcement and public safety.
    We need more funding for tribal police, criminal investigators, 
police drug dogs, equipment, uniforms, vehicles to fight drug crime, 
violent crime and violence against women and children.

    Question 4. What part of the special jurisdiction implementation 
has been the most resource intensive for your tribe?
    Answer. The amount of time and attention of our employees, leaders, 
and attorneys to ensure all areas of SDVCJ were ready for 
implementation. Additionally, code revision was crucial when preparing 
for implementation. While preparing for code revision a significant 
amount of time was also spent meeting with tribal leadership, to ensure 
throughout the entire process our leadership understood and supported 
SDVCJ. In addition to working closely with tribal leadership we also 
had to ensure court staft police department officials, tribal programs, 
tribal committees among others were also part of the process to ensure 
all areas of implementation were in working order. In addition to time 
and attention for those working on implementation was ensuring the 
funding for public defense was in order.

    Question 5. If more federal support were available for special 
jurisdiction implementation, where would the tribe most need them?
    Answer. The ability to hire additional staff to spearhead projects 
and additional funding for legal counsel is imperative to getting 
implemented. Have competent and dedicated staff are critical. Having 
the Intertribal Working Group was an excellent resource. Having the 
ability to work with an organization (in this instance NCAI) that had a 
coalition of Tribes and several attorneys made a significant impact 
towards implementation. We were able to share ideas and see what was 
done before in getting implementation accomplished. Without a working 
group like ITWG, federal support would include areas such as increased 
funding for attorneys and consultants.

    Question 6. Would your tribe benefit from being able to use the 
Victims of Crime Act (VOCA) funding set-aside in the SURVIVE Act for 
special jurisdiction implementation?
    Answer. Absolutely. VOCA funds could be used both for 
implementation as well as for programs and shelters that assist 
domestic violence victims. There are also programs for domestic 
violence perpetrators that could benefit from a set-aside and address 
domestic violence at the outset. These funds could also assist the 
Tribe in community education to create awareness regarding domestic 
violence, many native women may not feel they can come to the Tribe for 
assistance or help when their perpetrator is non-Indian. A setaside 
must be written into law and to ensure victims of crime are getting the 
services they need.
                                 ______
                                 

*RESPONSES TO THE FOLLOWING QUESTIONS WERE NOT AVAILABLE AT THE TIME 
        THIS HEARING WENT TO PRINT*

           Written Questions Submitted by Hon. Tom Udall to 
                             Carmen O'Leary
Federal Administrative Assistance to Tribes.
    Question 1. In order for Congress to exercise its oversight 
authority, it needs timely reporting of information on Indian programs 
from federal agencies. S. 1953 seeks to incentivize timely reporting by 
withholding administrative funding from agencies within the Department 
of Justice and the Department of the Interior that fail to submit 
required reports by the legislative deadline. Will withholding 
administrative funds impact your organization's ability to get timely 
responses from the Bureau of Indian Affairs and the Department of 
Justice on public safety and victim services issues?
Prisoner Rights
    Question 2. S. 1953 attempts address a number of issues related to 
public safety in Indian Country but it fails to address the protection 
of Native inmates' rights, including their religious freedoms (e.g. 
hair length and wearing sacred objects). According to a study by the 
Navajo Nation Corrections Project, recidivism among American Indians is 
dramatically reduced by participation in traditional religious 
ceremonies. However, many Native American inmates have been denied the 
ability to participate in regular religious practice or keep articles 
of religious devotion. Last year, the Supreme Court rejected an appeal 
from several Native American inmates incarcerated in an Alabama state 
prison to review a decision by the Eleventh Circuit that said the 
state's restrictions on prisoner hair length did not violate federal 
law by infringing on the prisoners' religious beliefs. Native youth are 
disproportionately represented in federal prisons due to the unique 
jurisdictional landscape of Indian Country; thus, their cultural rights 
and needs are often not respected. Do you believe it is important for 
the Department of Justice and the Bureau of Indian Affairs to work more 
closely with tribes to address their policies regarding Native cultural 
expression and practices?

    Question 3. Several years ago, news reports began to surface that 
Native youth in BIA-funded detention facilities were not provided with 
any educational or vocational opportunities. Additionally, Native youth 
represent as much as 60 percent of juveniles in federal custody. 
However, the federal corrections system contains no juvenile division--
meaning these youth have limited to no access to age-appropriate 
educational or rehabilitation opportunities. S. 1953 fails to 
adequately address the educational-access rights of Native youth in 
tribal, BIA, and federal detention facilities. What sort of 
accountability for incarcerated Native youth education would you 
recommend the Committee consider for the Bureau of Indian Affairs and 
the Department of Justice?
Federal Coordination for Native Victim Services
    Question 4. Earlier this year, Senator Udall sent a letter to the 
Department of the Interior, the Department of Health and Human 
Services, and the National Indian Gaming Commission asking them to 
coordinate with victim service providers to better spot and respond to 
domestic violence and human trafficking in Indian Country, and urging 
them to coordinate with the Stronghearts Native Helpline to ensure that 
information about the hotline was publicly posted. Several other 
senators, from both sides of the aisle, signed this letter. S. 1953 
seeks to increase coordination between federal agencies on issues 
related to public safety, but does little to increase awareness of the 
victim services available in Indian Country. Similarly, the SURVIVE 
Act--while providing much-needed funding for victim services in Indian 
Country--does not take steps to ensure that the public is informed of 
the existence of these services. Do you believe that requiring more 
``buy-in'' from federal partners to work with tribes and 
organizations--like the Native Women's Society and the Stronghearts 
helpline--will increase the effectiveness of the VOCA set-aside funds?
Tribal Public Safety Resources
    Question 5. S. 1870 (SURVIVE Act) amends the Victims of Crime Act 
(VOCA) to authorize a 10-year 5 percent tribal set-aside within the 
Crime Victims Fund to support a new tribal grant program.

    a. Do you believe the VOCA tribal grant program should be made 
permanent?

    b. How would making it permanent benefit tribes and victim service 
programs? Please be specific.

    c. Do you believe 5 percent is sufficient?

    d. Would there be a benefit to modifying the bill language to turn 
the 5 percent set-aside into a funding minimum?

    Question 6. S. 1870 creates a grant program to administer a 5 
percent Victim of Crime Act set aside for tribal victim services but 
does not specify whether these grants will be competitive or formula-
based. S. 1953 mandates a feasibility study of creating a block grant 
program similar to CTAS, the 477 tribal workforce program, and NAHASDA 
by pooling tribal public safety funds from the Department of the 
Interior, the Department of Health and Human Services, and the 
Department of Justice. If enacted, how would you recommend the grant 
funds authorized under each program be distributed?
                                 ______
                                 
         Written Questions Submitted by Hon. Heidi Heikamp to 
                             Carmen O'Leary
    Question 1. In your testimony, you stated that in 2013, more than 
60 percent of states with Indian tribes did not make a single sub 
grant. Can you clarify if this statistic is for the two formula grant 
programs under the Victims of Crime Act, and where this information may 
be found?
                                 ______
                                 
           Written Questions Submitted by Hon. Tom Udall to 
                          Hon. R. Trent Shores
Federal Administrative Assistance to Tribes.
    Question 1. In order for Congress to exercise its oversight 
authority, it needs timely reporting of information on Indian programs 
from federal agencies. S. 1953 seeks to incentivize timely reporting by 
withholding administrative funding from DOJ agencies that fail to 
submit required reports by the legislative deadline.

    a. If the required reports under S. 1953 weren't submitted on time, 
what impact would withholding administrative funds have on the 
Department's abilities to keep tribal public safety programs running?

    b. Practically, is there a way to withhold administrative funds 
without impacting tribes?

Whistleblower Protections
    Question 2. S. 1870 (SURVIVE Act) contains a provision that would 
require the Victims of Crime Act (VOCA) tribal grant recipients and 
sub-recipients to immediately report any finding of fraud, waste, or 
abuse to the Director of the Office of Victims of Crime (OVC). This 
provision is similar to language included in a bill before the 
Committee last Congress (the Indian Health Service Accountability Act). 
During a legislative hearing on that bill, the U.S. Office of Special 
Counsel submitted a statement for the record saying that the similar 
mandatory reporting procedure ``will restrict, rather than expand, 
existing channels for whistleblower disclosures.''

    a. In what ways does DOJ handle grant misuse reporting for other 
programs administered by the Department?

    b. What sort of enforcement mechanisms would DOJ likely use to 
ensure grantees and sub-grantees comply with this reporting mandate?

    c. Could the reporting requirement included in the bill be 
broadened? Or, is only allowing grantees to report to the Director of 
OVC sufficient?

Prisoner Rights
    Question 3. S. 1953 seeks to address a number of issues related to 
public safety in Indian Country but fails to address the protection of 
Native inmates' rights, including their religious freedoms (e.g. hair 
length and wearing sacred objects). According to a study by the Navajo 
Nation Corrections Project, recidivism among American Indians is 
dramatically reduced by participation in traditional religious 
ceremonies. However, many Native American inmates have been denied the 
ability to participate in regular religious practice or keep articles 
of religious devotion. Last year, the Supreme Court rejected an appeal 
from several Native American inmates incarcerated in an Alabama state 
prison to review a decision by the Eleventh Circuit that said the 
state's restrictions on prisoner hair length did not violate federal 
law by infringing on the prisoners' religious beliefs. Native youth are 
disproportionately represented in federal prisons due to the unique 
jurisdictional landscape of Indian Country; thus, their cultural rights 
and needs are often not respected.

    a. What are DOJ's policies for training federal corrections 
officers on the cultural rights and accommodations of Native inmates?

    b. How is your Department making sure that culturally-appropriate 
programming and policies are in place for incarcerated Native youth?

    Question 4. Several years ago, news reports began to surface that 
Native youth in BIA-funded detention facilities were not provided with 
any educational or vocational opportunities. Additionally, Native youth 
represent as much as 60 percent of juveniles in federal custody. 
However, the federal corrections system contains no juvenile division--
meaning these youth have limited to no access to age-appropriate 
educational or rehabilitation opportunities. S. 1953 fails to 
adequately address the educational-access rights of Native youth in 
tribal, BIA, and federal detention facilities. Is the Department making 
efforts to ensure all Native youth in their corrections facilities have 
access to educational opportunities? If so, please describe.
Tribal Public Safety Resources
    Question 5. S. 1870 amends VOCA to authorize a 10-year 5 percent 
tribal set-aside within the Crime Victims Fund to support a new tribal 
grant program. The 5 percent is a hard cap; it would not set a 
legislative floor. Has DOJ conducted an analysis of the level of need 
for victim services in Indian Country?
                                 ______
                                 
         Written Questions Submitted by Hon. Heidi Heitkamp to 
                          Hon. R. Trent Shores
    Question 1. During the annual consultations mandated under VAWA, is 
access to federal crime information databases something you hear often 
from tribes?

    Question 2. Are there gaps in federal systems like the National 
Crime Information Center (NCIC) and the National Missing and 
Unidentified Persons System (NamUs)? Can they be improved to work 
better for missing or murdered Native Americans?

    Question 3. Smaller reservations may not have access to NCIC 
computers and must rely on local or state police to report crimes for 
them. DOJ recently announced an expansion of its Tribal Access Program 
to 15 additional tribes. Can you give us an outlook on continued 
expansion of this program so we know when all tribes in need will be 
able to participate?

    Question 4. Savanna's Act calls for the creation of standard 
protocols for responding to missing and murdered Native women. Can you 
describe some of the efforts DOJ currently has in place to provide 
training for law enforcement officers on cases involving Native 
Americans? Has that been effective? What does that training consist of?

    Question 5. Given that FBI and BIA officers are traditionally the 
lead agencies on major crimes that occur in Indian Country--and in the 
case of BIA many other crimes as well--do you see a difference in the 
declination rate and successful prosecution rate between those 
investigations and cases initiated and led by the FBI versus BIA? If 
so, what do you see as the major difference that leads to those 
outcomes and how do we address that?

    Question 6. If available, what are the statistics for reported 
homicides, as well as prosecutions for homicide, in Indian country in 
the last 20 years?

                                  <all>
</pre></body></html>
